                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                   Inspection of Embassy New Delhi, India
                                            and Constituent Posts

                                              Report Number ISP-I-11-39A, June 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.



                                               i
                                  SENSITIVE BUT UNCLASSIFIED
                                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

This inspection was conducted in accordance with the Quality Standards for Inspections, as
issued by the President’s Council on Integrity and Efficiency, and the Inspector’s Handbook, as
issued by the Office of Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                Table of Contents

Key Judgments                                                              1
Context                                                                    3
Executive Direction                                                        4
   Rightsizing                                                             7
   India 2020 and Future Consulates General                                8
Policy and Program Implementation                                          9
   Advocacy, Reporting, and Analysis                                      10
   Foreign Assistance Coordination                                        17
   Public Diplomacy                                                       18
   Consular Affairs                                                       28
   Innovative Practice: Using Metrics to Measure Performance              29
   Innovative Practice: Consular Training Database                        32
   Innovative Practice: Barcoding Commonly Used Sentences for Officers’
                        Adjudication Notes                                39
   Innovative Practice: Peer Interview Observation Program                42
Resource Management                                                       46
   Management Section Overview                                            47
   Financial Management                                                   50
   International Cooperative Administrative Support Services              53
   Human Resources                                                        54
   Mission-wide Training Strategy and Program                             57
   General Services Office Operations                                     58
   Facilities Management                                                  64
   Safety, Health and Environmental Management                            67
   Information Management and Information Security                        67
Quality of Life                                                           72
   Overseas Schools                                                       72
   Employee Associations                                                  73
   Community Liaison Office                                               75
   Medical Services                                                       76
Management Controls                                                       77
   Management Section                                                     77
   Consular Section                                                       77
List of Recommendations                                                   78
Informal Recommendations                                                  85
Abbreviations                                                             90




                                        iii
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   Mission India is doing an impressive job of expanding and deepening the bilateral
       relationship with India, thus advancing a major U.S. foreign policy objective.

   •   Embassy New Delhi’s strong and experienced country team works well together. The
       front office, section chiefs, and agency heads also do an excellent job coordinating the
       work of their counterparts in the four consulates general.

   •   The Ambassador has strengthened the public image of the United States in India through
       his extensive travel and public appearances. He likely has the highest public profile of
       any diplomat in India.

   •   Expanding the bilateral relationship requires managing capacity constraints in the
       Government of India; improving access to Indian officials; and moving routine issues to
       the working level, without which it will be more difficult to use staff as effectively as
       possible; and to advance U.S. goals.

   •   Given the heavy demands on their time, the Ambassador, deputy chief of mission
       (DCM), and senior staff should develop a comprehensive strategy to allocate the
       Ambassador’s and their responsibilities for engaging with top-level Indian counterparts
       and for managing their growing workload. The DCM should lead this effort.

   •   Because of the rapidly expanding bilateral relationship and growing Indian economy,
       nonimmigrant visa workload could double by 2020. Stakeholders in the Department of
       State (Department) need to initiate long-range workload planning and a long-term
       strategic plan for facilities in India, including the possibility of more posts.

   •   Housing issues are the mission’s greatest management challenge. Finding affordable,
       quality housing is becoming increasingly difficult, especially in New Delhi, Mumbai, and
       Hyderabad. The mission and the Bureau of Overseas Buildings Operations should plan to
       build housing units on U.S. Government-owned land.

   •   Consular Team India, initiated in 2009 to integrate the resources, talent, leadership,
       policies, and procedures for the five consular sections in India, is a model for integrating
       large multipost consular operations. The Bureau of Consular Affairs should codify its
       principles as a guide for consular leaders in other missions.

   •   The mission has exploited successfully its public diplomacy platforms and social media,
       such as American Centers and libraries, to reach and influence a key demographic group
       – upwardly mobile young people from the emerging middle class.


The inspection took place in Washington, DC, between January 6 and 31, 2011; in New Delhi,
India, between February 3 and March 23, 2011; in Mumbai, India, between February 15 and 24,
2011; in Chennai, India, between February 18 and March 4, 2011; in Hyderabad, India, between
                                          1
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

March 7 and 11, 2011; and in Kolkata, India, between March 7 and 11, 2011. (b) (6)




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
        India has the world’s second largest population (1.21 billion in 2011). It is the seventh
largest country in the world by area, eleventh by nominal gross domestic product, and fourth by
purchasing power parity. Its large internal market, economic policy liberalization, and favorable
globalizing trends, have led to a sustained economic growth rate of about 6.5 percent annually
(8.5 percent in 2010). From an international perspective, this growth has enabled India to assume
a global leadership position in world trade, international financial governance, science and
technology, and regional security. From a domestic standpoint, India’s rapid growth has
significantly reduced poverty. Since the 1980s, the poverty rate has declined by nearly one
percentage point per year, with an estimated 60 to 70 million joining the ranks of the middle
class annually. Notwithstanding this progress, one-third of the world’s poor (living below a
dollar a day in 2005), about 267 million people, live in India.

         Once India’s main international patron (the Soviet Union) passed from the scene, India
began to move away from its reflexive anti-Americanism. A conviction is growing among Indian
elites that engaging the United States is necessary for the success of India’s national interests. In
recent years the relationship has deepened and broadened with the civil nuclear cooperation
agreement, security cooperation following the Mumbai terrorist attacks, and ensuing high-level
visits, most importantly President Obama’s visit in November 2010. Today, the United States
and India collaborate on nearly every global challenge, from terrorism to energy security,
nonproliferation, piracy, and hunger.

        Trade, business, educational, and family ties between the United States and India are on
the rise, and the diplomatic relationship is struggling to keep pace. With almost 500 U.S direct
hires out of 2,500 total staff, Mission India is one of the largest U.S. missions in the world. Since
2005, American staffing has grown by over 50 percent (170 positions), encompassing a 63
percent increase in consular positions. Despite opening a fourth consulate general in Hyderabad,
the mission continues to face challenges meeting a growing demand for consular services.

        Although the bilateral relationship is on a positive trajectory, India remains a difficult
place to work. U.S. diplomats’ access to Indian officials is tightly controlled. The process by
which the Indian Government coordinates contacts internally can at times be an obstacle to
broadened government-to-government activity that often requires high-level intervention to
expedite progress. Decisionmaking is cumbersome, and many influential officials and politicians
are wary of a closer relationship with the United States. Mission employees face health and
security risks, including the threat of terrorism.




                                           3
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The mission is doing an impressive job of expanding and deepening the bilateral
relationship with India, thus advancing a major foreign policy objective of the United States. As
the context section makes clear, this is a difficult process requiring a major commitment of time
and energy at all levels of embassy staff, particularly the most senior.

        The Ambassador and DCM have a traditional division of responsibilities and work well
together. The Ambassador concentrates on public diplomacy and policy issues, including
influencing the policy process in Washington and New Delhi. The DCM oversees the operations
of the mission. The Ambassador devotes considerable time to public diplomacy, meeting Indian
citizens around the country from all walks of life, demonstrating that the United States cares
about social and environmental concerns as well as national security and commercial issues, and
about the poor and disadvantaged as well as the influential. His visits include meetings with local
officials and promoting commercial interests. A senior embassy officer noted that the
Ambassador has the highest public profile of any diplomat in India, which he reinforces through
social as well as traditional media.

        The Ambassador focuses on key issues such as counterterrorism, security, and the
growing defense relationship, including military sales. Important progress has been made in
these areas to improve communication and collaboration between the two countries, including
the path-breaking Counterterrorism Cooperation Initiative. The Ambassador has also reached out
to the U.S. embassies in Pakistan and Afghanistan to try to find ways to work together to
promote dialogue and cooperation among the three countries, and he and the mission forged an
interagency consensus on a strategy for countering a specific regional terrorist threat. He also
signaled his intention to play a stronger role in commercial issues as part of the President’s
National Export Initiative. This came on the heels of a visit by Commerce Secretary Locke in
which the Secretary and the Ambassador teamed up for a series of productive meetings with the
business community and key Indian officials.

        The Ambassador has successfully promoted visits of top U.S. officials and private-sector
representatives. He and the mission team and their counterparts from Washington organized a
remarkably successful visit of the President to India in November 2010, in which the tone and
the substance of the bilateral relationship were advanced significantly. He and the embassy team
worked intensively with the Indian Government and Washington agencies to secure several key
deliverables for the visit. The mission and its leadership should be justifiably proud of this major
achievement.

        The embassy is fortunate to have a country team of experienced, competent section and
agency heads who respect one another and work well together. Each has emphasized how
important this cooperation is in enabling them to manage their large and growing responsibilities.
The Department section heads, relevant agency heads, and the front office also do an excellent
job in coordinating the work of their counterparts in the four consulates general.

       To coordinate the work of the embassy, the Ambassador chairs a weekly meeting of the
country team and a brief meeting every morning of a small group consisting of the DCM;
counselors for political, economic, and public affairs; and the senior Defense representative. He
                                           4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

also meets weekly with his security/counterterrorism staff. The DCM chairs a monthly meeting
of the counterterrorism and law enforcement working group, meets every 1 to 2 weeks with
individual sections and agencies in their offices, and hosts weekly digital video conferences
(DVC) with the consulates general. During the inspection, the Ambassador created “fusion
groups” on counterterrorism, export promotion, and education, which he will chair.

        Some agency and section heads have less contact with the Ambassador than they have
had in other embassies and during the first 12 months of the Ambassador’s tenure. This is in part
because the Ambassador has restricted participation in the daily small group and has also
reduced the frequency of his one-on-one meetings. The willingness of those in the small group
meetings to brief their colleagues on issues of interest to them has somewhat mitigated concerns
over less frequent access. The three new fusion groups should increase the Ambassador’s contact
with some country team members. Also, the DCM proposed, after an off-site to kick off
preparation of the Mission Strategic and Resource Plan (MSRP), to arrange additional issue-
oriented meetings for the Ambassador with individual or small groups of country team members.
These two positive initiatives should help improve communication between the Ambassador and
the senior staff. The OIG team also suggested that the small group be expanded somewhat at
least 2 days per week.

        Communication and coordination could be improved further if the Ambassador could,
whenever possible, include an embassy officer in meetings with senior host government officials.
There are, of course, some meetings which have to be one on one due to host government
sensitivities.

       During the inspection, the front office committed to make decisions on staff proposals
and taskings more timely, clear, and consistent and to hold sections accountable for making
proposals in proper form and context and for meeting deadlines. A daily tasking list, a welcome
procedural reform, reinforced the commitment.

        The Indian Government’s capacity to engage the United States is limited, making it
difficult to resolve important issues at middle levels of government. Often decisions are made at
the ministerial level, and only ambassadors can intervene with ministers. Thus, there is a greater
demand in the embassy for the Ambassador to provide advocacy at the top levels of government
than he currently has time to meet. He is viewed as a very effective advocate. He masters his
brief and conveys it convincingly. The question for him and his senior staff is how best to
allocate his time.

        Rather than acting primarily on individual requests and proposals, the Ambassador,
DCM, and senior staff should develop a comprehensive strategy setting out how they can best
divide responsibilities to engage with senior-level Indian officials and politicians and members
of the private sector in furtherance of mission objectives. This strategy could include an
assessment of how hard to push the host government on key issues and how to go about it,
including how extensively to involve Washington agencies directly in this process. If the
Ambassador needs to devote more time to this part of his responsibilities, a determination needs
to be made of what responsibilities could be cut back; for example, embassy leadership might
determine that the time dedicated to public diplomacy could be reduced. The DCM could play a
major role in organizing this process, developing a strategy with specific proposals for the
Ambassador’s decision.
                                                  5
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 1: Embassy New Delhi should develop a comprehensive
       strategy for allocating responsibilities among senior staff, particularly the Ambassador
       and the deputy chief of mission, for engaging with senior Indian counterparts in
       furtherance of mission objectives, including Washington agencies where appropriate.

        This is a very busy embassy. Some employees work a long day and then well into the
evening, in part because the time difference with Washington means coordination takes place
after hours. A constant flow of visitors and an increasing number of bilateral working groups add
to the workload, though they are, for the most part, a welcome and necessary part of a growing
relationship. The Ambassador and DCM have instituted a work/life balance initiative to help
employees increase efficiency and spend less time in the office through, among other things,
more flexible working hours. While this initiative has had a positive impact in the consulates
general and on many embassy employees, its effect in a number of offices in the embassy has
been to take away 30 minutes at the end of the work day and make it more difficult for some
managers to ask staff members to stay later when necessary. The OIG team did not find areas for
significant time savings since the agenda for this embassy is so broad, and getting things done in
India is extremely difficult. However, the senior leadership of the embassy should regularly
address this problem to determine whether there are ways to reallocate or relieve workload to
benefit the most hard pressed personnel. Among other things, they should coordinate with
Washington agencies to try to reduce taskings of the embassy staff where possible and make
DVCs more compatible with the working day in New Delhi. Also, before assigning any
significant new task or program, the front office along with the senior staff should determine
what other tasks and programs can be modified or dropped. Finally, the Ambassador and DCM
can reduce, to the degree possible, last-minute taskings, which are another cause of late nights in
the office.

       Informal Recommendation 2: Embassy New Delhi should assess what tasks and
       programs can be modified or dropped when the front office, with senior staff, propose to
       undertake a significant new task or program and should minimize last-minute taskings to
       the degree possible.

        The Ambassador has well-honed political skills, a real advantage in a large democracy
such as India. He also is an engaging leader, greeting all staff members warmly and giving them
positive feedback and encouragement. The Ambassador could reinforce these contacts with more
engagement with staff below the level of the country team. For example, he could visit a section
or agency once a month. (He met with sections and agencies individually soon after he arrived at
the mission, and this was much appreciated.) He could also increase his visits to the consulates
general, combining them with public diplomacy/commercial promotion events, something that
both the American and Indian staff would welcome. The locally employed (LE) staff was
appreciative that the Ambassador held a DVC with them on the pay freeze and made an appeal to
the Department on their behalf.

        The DCM has been at post for about 7 months and has made a very positive impression
on the staff, including those in the consulates general, each of which he has visited twice. He is
both engaging and willing to engage. Acting as chief morale officer, he is concerned about
improving the quality of life of the embassy community. (The OIG team was pleased that the
Ambassador placed morale issues, including the most important of them – housing – in his top

                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

five priorities during the MSRP off-site.) The DCM’s strong interest in entry-level personnel is
well placed, as Mission India has almost 5 percent of the entry-level personnel in the Foreign
Service. The DCM has worked with the entry-level personnel and senior managers to create a
wide-ranging program with opportunities for experience in other sections of the embassy and
consulates general, for outreach and representational events, and for mentoring. The DCM’s
regular meetings with all sections and agencies and hosting of weekly DVCs with, and visits to,
the consulates general underscored his accessibility and responsiveness to concerns of the
mission community.

        As noted above, the Ambassador should give the DCM a stronger mandate to work with
the senior staff to provide him with proposals to allocate resources for both the policy and the
management work of the mission. For example, the DCM could host a weekly meeting of senior
staff where he could discuss broad strategies and specific proposals.

        Both the Ambassador and DCM place a high priority on security and support the regional
security officer and his programs. The Ambassador makes an effort to thank the security and
guard force around the embassy. They are committed to equal opportunity and reinforce this
concept in their internal policies and public statements. They also actively support and host
embassy community activities.

        The MSRP process for FY 2012 was inclusive and competently done. Though the
instructions for FY 2013 had not yet been received during the inspection, the Ambassador and
DCM had begun the process.

        The Ambassador and DCM have very carefully reviewed and responded to National
Security Decision Directive-38 requests. While the mission had some success in adding staff to
handle a rapidly expanding relationship, the Indian Government has recently withheld approval
of new mission positions. Sometimes blockages can be relieved only by high-level intervention.
Because of this situation, the Ambassador has been careful to agree to add only the most
essential positions.

        As noted above, coordination between the embassy and the consulates general has been
strong, both overall and on a section-by-section basis. The consuls general in Chennai,
Hyderabad, and Kolkata provide strong leadership across the full range of their responsibilities.
The consul general in Mumbai has been effective in public diplomacy, building contacts in the
government and public sectors, and in handling high-level visits, particularly that of the
President, but has been less effective in leading his staff. The OIG team provided guidance to
address this issue.

Rightsizing

        Mission India in 2010 made an unscheduled update to its rightsizing study that applied
only to New Delhi, as it supported the embassy’s new office annex project. In December 2011,
the Office of Management Policy, Rightsizing, and Innovation will conduct a more
comprehensive review of the entire mission. The embassy negotiates the National Security
Decision Directive-38 process satisfactorily but often encounters lengthy delays with gaining
official Indian approval for new positions and visas. According to embassy data, 17 positions are
pending Indian Government approval. The agencies to which the positions belong run the gamut
                                           7
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

and include the Department, the U.S. Agency for International Development (USAID), the
Centers for Disease Control (CDC), the Department of Defense (DOD), and the Department of
Justice.

        As a Tier 1 post, Embassy New Delhi should have consolidated by October 1, 2007, the
15 administrative services agreed by the State/USAID Joint Management Council. However,
efforts have fallen short. USAID maintains duplicative services in the areas of LE staff
recruiting, nonprogrammatic procurement, and travel management services, contending that
responsiveness, convenience, and the de minimis nature of its consumption of the services justify
the redundancy. The embassy should consolidate these services to eliminate the duplication and
possibly free up office space.

Recommendation 1: Embassy New Delhi should consolidate all travel, locally employed staff
recruiting, and nonprogrammatic procurement services that the U.S. Agency for International
Development currently provides separately. (Action: Embassy New Delhi)

       Embassy New Delhi has a temporary waiver allowing USAID to operate a separate
warehousing operation pending construction of a new warehouse facility on the U.S.
Government-owned enclave compound. The new facility will provide only a fraction of the
storage space now available, which argues for reducing stock levels by taking measures such as
pooling furniture. More broadly, this warehouse consolidation would conform to Department
guidance issued in 09 State 049647, which asks chiefs of mission to “establish and maintain
consolidated support platforms under ICASS [International Cooperative Administrative Support
Services].”

Recommendation 2: Embassy New Delhi should reduce duplication and inefficiency in
nonexpendable supply and property management by establishing a pool for furniture,
furnishings, and appliances under International Cooperative Administrative Support Services.
(Action: Embassy New Delhi)

India 2020 and Future Consulates General

        In the near future, Mission India expects an enormous increase in nonimmigrant visa
(NIV) workload. In 2005, the Bureau of Consular Affairs (CA) contracted a futures study, which
projected that NIV work would grow in India by 7 percent per year during the next 15 years.
That projection was close to the mark in FYs 2009 and 2010. However, because much NIV work
in India involves Indians travelling for business or temporary work, the weak economy in the
United States appears to have suppressed NIV demand in India in the past 2 years. The numbers
of business and temporary worker visas are increasing again as the U.S. economy gains strength.
Based on the statistics since October 1, 2010, NIV workload in India in FY 2011 may grow by
15 percent. If this trend persists, the futures study projection will prove too conservative.

        In the long run, even that projection would mean a near-doubling in NIV workload over
the next 9 years; Mission India could be looking at an estimated 1.18 million NIV applications
by FY 2020, up from a workload of 605,513 applications in FY 2010. The mission would need
approximately 41 more consular officers to adjudicate that workload increase; that would be on
top of the 94 consular officers currently assigned to Mission India.

                                          8
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         With such an increase in staffing and workload, it is likely that the mission will need new
facilities to do consular work in India, even with management practices such as shift work. It
would be prudent for the mission and the Department to begin now to make informed workload
projections, both in volume and locations, and to plan for new facilities to accommodate the
workforce that will be needed. Failure to do so could mean inadequate work space for
employees, disruptions in services, and backlogs in visa work with the attendant public relations
problems.

Recommendation 3: The Bureau of Consular Affairs, in coordination with Embassy New
Delhi, the Bureau of South and Central Asian Affairs, and the Bureau of Overseas Buildings
Operations, should prepare a long-range plan for Mission India to include projections of
estimated workloads, resources needed, potential locations within India, and facilities needed for
the year 2020. (Action: CA, in coordination with Embassy New Delhi, SCA, and OBO)

        Real estate and facilities management issues in India have a significant impact on mission
operations, security, and morale. Department offices have varying views on fundamental
questions, such as which consulates general should be on the Top 80 list and which U.S.
Government-owned properties should be sold or retained, and for what use. The difficulties and
uncertainties in selling or buying property due to Government of India constraints complicate the
development and implementation of a strategy. An April 2010 Bureau of Overseas Buildings
Operations (OBO) memorandum proposed the preparation of an in-house, long-term plan for
India and concluded with a list of eight objectives that the plan should address. The OIG team
believes this would be a good start, but the plan should be coordinated and agreed upon, not only
within OBO, but with all Department stakeholders to ensure unity of effort toward common
objectives.

Recommendation 4: The Bureau of Overseas Buildings Operations, in coordination with
Embassy New Delhi, the Bureau of South and Central Asian Affairs, the Bureau of Diplomatic
Security, and the Bureau of Consular Affairs, should develop and implement a long-term
strategic plan that addresses the management and disposition of residential and nonresidential
real estate and facilities, as concluded in its April 1, 2010, memorandum, Real Estate Issues and
USG Properties in India. (Action: OBO, in coordination with Embassy New Delhi, SCA, DS,
and CA)




                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Advocacy, Reporting, and Analysis

Political and Economic, Environment, Science, and Technology Affairs

        Mission India’s political and economic, environment, science, and technology (EEST)
team works at the forefront of U.S. Government efforts to fulfill the high ambitions for relations
set down by both countries’ leaders. The staff of these sections supports 18 bilateral working
groups that drive the strategic dialogue that the Secretary of State and Indian authorities
established in 2009. While the embassy’s political and EEST sections are among the largest in
the world, the OIG team believes that they are appropriately sized given the growing bilateral
relationship, large visitor workload, and vital reporting interests. Both sections have used the
professional associates program effectively to manage staffing needs. Political-economic staffing
in the consulates general consists of combined sections with LE staff support ranging in size
from several officers (Mumbai) to one or two officers elsewhere.

         As bilateral relations deepen, Mission India’s staff encounters greater obstacles in
working to achieve U.S. goals. The mission’s ability to engage India with programs, assistance,
visits, and cooperative ventures can overwhelm the more limited capacity and weak cooperation
among ministries and levels of government in India’s bureaucracy. Indian authorities have
denied U.S. requests to establish new positions in the embassy and consulates general and
decisions on embassy offers of law enforcement, counterterrorism, and military training; requests
for meetings for visitors often come late and are sometimes negative.

Section Profiles

         The political section has demonstrated policy leadership in key areas that advance the
bilateral relationship. Embassy political officers conceived the Counterterrorism Cooperation
Initiative, concluded between the United States and India in 2010. This initiative is designed to
overcome agency and ministry stovepipes in new areas of cooperation, for example, policing
large urban spaces and border and port security. The President’s announcement during his 2010
visit of U.S. support for India’s participation in multilateral nonproliferation regimes was an
important step in the evolution of U.S. policy that the embassy political section initially
developed. The section provides valuable counsel and reporting to Washington on regional
stability, while supporting Defense sales, building counterterrorism cooperation, and
implementing the export-control aspects of the 2008 civil nuclear agreement are among the
section’s ongoing priority activities.

        The political minister-counselor and her deputy are strong managers. Washington clients
recognize their skill in navigating India’s Government. Following a substantial increase in
officers under the Global Repositioning Initiative, there have been no new officers added since
2008.

        The EEST section supports the President’s National Export Initiative by pursuing
increased market access for goods, services, and investment; urging the Government of India to
enact a nuclear liability regime that enables U.S. suppliers to enter the nuclear power market; and
                                           10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

deepening science and technology cooperation among public and private institutions in both
countries. In the lead-up to the President’s visit, the EEST section shepherded to completion
several memoranda of understanding with India that will generate funding from Overseas Private
Investment Corporation, Exim-Bank, and private-sector participants for projects and investments
in areas such as shale gas, clean energy, and research and development on solar energy and
biofuels. Indian authorities recently approved tariff reductions on a list of products of interest to
U.S. producers, following months of representations from the economic section.

       A minister-counselor heads the combined EEST section, with deputies leading the
economic unit and the environment, science, and technology unit. The section provides excellent
support for Washington clients. Three new officer positions have been established in the
embassy EEST section since 2008, one of which will be filled in 2011.

Visitor Workload

        Mission India provides strong support for the large stream of senior official and business
visitors that the growing bilateral relationship has generated. Although visitors are an asset to the
relationship and give mission staff opportunities to travel in country and to strengthen
relationships with Indian contacts, supporting visitors adds to the workload and displaces
analytical reporting to some degree. The political and economic staff is continually working at
different stages of planning for multiple visits. During the OIG team’s visit, the sections had
either lead or major supporting responsibilities for five visits at the assistant secretary level or
above, including a cabinet-level visit. During the OIG team’s week long stay in Mumbai, the
political and economic staff was working on six visits, including those of an under secretary and
assistant secretary.

Coordination with the Consulates General and the Country Team

        Mission India’s political and economic staff coordinates their activities effectively among
the embassy and consulates general. The economic or political minister-counselors serve as
reviewing officers for the reporting officers in each of the consulates general. The sections and
consulates general hold monthly video conferences, as well as video conferences on thematic
topics and pending projects. The embassy hosts an annual reporting officer’s conference.
Officers travel occasionally between New Delhi and the consulates general and communicate
frequently.

        Within the embassy, the political and EEST sections enjoy productive relations with one
another and with other agencies at both senior and working levels. Section and agency heads told
the OIG team that relations among the country team and constituent staffs are as collegial as any
they have experienced, and non-Department representatives see political and economic officers
as honest brokers: well informed, helpful, and willing to share information. Those heads of
agencies that are not included in a small morning meeting with the Ambassador rely on the
political and economic minister-counselors to communicate information and taskings.

       The OIG team learned of two anomalies to the generally high standard of interagency
cooperation. For several years, because of its inadequate intellectual property protection regime,
India has been on the special 301 priority watch list that the Office of the U.S. Trade
Representative publishes annually as part of its annual review of intellectual property protection
                                           11
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

around the world. Several mission elements address different aspects of the problem – legal
regime, capacity, and enforcement. This division of responsibility has led to some difficulties in
coordinating intellectual-property-related meetings with Indian authorities or private-sector
contacts, leading in turn to some confusion about the U.S. position. The U.S. Patent and
Trademark Office attaché chairs the mission’s interagency intellectual property working group,
which includes participation from the consulates general. The group updated its action work plan
and has begun to meet to share plans for policy advocacy, upcoming intellectual-property-related
events, and travel outside Delhi in order to tighten coordination.

        Collaboration with India on food security in third countries was an important outcome of
the President’s visit. Washington took time to develop a whole-of-government position. In New
Delhi, embassy communications with Indian authorities were not always coordinated, resulting
in some confusion and resistance from the Indian authorities. Both countries are now better
aligned as they finalize a joint demarche to several African countries on agricultural training in
India. Despite these improvements, more regular communication among members of the country
team and meetings of the embassy’s agriculture and food security working group are necessary
to strengthen habits of cooperation, share information, and develop unified positions to
communicate to the Indian Government.

Law Enforcement and Counterterrorism

        Mission India brings together a wide range of agencies in a well-coordinated effort on
both law enforcement and counterterrorism fronts. The legal attaché office (Federal Bureau of
Investigation) is the liaison with host nation law enforcement to coordinate investigative
resources in support of counterterrorism and bilateral criminal issues. In addition to
responsibility for India, this office provides regional support to Sri Lanka, Bangladesh, Nepal,
and the Maldives. The U.S. Immigration and Customs Enforcement focuses on smuggling,
human trafficking, and child labor issues, while the U.S. Customs and Border Protection deals
with customs and immigration issues. The Drug Enforcement Agency conducts counternarcotics
investigations, liaison, and training with host nation law enforcement. It also provides regional
support to Sri Lanka, Bangladesh, Nepal, and the Maldives on counternarcotics issues. These
agencies are in frequent communication and coordinate formally in regularly scheduled
meetings, including a regional security officer-chaired criminal investigator meeting, a DCM-
chaired counterterrorism/law enforcement working group (for which the counterterrorism
coordinator serves as executive secretary), and an Ambassador-chaired counterterrorism focus
group.

       The United States and India signed a memorandum of understanding for the
Counterterrorism Cooperation Initiative in 2010, specifying 16 areas to strengthen capacities and
exchange information. Counterterrorism cooperation is a high priority for the Ambassador.
Cooperation at the policy level is conducted through the Counterterrorism Joint Working Group,
which the Department’s coordinator for counterterrorism cochairs.

        Several agencies provide a range of counterterrorism assistance and share information
with Indian organizations. The regional security officer manages the Antiterrorism Assistance
program, which offers training in several areas, including border management, investigations,
and explosive countermeasures. The Antiterrorism Assistance program will train more than 150
police and law enforcement officials this year, and counterterrorism assistance from all agencies
                                                  12
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

will bring several hundred Indian participants to counterterrorism events. The Antiterrorism
Assistance program funding has grown from less than $2 million to about $4.5 million in the past
3 years. The counterterrorism coordinator also manages regional programs funded by the
Department’s coordinator for counterterrorism. While there is generally strong demand for
training from Indian entities, as in other areas, counterterrorism engagement has to contend with
indecision or late responses on the Indian side.

        The counterterrorism coordinator has significant program management responsibilities
but has not received training in foreign assistance management.

       Informal Recommendation 3: Embassy New Delhi should send the counterterrorism
       coordinator to take the appropriate Foreign Service Institute courses on managing foreign
       assistance.

        Embassy New Delhi had a narcotics affairs section that ran a program totaling $1.5
million from 1999 to 2008. The Bureau of International Narcotics and Law Enforcement Affairs
terminated that program in 2008. The embassy has obligated but undisbursed “no-year” funds
(now totaling about $151,400) remaining in its accounts. The political section, which has
responsibility for oversight of these funds, has made preliminary arrangements for activities that
will exhaust these funds. Given that overseeing these funds is a burden to the political section
and the financial management center, they should be expended.

       Informal Recommendation 4: Embassy New Delhi should expend legacy Bureau of
       International Narcotics and Law Enforcement Affairs funds before the end of fiscal year
       2011.

Trade Promotion

         India is a priority country for the President’s National Export Initiative. It is the twelfth-
largest trading partner of the United States. Bilateral goods and services trade exceeds $60
billion and is growing at double-digit rates. U.S. foreign direct investment in India surpasses $16
billion. Promoting export and investment opportunities for U.S. businesses is a mission goal in
its own right and supports other goals, including nonproliferation and a closer defense
relationship.

        Mission India gives strong support to U.S. business. In addition to their work on tariff
reduction, the Ambassador, embassy economic team, and the consulates general’ principal
officers and staff advance the business agenda by meeting with U.S. business leaders and trade
missions, supporting their interests with Indian officials. Political and EEST officers routinely
brief visiting trade missions. The political section also works with the Ambassador and the
Office of Defense Cooperation to promote sales of U.S. defense equipment. Department officers
and the Foreign Commercial Service work as a team in both the embassy and the consulates
general. They support the U.S.-India CEO forum and maintain close relations with the American
Chamber of Commerce and the U.S.-India Business Council. The embassy economic section
recently initiated a monthly, mission-wide video conference to exchange ideas on activities to
support the National Export Initiative.


                                            13
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

        The Foreign Commercial Service in Mumbai, assisted by the political-economic section,
developed a plan to set up a U.S.-India importers’ council that will provide advice and guidance
to Indian small- and medium-sized importers and first-time importers. The council includes firms
that represent around 50 U.S. companies and facilitates U.S. exports worth approximately $110
million. Mission staff is working with the council on a membership drive. Other consulates
general and the embassy are considering whether to replicate the councils in their districts.

Reporting

        Mission India produces good-quality reporting that is germane to U.S. interests, with
commentary that puts subjects in their larger contexts. Reporting officers and LE staff from the
embassy and consulates general travel within their consular districts several times per year to
report on political, business, and economic developments.

        India presents a rich reporting environment. The country has unsettled borders with two
nuclear-armed neighbors. Terrorist and armed separatist groups operate in several regions. A
federal structure gives states important authorities, and regional issues affect the central
government’s room to maneuver. India has a vigorous multiparty democracy and a lively press
and civil society. The country’s growing demand for energy affects its foreign interests, and
Indian companies are important suppliers of information technology and pharmaceuticals. Weak
rule of law, communal tensions, and traditional practices are conducive to trafficking in persons
and a challenge to respect for human rights and religious freedom.

        Political reporting from the embassy is keyed to a wide-ranging bilateral agenda and is
balanced among external affairs (including Iran, Afghanistan, China, Pakistan, and
nonproliferation), bilateral issues (deliverables for the President’s visit, defense sales, and export
controls), and internal issues (Kashmir, cabinet shuffles, and trafficking in persons). Reporting
on opportunities and constraints for Indo-Pakistan relations is of great relevance to U.S. interests
in regional stability.

        Economic reporting from the embassy is weighted toward trade, energy, and science and
technology issues. Reporting on India’s regional trade agreements and reluctance to address
issues necessary to meet U.S. standards for a free trade agreement has been especially useful to
Washington. The Treasury attaché, consulate general in Mumbai, and embassy economic section
contribute to coverage of macroeconomic and financial issues.

        A sluggish clearance and approval process in the economic section has adversely affected
the timeliness and quantity of its reporting. Some potential reporting is not done because of
anticipated delays, and many reports are submitted by working emails instead of cable. This
situation has also had a negative effect on morale.

       Informal Recommendation 5: Embassy New Delhi should require that the economic
       section take further measures to expedite the drafting and clearing process, including
       setting deadlines for clearance and approval of cables and record emails and monitoring
       compliance.

      Reporting from the consulates general is thematic, multisourced, and of good quality.
Consulate General Kolkata’s report on an armed insurgency near the Burmese border ties
                                            14
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

together the internal security and relations with Burma. Mumbai reported on economic
governance in Gujarat, an important source of Indian investment in the United States and a
magnet for U.S. companies. Consulate General Chennai produced a report on labor unrest and its
possible effect on foreign investment. Consulate General Hyderabad analyzed a state-wide
income support scheme and reported on Muslim views on radicalization and communal relations.
The embassy and all consulates general collaborated on an informative series of reports on
corruption.

        The embassy and consulates general have prepared ambitious and mostly well-balanced
reporting plans for 2011. However, the embassy economic section’s plan does not cover the full
year, and the OIG team suggested to the section chief that it be completed.

        The Department mandates much of Mission India’s reporting on labor, human rights,
religious freedom, and trafficking in persons. India’s large population, federal structure, uneven
development, and legacy of using bonded and child labor make reporting on these issues labor
intensive for the embassy and consulates general. U.S. Government monitoring and ranking of
India’s trafficking-in-persons record under the Trafficking Victims Protection Reauthorization
Act is a contentious issue in the relationship, to the point where the Indian Government has
denied visa requests or limited in-country travel for U.S. officials working on trafficking in
persons. Although the mission and different offices in the Department hold sharply different
views about how to interpret India’s trafficking-in-persons record, Department offices appreciate
the substantial increase in the volume and frequency of the mission’s trafficking-in-persons
reporting.

Reporting and Realignment of Consular Districts

         In November 2010, the Assistant Secretary for the Bureau of South and Central Asian
Affairs (SCA) approved the Ambassador’s recommendation for a realignment of consular
districts. One of the purposes of the decision was to allow Kolkata to provide more effective
coverage of eastern India and to emphasize more business and commercial expertise in second
and third tier cities and key states. One element of the decision was to transfer responsibility for
the state of Chhattisgarh from Mumbai to Kolkata.

         Chhattisgarh is linguistically and ethnically similar to a bordering state in Mumbai’s
district. Mumbai has a larger reporting section than Kolkata, has reported on the Maoist
insurgency in Chhattisgarh and police efforts to combat it, and recently hired an LE staff political
assistant in part to cover the state.

       Informal Recommendation 6: Embassy New Delhi should review its November 2010
       decision to reallocate reporting responsibilities among the consulates general.

Political Section Structure

        The embassy’s counterterrorism coordinator has regional responsibilities that include
India, Bangladesh, Maldives, Nepal, Pakistan, and Sri Lanka. As counterterrorism cooperation
with India expands, the unit would benefit from an additional officer. Political section
management is aware of this need and is considering reallocating staff. If the global issues unit

                                           15
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

and internal affairs unit were consolidated (as much of the global issues unit’s work involves
domestic policy), it would free a position to be transferred to the counterterrorism unit.

       Informal Recommendation 7: Embassy New Delhi should consolidate the political
       section’s global issues and internal units and move one officer position to the
       counterterrorism unit.

Economic Section Grade Level for the Trade Unit Chief

        The economic section trade unit chief supervises several American and LE professional
staff. Although the unit chief’s position is graded at the FS-03 level, the incumbent is an FS-02
officer. The unit’s portfolio encompasses numerous and complicated market access issues in
which U.S. businesses have important stakes and which engage policy-level officials at the
Office of the U.S. Trade Representative and the Department. Given the extensive trade policy
agenda and the high-level interest that it commands (for example, India’s status as a priority
country under the President’s National Export Initiative), the OIG team believes that an
experienced officer should continue to fill the position when the incumbent leaves.

Recommendation 5: Embassy New Delhi, in coordination with the Bureau of Human
Resources and the Bureau of South and Central Asian Affairs, should review the grade level of
the trade unit chief position in the economic section, which is currently graded at the FS-03 level,
to determine whether it should be upgraded to FS-02. (Action: Embassy New Delhi, in
coordination with DGHR and SCA)

Supervision of Entry-Level Officers and Professional Associates

        Both the EEST and political sections have several entry-level officers (ELO) and
professional associates on their staffs. The economic section has taken the initiative to organize
seminars on drafting cables, developing contacts, lessons for control officers, and use of social
media. These seminars draw presenters from the EEST, political, management, and public affairs
sections. The political section has undertaken similar professional development activities for its
several ELOs, including guidance on outreach to Indian youth.

        Despite these worthwhile initiatives and ongoing mentoring activities, ELOs,
professional associates, their supervisors, and the sections’ management articulated to the OIG
team a need for guidance on basic tradecraft. The OIG team assessed that the quality of
supervision of ELOs and professional associates varies widely and is not adequate in all cases.
The OIG team counseled both sections’ management to redouble the efforts they are making to
build the skills of their personnel and to impress upon supervisors that their responsibilities
include effective guidance and feedback to employees.

       Informal Recommendation 8: Embassy New Delhi should require that mid-level
       political and economic, environment, science, and technology managers devote more
       time to mentoring and guidance of their personnel.




                                           16
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Foreign Assistance Coordination

       U.S. foreign assistance is aligned with policy goals. Assistance totaled approximately
$130 million in FY 2010, up from about $105 million in FY 2009. The Administration has
requested about $143 million in FY 2012. Some two-thirds of U.S. assistance to India ($87
million) supports health and child survival. The President’s Emergency Fund for AIDS Relief
programs, which principally USAID and CDC implement, represent about one-third of this
amount.

        The Ambassador has set as a top priority the development of models that Indian
authorities can adopt and implement in a larger scale. He has reoriented assistance toward the
poorest states in northern and eastern India and has pressed Washington to increase funding for
basic education and water programs. An important component of the assistance strategy is
developing U.S.-India partnerships in third countries, notably to achieve food security in Africa
and to promote accountable governance and women’s empowerment in Afghanistan.

        The Department manages several programs that embassy officers support, including from
the Bureau of International Security and Nonproliferation; the Bureau of Population, Refugees,
and Migration; the Office of the Coordinator for Counterterrorism; the Office of Global
Women’s Issues; and the Office to Monitor and Combat Trafficking in Persons. These programs
support critical U.S. goals but account for only about 5 percent of total assistance to India. Of
these, the largest is the Antiterrorism Assistance program, which the regional security officer
manages. The Department of Labor funds and the International Labor Organization implements
programs to combat child labor, on which the embassy also reports.

        Embassy officers and LE staff maintain close communication with funding offices in the
Department and with grantees in India. When appropriate, the political and EEST sections
provide comments on grant applications. Although officers and LE staff in these sections have
no formal monitoring responsibilities, they often visit and report on projects and accompany
officials from the funding bureaus on site visits. Two officers are designated as grants officer
representatives for certain Bureau of Population, Refugees, and Migration and Office of Global
Women’s Issues projects. One of the grants officer representatives has not taken the Foreign
Service Institute (FSI) courses on project monitoring and evaluation.

       Informal Recommendation 9: Embassy New Delhi should arrange for the political
       officer who will be responsible for monitoring Department of State-funded assistance to
       take Foreign Service Institute courses PY 220 and PY 222 (Introduction to Grants and
       Cooperative Agreements, and Monitoring Grants and Cooperative Agreements,
       respectively).

Interim Rupee Fund for Science and Technology Cooperation

        The 2005 OIG inspection report for Embassy New Delhi examined the status of two
funds containing the proceeds of local currency repayments of PL-480 debts and the accrued
interest on those funds dedicated to financing cooperative projects in education, culture, science,
and agricultural research and technology: the U.S.-India Fund for Educational, Cultural, and
Scientific Cooperation and the Interim Fund. This report found that the projects that these funds
supported had exceeded their intended life by 8 years and that funds that could be a valuable
                                           17
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

resource for furthering U.S.-India relations were sitting idle. The report recommended that the
embassy establish sunset dates for use of the funds, notify relevant U.S. Government agencies,
and seek agreement with the Government of India on new programs to be supported with
remaining funds. The embassy agreed with the recommendations but did not establish sunset
dates for projects.

        The embassy concluded a bilateral agreement with the Government of India in 2009 that
established an endowment and governing board to direct joint research in science and
technology. This agreement stipulated that remaining U.S.-India Fund for Educational, Cultural,
and Scientific Cooperation funds and part of the Interim Fund, as well as new contributions from
the United States and India, would be used to fund the endowment. Embassy New Delhi’s EEST
minister-counselor serves as the board’s U.S. cochair. The endowment currently has a balance of
about $15 million. India named its representatives in late 2010. At its first meeting in 2011, the
board set a goal of funding the endowment’s first proposal by September 2011 and an additional
two to three projects by year end.

        The Bureau of Oceans and International Environmental and Scientific Affairs retains
authority to make allocations to joint projects from the Interim Fund of about $10.5 million,
consisting of interest and returned funds. The embassy’s financial management center manages
both the endowment and the Interim Fund.

         In December 2009, the Assistant Secretary of the Bureau of Oceans and International
Environmental and Scientific Affairs authorized disbursement of $10.5 million for several
activities drawn from proposals from U.S. Government technical agencies, Embassy New Delhi,
and the Indo-U.S. Science and Technology Forum. These activities are in various stages of
organization. No funds have been expended to date. In view of the slow action taken to disburse
funds for these activities, the OIG team concluded that deadlines are necessary to ensure that
funds are spent for their intended purposes.

Recommendation 6: Embassy New Delhi should set and adhere to deadlines for disbursing the
funds for each of the activities that the Assistant Secretary of the Bureau of Oceans and
International Environmental and Scientific Affairs approved in 2009. (Action: Embassy New
Delhi)

Public Diplomacy

Public Affairs Environment

        A talented public affairs officer (PAO) directs one of the largest public affairs programs
in the Department, with 26 Americans and 188 LE staff. The PAO has a productive relationship
with the front office and ensures that public diplomacy considerations are part of the
decisionmaking process. Coordination and cooperation with sections of the embassy and other
agencies are positive, and the public affairs section (PAS) in New Delhi coordinates operations
with its counterparts in the four consulates general through frequent conference calls, DVCs, and
supervisory visits.

       The Ambassador plays a central role in public diplomacy outreach. He has developed a
respected public presence, meeting diverse groups of people, traveling frequently, and writing
                                          18
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

the well-received “Roaming Roemer” blog. The Ambassador’s campaign to “shake a billion
hands” is a popular Web site feature.

        The OIG team found that in some instances an unhelpful gap existed in PAS India
between the American officers and LE staff. Many local employees felt that the American
supervisors did not bring them into the planning process in a meaningful way, and they would
like to make a more substantive contribution to the mission’s public diplomacy effort. During the
inspection, the PAO initiated specific actions to address this issue.

        PAS New Delhi works well in handling communication with the Department, funneling
information to it from the mission’s branch operations. Some tensions and communication lags
exist between PAS New Delhi and its counterparts in the consulates general. In most cases these
are the normal, inevitable outcome of distance. The exception is communication and
coordination from the New Delhi program section (see below).

        PAS India has enjoyed a number of significant successes in the past 2 years, some of
which have relevance for public diplomacy operations globally. Chief among them is the
intelligent exploitation of public diplomacy platforms. A rejuvenated American Center in New
Delhi has become the locus of program activity in support of targeting the educated youth of
India’s emerging middle class (an MSRP goal). PAS has also achieved some success reaching
another targeted demographic group as the mission shifted from “Muslim outreach” to the more
nuanced “interfaith dialogue,” an approach better suited to working in India. Similarly, the
section has experimented with contracting out the publicity for major program events. Finally,
PAS India’s intelligent use of social media is a model for how to integrate technology with
programs and mission messages. These clear successes have come despite a number of
organizational and management shortcomings.

Press and Information Programs

        The press section works in teams that focus on social media, print, and television. Each
has functional responsibilities as well, and they use public diplomacy tools to convey a unified
message about the U.S. partnership with India. With 60,000 registered newspapers and
magazines reaching 222 million people, India is a market of avid consumers of print media. India
has nearly 1,400 stations, making it the fourth-largest television broadcast market in the world.
With an estimated 81,000,000 Internet users and an explosion of cell phones, social media usage
is increasing exponentially. PAS New Delhi produced a comprehensive institutional analysis of
the national media and likely future trends in electronic and vernacular media, and the press
section has embarked on a plan to use social media in support of MSRP goals and increased its
coverage of and outreach to Hindi and Urdu media.

Social Media

        PAS employs the tools of social media strategically. An assistant information officer
serves as chief of the social media team. The unit uses Facebook to publicize events, generating
interest with America-related quizzes and contests tied to programs. Beyond Facebook and the
embassy Web site (updated daily), the team works systematically, using a tool that creates and
stores photos, images, and information in advance of events on an electronic calendar that
automatically updates Web sites. PAS posts photos of mission events on Flickr, where target
                                          19
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

audience members can download or print them. It uses Twitter to send short daily policy-related
messages, including statements from Secretary Clinton translated into Hindi. The social media
team is also experimenting with text messaging to conduct post-program polling. They are
looking into cell-phone applications to convey customized information on demand, including
visa information in a question-and-answer format.

         The combination of these efforts has resulted in a meaningful increase in the number of
persons that Mission India reaches. The OIG team believes that PAS India needs to continue its
social media push, discarding experiments that do not deliver and reinforcing those that do.
Statistics are necessary but can be misleading, given the huge population of India. What matters
is the trend line of usage, and at the present time the upward direction is promising.

Vernacular Language Capability

        The Indian constitution recognizes 22 languages. While Hindi is the official national
language and English remains a secondary official language, the reality is that hundreds of
millions of Indians speak neither. Throughout the country, the regional vernacular media enjoy
circulation and viewership orders of a magnitude greater than their Hindi and English
counterparts. This factor represents a major challenge to PAS in its efforts to connect with
younger, broader audiences, consonant with the global shift in public diplomacy strategy away
from exclusive concern with elites toward more diverse groups emerging as vital forces in their
societies.

        Vernacular language capacity needs vary from PAS to PAS in India. Local employees
who can monitor media, translate, and conduct outreach in the predominant regional languages
are essential. Countrywide, public affairs sections have language-qualified people. In some, the
addition of a specific language capability would augment the section’s effectiveness.

       PAS selectively translates and distributes embassy and U.S. Government materials.
Increasing the amount of material or the number of languages has resource implications, but the
OIG team believes that the subject deserves strategic consideration in view of the mandate to
reach more diverse audiences.

       Informal Recommendation 10: Embassy New Delhi should determine where
       augmenting its vernacular language capability, including electronic communication,
       would result in increased effectiveness in reaching priority audiences.

Information Support Team

        Two military personnel serve on temporary duty in PAS as an information support team
charged with reaching Muslim audiences. Several factors prevent this team from being effective.
They have no expertise in Indian culture to guide them in approaching local audiences. They
have no vernacular language capability or contacts in Indian society to afford them entrée. A
PAS local employee works with them to help bridge these gaps, but this comes at the cost of that
employee’s assigned duties. Finally, because the Indian Government is reluctant to issue longer
term visas, team members can only stay for a few months, not long enough to gain expertise or
establish contacts. The OIG team believes that the costs of having the team in country may
outweigh any benefits their presence provides.
                                          20
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 7: Embassy New Delhi should weigh the costs and benefits and make a
decision whether to continue hosting the information support team. (Action: Embassy New
Delhi)

Span Magazine

       The embassy publishes a magazine, Span, which recently celebrated its 50th anniversary.
Each month, 90,000 copies are printed in English, with a smaller number of copies in Hindi and
Urdu. An electronic edition features highlights from the English version.

         Span’s budget is $300,000. The printing and circulation staff devotes a great deal of time
to distributing the magazine. The section also prints and distributes other high-quality
publications, often using content from the Department’s Global Publishing Services, but
produced in-house, using economies of scale and saving on shipping costs from Global
Publishing Services Manila. In addition, the unit prints program materials, flyers, invitations,
brochures, and library promotional materials and booklets that Span staffers design.

        PAS is in the process of transforming the magazine to an interactive online publication
designed to appeal to younger readers, including aspiring English speakers. The transition has
significant technical and budgetary implications, including staffing, training, and the need for
new skills. PAS must also consider whether it should produce online editions in Hindi and Urdu,
along with an array of content and graphic questions having to do with the nature of an
interactive online magazine.

        While PAS has begun this transition, at the time of the inspection there was no master
plan or time line to guide the process. Given the resource and staffing implications of the change,
the OIG team believes that the embassy needs a business plan to transition Span to an electronic
publication and redirect money and positions as warranted.

Recommendation 8: Embassy New Delhi should devise and implement a business plan to
convert Span magazine to an interactive electronic version, taking into account the concomitant
personnel and budget ramifications of the change. (Action: Embassy New Delhi)

Cultural and Educational Programs

       The embassy’s cultural affairs officer (CAO) supervises four assistant CAOs (ACAO) in
a program unit at the American Center in downtown New Delhi, about a 20-minute drive from
the embassy. One of the ACAOs directs operations there. LE staff in the program unit is
generally experienced and capable.

       The exchange programs, including the flagship International Visitor Leadership Program,
work smoothly. Embassy sections and the constituent posts actively participate in the nomination
process. The geographic and thematic balance of nominees is appropriate and in line with
mission priorities.

      The CAO supervises the speakers and programs unit. Working with local employees, an
ACAO has line responsibility for the unit. Planning, coordination, and communication of
program activities, especially speakers, are problematic. PAS implemented an “All India”

                                           21
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

approach to programming, with the New Delhi program unit responsible for recruiting speakers
and developing programs for both the embassy and the consulates general. The PAO also
stressed the need for “quality over quantity,” preferring bigger name speakers and programs with
higher visibility. This change of emphasis is a valid approach. Given bottlenecks in the program
unit, however, the outcome is not yet clear. The single greatest problem has been tardy and
inadequate information and communication from the New Delhi program unit. During the
inspection, the PAO notified staff that henceforth the public affairs sections in the consulates
general were free to recruit and nominate speakers, although PAS New Delhi will continue to be
the point of contact for Department field-support offices, a decision with which the OIG team
concurs. The team also discussed the need for closer supervision of the unit by mid-level
management.

        The program section lacks an up-to-date analysis of the environment in which it works.
In a country the size and importance of India, such an analysis is a necessary tool to ensure that
program resources are correctly aligned with mission priorities and directed to the outlets most
likely to provide a return on investment.

Recommendation 9: Embassy New Delhi should analyze the cultural and educational
organizations, institutions, and agents of influence in India, using the results of the analysis to
shape strategy and dedicate program resources. (Action: Embassy New Delhi)

Public Diplomacy Platforms

        Mission India boasts a wealth of public diplomacy platforms. These are in general
thriving operations, providing the mission venues to connect with the younger and broader target
audiences that the MSRP dictates. American Centers exist in New Delhi, Mumbai, and Kolkata,
each of which houses a library. In Chennai, the library is located inside the consulate general.
PAS India also supports five American Corners in partner institutions. The corners provide
information about the United States to patrons, while also providing the space to host program
events such as speakers and panel discussions. Given the receptivity of the target audience –
upwardly mobile young Indians – to things American, the centers are a cost-effective platform
that extends Mission India’s presence and message.

       In addition to the library, the New Delhi American Center includes performance, exhibit,
and study spaces. While the facility shows its age, the embassy has improved its appearance
somewhat and is upgrading the building systems. Both the center and the library are now heavily
used, drawing up to 600 visitors a day. Many of those visitors are young and upwardly mobile –
prime attributes of those the mission seeks to reach.

        This success represents a turnaround following years of relative inactivity. Several factors
came together to make it happen. The embassy provided a facelift for the lounge, along with free
wireless Internet access. A social media campaign highlighted American Centers as a gathering
place for upwardly mobile young Indians. A lively mix of programs, which the ACAO who
directs the center drove, keeps them coming back. Like its counterparts in the consulates general
public affairs sections, the New Delhi center hosts an active Facebook page. Typical events
include first-run movie premieres, book launchings with authors, plays, student advising, and
discussion clubs. A countrywide branding effort resulted in an attractive, recognizable logo
identifying places and products with the U.S. Mission in India.
                                                 22
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Reaching younger and more diverse audiences is a priority public diplomacy goal in the
Department. The OIG team believes that active, well-run platforms like the New Delhi American
Center substantially support that goal and present a model with potential relevance elsewhere.

Library Operations

       The American libraries in India are large lending libraries, open 6 days a week.
Professional local librarians manage day-to-day operations. An information resource officer
based in New Delhi orders books and publications and ships them to the PAS India libraries. The
information resource officer oversees not only the American libraries in India but five American
Corners, along with libraries and corners in Bangladesh, Nepal, and Sri Lanka.

        The New Delhi American Center, where the library resides, is managed by an ACAO.
The ACAO’s duties are twofold: supervising library staff and managing operations, and
developing and carrying out programs at the American Center. The information resource officer
supervises a separate staff of local librarians and support staff who order and ship books and
publications for all the American information operations in India. This divided supervisory
authority leads to duplication of effort, inefficiency, and confusion among staff members. The
OIG team believes that the New Delhi library operation should be brought under the supervision
of the information resource officer. Given the magnitude of the India operation, the OIG team
further believes that the information resource officer’s regional responsibilities are unworkable.

Recommendation 10: Embassy New Delhi, in coordination with the Bureau of International
Information Programs, should assign complete supervisory responsibility for the public affairs
sections’ libraries to the information resource officer based in New Delhi. (Action: Embassy
New Delhi, in coordination with IIP)

Recommendation 11: The Bureau of International Information Programs, in coordination with
Embassy New Delhi, should limit the responsibilities of the New Delhi-based information
resource officer to India only. (Action: IIP, in coordination with Embassy New Delhi)

        The four lending libraries serve different and diverse populations, and regional interests
vary. Individual library directors should have more input into book selection, now centralized in
New Delhi. They should be permitted, with the information resource officer’s approval, to target
their collections to patrons’ interests, in alignment with MRSP goals.

       Informal Recommendation 11: Embassy New Delhi should, consonant with Mission
       Strategic and Resource Plan priorities and with the information resource officer’s
       concurrence, grant library directors in public affairs sections increased authority to
       purchase books and materials appropriate to their membership.

Fulbright and Educational Advising

        The U.S.-India Educational Foundation (USIEF), which celebrated its 60th anniversary in
2010, manages the Fulbright Program. The program has grown substantially in recent years, a
reflection of the developing bilateral relationship. The original agreement stipulated that the U.S.
Government pay all costs. In recent years the Indian Government has begun to contribute, and
both governments increased their funding in consequence of the Indian Prime Minister’s
                                           23
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

November 2009 visit to the United States. The total budget is now $7.6 million, of which the
United States provides $4.05 million and the Government of India $3.35 million

         Embassy relations with the commission and its executive director are cordial and
productive. Embassy officers sit on the board and participate in selection committees. USIEF
runs the U.S. government-funded student advising operations throughout the country. The effort
has benefited from additional money from the Bureau of Educational and Cultural Affairs (ECA)
and the Under Secretary for Public Diplomacy and Public Affairs in recent years. Student
advising operations exist in USIEF offices and in the consulates general. In addition, three
satellite centers offering advising services receive funding from the U.S. Government through an
ECA grant to the Institute of International Education.

        The OIG team found only one issue of concern. Neither PAS nor USIEF has the
resources or the mandate to provide meaningful oversight to the satellite operations. In view of
this and of actual and projected growth in student advising in India, the presence of a regional
educational advising coordinator is imperative. Visa difficulties and health issues have prevented
persons in that position from being available. ECA should work with the Institute of
International Education to assign a regional educational advising coordinator who will be based
in the USIEF office in New Delhi and oversee educational advising countrywide, with area of
responsibility limited to India.

Recommendation 12: The Bureau of Educational and Cultural Affairs should take steps to
ensure that a regional educational advising coordinator is assigned to India. (Action: ECA)

English-Language Programs

        A regional English-language officer oversees Mission India’s English-language
operations. The program is large: this year, additional money from SCA brings the total to about
$11.5 million. The largest component, the Access Program, targets underprivileged youth ages
15 to 18, including Muslim youth. Access has recorded some notable successes, but the
Government of India is suspicious of mission activities that appear to target Muslim audiences. It
often delays visas for English-language specialists so long that invited specialists cannot
participate in the program. Opinions in the embassy differ on the seriousness of the issue. Some
believe that the programs are such a vital component of the mission’s effort to establish
relationships with a younger and more diverse audience that they must continue regardless of
bureaucratic cost. Others believe that the problem will only get worse, and the mission may
eventually have to decide whether to continue. The OIG team formed no conclusion on the
subject but notes that it ought to remain on the embassy’s agenda.

Public Affairs Section Mumbai

        An experienced PAO leads PAS Mumbai, which includes an information officer, a CAO,
an ACAO, and a large local staff. The section runs efficiently, and the OIG team found no
problems of consequence. Long resident in the American Center downtown, PAS will move to
the new consulate compound later this year. The move brings serious challenges. Although the
new compound includes a library and multipurpose room, the space is much smaller than that at
the center. Seating for library staff is problematic. Located in a growing area of the city, the new
consulate compound is much less convenient, especially for students, than the current center. In
                                           24
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

addition, security procedures at the new compound are expected to inhibit attendance.
Uncertainty over the pending move has had its effect on morale in PAS Mumbai. The PAO is
capable of leading the staff during the transition and establishing an effective public diplomacy
presence in the new quarters.

Public Affairs Section Chennai

        PAS Chennai staff include a PAO, an information officer, and a CAO, along with a large
local staff including librarians. The embassy ceded the information officer and CAO positions,
normally at the FS-03 level, to ELO slots. The drawback of that agreement is that the
assignments are now 2 years rather than 3 years long. The incumbents are both ELOs but bring
strong work experience to the job. The local staff is competent and committed.
       (b) (5)




Recommendation 13: (b)(5)(b)(6)




         Consulate General Chennai operates a virtual presence post for Bangalore, where an
American Corner is also located. Staff and time constraints have limited the amount of time
consulate staff visit Bangalore. Chennai’s PAS and consular sections share responsibility for the
virtual presence post Web site. Consular information and activity is the primary focus of the Web
site, which is visited much less frequently than Consulate General Chennai’s Web site. The OIG
team believes Consulate General Chennai should review operations of the virtual presence post
in light of its capacity to dedicate time and resources to the operation and decide whether to
continue operating it.

       Informal Recommendation 12: Embassy New Delhi should conduct a review of the
       Bangalore virtual presence post operation to determine whether it should be continued.

Public Affairs Section Hyderabad

        Like the consulate general itself, PAS Hyderabad is a new operation. The American staff
consists of two officers and five LE staff. The lack of space is a serious constraint. PAS staff
works in extremely cramped quarters. Neither American officer has an office; rather, they work
in cubicles alongside their local colleagues. As presently configured, the consulate general does
not have the space to host a public diplomacy event of any kind. The management section of this
report discusses the consulate general’s tenure in the current building, along with the possible
use of annex buildings on the compound on an intermittent basis. The OIG team believes that
one of the annexes would make an ideal public diplomacy platform and suggested that it be so
considered in determining appropriate use for the space.
                                           25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        At the time of the inspection, PAS Hyderabad was experiencing the repercussions of a
media gaffe that resulted in the PAO’s early departure from India. A new PAO was scheduled to
arrive in the summer. In the interim a first-tour officer is the acting PAO. Consulate General
New Delhi and PAS New Delhi management arranged for the acting PAO to travel to the
embassy for orientation. Experienced public diplomacy officers will also periodically visit PAS
Hyderabad to provide hands-on guidance for both the American officer and the local staff, some
of whom had not yet been to the embassy in New Delhi for orientation.

Public Affairs Section Kolkata

        A branch PAO oversees the work of an assistant PAO and an LE staff of 39 in an
American Center and library that provide the vehicle to reach a target audience of aspiring,
educated young people. The center hosts appealing programs and has seen an increase in
attendance after facilitating public access with improved security procedures. The assistant PAO,
a fourth-tour public diplomacy officer, is in his first public diplomacy assignment, a situation
reflected throughout the public diplomacy cone, where officers are assigned to positions for
which they do not have adequate preparation or training.

       In its MSRP, Embassy New Delhi requested an information officer slot for Consulate
General Kolkata designated, ideally, for a Bengali speaker. Given the volume of work and the
need for additional outreach, the OIG team believes the request is warranted.

Management and Administrative Matters

        PAS New Delhi is a victim of geography. The PAO and the press section sit in the
chancery, close to the front office and other senior country team members. This proximity
contributes to their effectiveness in decisionmaking and policy implementation. The country
deputy PAO, PAS local administrative staff, program section, information resource officer,
regional English-language officer, Span staff, and the printing, circulation, and support staff are
all housed in the American Center building, along with the library. Although the center’s
location in a newly revived downtown area is a significant advantage in attracting PAS’s target
demographic, transit time between the embassy compound and the American Center is 20
minutes minimum. This arrangement has management and supervision challenges as well. At the
time of the inspection the PAO supervised the information officer, CAO, information resource
officer, and regional English-language officer. An assistant information officer in the chancery
oversaw the Span operation at the center. The OIG team believes that confusion and inefficiency
resulted from this arrangement.

        The PAO is and should remain intensively involved with the front office. The demands
on the PAO’s time are formidable. At the time of the inspection, the deputy PAO was an
underutilized resource. The deputy PAO should supervise all PAS activity at the center,
including the CAO, center and program operations, and Span magazine. This will free the PAO
to focus on policy implementation and exercise his oversight duties of PAS operations in the
consulates general, along with oversight of the information resource officer and regional
English-language officer operations. It will also improve communication and accountability in
operations at the center.


                                           26
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Recommendation 14: Embassy New Delhi should reassign supervisory duties in the public
affairs section, ensuring that the deputy public affairs officer oversees all programs and activities
at the American Center. (Action: Embassy New Delhi)

        A Foreign Service office manager (FS-05) is assigned to the PAO. At the time of the
inspection, the work requirements for the position focused largely on supporting the PAO and
maintaining a tracking system monitoring responses to front office taskings and correspondence.
In one of the largest and busiest PAS operations in the world, the duties of the office manager
should more broadly support operations.

Recommendation 15: Embassy New Delhi should rewrite the work requirements of the public
affairs section’s office manager to include duties that will provide broader support to the section.
(Action: Embassy New Delhi)

Grants Management

        PAS India executed grants totaling more than $3 million in FY 2010. The deputy PAO,
as a warranted grants officer, approves every grant. At the time of the inspection, the deputy
PAO was not exercising adequate oversight of the grant process. The deputy PAO supervised the
grants officer representative, an FSN-9 local employee, who was responsible for the technical
administration of the grant awards. However, the program section, which the deputy PAO does
not supervise, generated most grant activity. This anomaly should be resolved by
Recommendation 15 (above), reassigning supervisory duties to the deputy PAO for all center
activity. At the same time, the CAO needs to play a more active role in overseeing grant activity
to ensure that the grantee provides all services and products that the grant document specifies.
Designated staff members need to exercise more thoroughly their responsibilities as grants
officer representatives.

       The OIG team found some delays in deobligating leftover funds when grant activity had
been completed. Gaps in communication between the PAS administrative section and financial
management center caused these delays. During the course of the inspection PAS and financial
management center staff worked together to clarify procedures for cooperation on grant close-
outs and to resolve outstanding issues.

Recommendation 16: Embassy New Delhi should clearly delineate supervisory and oversight
responsibilities of the deputy public affairs officer, cultural affairs officer, and program officers
in the conduct of grants management. All services requested from the grantee organization
should be itemized in advance with descriptions and costs. (Action: Embassy New Delhi)
       (b)(5)(b)(6)




Recommendation 17: (b)(5)(b)(6)




                                            27
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Outsourcing Public Relations and Logistics for Cultural Performances

       Organizing performing arts programs is labor intensive. PAS India undertook
experiments to produce high-impact programs in large public venues, multiplying their reach
through television coverage. To make that happen, PAS outsourced some of the public relations
and administrative work. While the first attempt was not a flawless operation, PAS learned
quickly and the next two projects went off well. The OIG team believes that the kind of
outsourcing PAS New Delhi is doing has potential relevance to PAS operations in other
countries.

Consular Affairs

         Mission India has one of the four largest consular operations in the world, with a staff of
320 employees; the other largest consular operations are in Mexico, China, and Brazil. Consular
work in India plays a central role in the bilateral relationship by contributing to the growing
people-to-people ties. In the opinion of the OIG team, the teamwork and coordination among the
members of the consular team in all five posts in India is arguably the strongest of any large
consular operation in the world. While several areas of consular operations can be strengthened,
consular managers were aware of most of these issues and in some cases had already taken the
first steps to address them.

Consular Team India

        Consular leaders in the mission, led by the minister-counselor for consular affairs
(MCCA) in New Delhi and the consular section chief in New Delhi, launched Consular Team
India (CTI) in September 2009. Its basic goal is to integrate the resources, talent, leadership,
policies, and procedures of the five consular sections in India. Through this strategic
collaboration, each post takes the lead in coordinating different subjects: Mumbai coordinates
consular outreach; Hyderabad, knowledge management and crisis preparedness; Chennai,
training and professional development; New Delhi, metrics; and Kolkata analyzes future
workloads and resource needs. Employees, both American and LE staff, at every level have roles
to play in CTI, including helping to host and participate in conferences that are held on a rotating
basis among the posts. Consular managers conduct countrywide conference calls once a week in
several different subject areas. Consular employees are constantly exchanging information and
ideas and taking advantage of a consular SharePoint site for Mission India. The unusually high
number of innovative practices identified by the OIG team from consular operations in India is
evidence of the creativity and innovation that has resulted from these interactions.

        CTI is already proving its worth. Throughout India, ELOs and LE staff as well as
consular managers spoke approvingly of concrete benefits from the program. Some employees
noted, however, that more coordination means more clearances and more time spent getting
input from five posts on everything. As the mission started this program less than 2 years ago,
consular staff still needs to do more to integrate consular operations. Consular managers are
aware of most of the issues they need to work on through the ideas that have been generated
from the many conferences, the visits among posts, and the almost daily interactions through
emails, phone calls, and SharePoint. In the opinion of the OIG team, CTI is a model for how
large multipost consular operations should be integrated. While there are resources attached to all
this complex activity, the benefits are significant. The next generation of consular leaders in
                                                   28
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Mission India will need to build on the accomplishments of the current group. The mission and
CA should work together to codify the positive lessons from CTI and to publicize this
information.

Recommendation 18: The Bureau of Consular Affairs, in coordination with Embassy New
Delhi, should provide guidance to consular managers through the bureau’s intranet site on the
principles of integrating large multipost consular operations, building on the lessons of Consular
Team India. (Action: CA, in coordination with Embassy New Delhi)


Innovative Practice: Using Metrics to Measure Performance

Issue: Many consular managers collect data but fail to use that data to improve performance,
while other posts measure too many things and staff members are unclear about what they should
focus on.

Response: Consular Team India has developed an effective metrics program that focuses on 12
key performance indicators. Several of the metrics target unproductive tasks that should be
avoidable. All five posts in India use the same metrics and, when one post finds a way to
improve performance, they share their successful practices with the other posts.

Result: Posts in India have made significant improvements in several areas. For example, by
focusing on the first-time success rate for immigrant visa and passport applicants, the posts have
identified ways to help applicants arrive better prepared. The result is that staff has to handle the
applications only once, saving considerable time, and the applicants receive better service by not
having to make a second visit to the post. In another example, a focus on spoiled visa foils has
reduced the spoil rate to less than half the worldwide average, thereby reducing extra work for
staff.


        As noted above, each post has responsibility for coordinating different CTI issues. The
only formal countrywide coordinating function, besides that of the MCCA, in India is the FS-02
countrywide coordinator for fraud prevention management position in Chennai. This position has
proved its value, and the concept should be extended to American citizens services (ACS), which
needs more coordination on issues such as parental child abductions, warden systems and
messages, and adoptions. The position should be located in Embassy New Delhi, as the officer
will need to be a liaison with the central government on key issues such as extraditions and
children’s issues. The ACS chief position in New Delhi is a FS-03 position and would be the
appropriate position for this new responsibility. The mission and the Department would need to
reevaluate the appropriate grade level for the position. In the opinion of the OIG team, the
position should probably be at the FS-02 level.

Recommendation 19: Embassy New Delhi, in coordination with the Bureau of Consular Affairs
and the Bureau of Human Resources, should designate the officer in the FS-03 American citizens
services chief position in Embassy New Delhi as the countrywide coordinator for American
citizens services and should reevaluate the appropriate grade level for that position. (Action:
Embassy New Delhi, in coordination with CA and DGHR)

                                           29
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Consular Information Units

        Each of the five posts in India has a consular information unit that provides essential
services in responding to case inquiries on NIVs and immigrant visas (IV). They organize
outreach activities and help manage the Web sites. The OIG team was impressed with the energy
and creativity in all the teams but believes that CTI would gain efficiencies by centralizing many
of these functions. Among other things, a countrywide CTI would be able to manage a unified
NIV appointment system, including an emergency appointment system, and maintain Web sites.
Each post would still have responsibility for outreach programs.

       Given that a significant part of the work of a centralized consular information unit would
be answering case inquiries on IV work, the MCCA should place such a centralized function in
Embassy New Delhi or Consulate General Mumbai, depending on which post will house a
consolidated IV operation.

Recommendation 20: Embassy New Delhi should centralize the consular information unit
functions to the extent possible, including managing a unified nonimmigrant visa appointment
system, an emergency appointment system, and consistent Web sites, at either Consulate General
Mumbai or Embassy New Delhi. (Action: Embassy New Delhi)

       The consular information unit in Chennai is not using the call center in New Delhi for
answering routine phone calls and routine emails. This is an unnecessary use of LE staff time.
Chennai is the only post in India that is not using the call center for this purpose. This situation
needs to be corrected.

Recommendation 21: Embassy New Delhi should coordinate with Consulate General Chennai
so that the call center in New Delhi will respond to all routine phone calls and emails for
Chennai as it does for the other posts in India. (Action: Embassy New Delhi)

Temporary Worker (H1B) and Intracompany Transferee (L) visas

        Some of the most complicated NIV cases involve L (intracompany transferee) and H
(temporary worker) visas. Mission India processes more such cases than any other mission in the
world. Many involve applicants who work in the information technology sector. Because the law
is complex, consular officers need more time to adjudicate such cases and need to exchange
ideas with their colleagues who are working on similar cases. Officers must refuse applicants
who do not meet the qualifications under the law. Because the applicants apply based on
petitions that were approved by the Department of Homeland Security, consular officers must
request that department to revoke the petitions. These revocation requests are complicated and
time-consuming. LE staff members currently help the officers to prepare the basic outlines for
these requests. Embassy New Delhi could use its large pool of qualified eligible family members
(EFM) to write revocation requests for H and L visa petitions for the mission. This procedure
would save considerable officer time.

Recommendation 22: Embassy New Delhi should centralize writing requests for revocation of
H and L visa petitions for all posts in India at the embassy, using eligible family members for
this work. The consular officers who adjudicate the individual cases should provide their case

                                            30
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

notes and files to the eligible family members and clear the completed revocation requests.
(Action: Embassy New Delhi)

        One of the biggest challenges consular managers in India face is ensuring consistency in
the standards of adjudication on H and L visas. The inconsistencies arise from the complexity of
these visa categories and create public relations problems, as large companies note different
decisions for employees in similar circumstances. As the consular section in Chennai processes
the largest number of such cases in India, the OIG team believes it would be logical to assign this
function to an officer in Chennai.

Recommendation 23: Embassy New Delhi should designate a mid-level consular manager in
Consulate General Chennai as the countrywide coordinator for the mission to establish, monitor,
and train officers in adjudication standards for H and L visas. (Action: Embassy New Delhi)

        Blanket L visas are an even greater challenge for consular officers. These petitions are for
managers, executives, and professionals with specialized knowledge who work for companies
having multilayered structure and numerous related business entities. One officer estimated that,
because of the complexity of these cases, adjudicating blanket L visa applications takes five or
six time longer than it takes to adjudicate a tourist visa. Centralizing blanket L visa applications
at one post in India would provide for greater efficiencies, adjudication consistency, and
development of expertise. Precedents exist in other missions in which the adjudication of
especially complicated visa applications is centralized in one post. For example, only Embassy
London and Embassy Tokyo are authorized to accept E (treaty trader visa) applications in their
respective countries. Consulate General Chennai processes the most L visas in India and
therefore should be designated as the post in India for processing all blanket L visa applications.

Recommendation 24: Embassy New Delhi should request that the Bureau of Consular Affairs
designate Consulate General Chennai as the only post in India authorized to adjudicate blanket L
visa applications. (Action: Embassy New Delhi, in coordination with CA)

Recommendation 25: Embassy New Delhi should create a special unit at Consulate General
Chennai for adjudicating blanket L visa applications and create a program in which entry-level
officers are assigned to that unit on a rotational basis. (Action: Embassy New Delhi)

Standard Operating Procedures

       Standard operating procedures are inconsistent among the five posts in India. As CA and
the mission revise policies and procedures on a regular basis, it is important that someone be
responsible for updating these procedures and coordinating the changes among the five posts.
Consulate General Hyderabad, the newest post in India, created many new standard operating
procedures for itself and has the most recent expertise on this subject. One of the managers in
Hyderabad would be a good choice for this coordinating role.

Recommendation 26: Embassy New Delhi should designate a countrywide coordinator for
standard operating procedures for all consular processes. (Action: Embassy New Delhi)

        Consular managers find it difficult to coordinate administrative support issues for CTI.
For the consulates general, it is especially difficult, as most of the management support, such as
                                           31
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

human resources and financial management, are centralized in the embassy. The MCCA needs a
senior LE staff member who would be the primary liaison for all of CTI on such administrative
issues and would also be an assistant to the MCCA on issues such as strategic planning. The
duties of the position would be similar to those of the LE staff member who is the management
analyst/special assistant for the consul general in Embassy London.

Recommendation 27: Embassy New Delhi, in coordination with the Bureau of Consular
Affairs, should establish and fill a locally employed staff position that would serve as a
management analyst and special assistant in support of management issues for Consular Team
India. The position would be attached to the office of the minister-counselor for consular affairs
in Embassy New Delhi. (Action: Embassy New Delhi, in coordination with CA)


Innovative Practice: Consular Training Database

Issue: With 320 employees in Consular Team India, it is a constant challenge to ensure that
American and LE staff members are developing their professional skills.

Response: Building on an Access database that was created by Embassy San Salvador, Embassy
New Delhi’s information technology staff created a Web-based, user-friendly course tracker. It
provides a suggested training schedule for each employee and a record-keeping system for
managers to review. The database contains a series of position training profiles for all categories
of consular LE staff and officers. These profiles list the courses that are required or
recommended for each job category, including FSI distance learning courses, FSI workshops,
FastTrac training, cross-training at post, and other professional development activities such as
learning how to draft cables. It is designed for long-term use over 10 years for LE staff members.
Mandatory courses are highlighted to distinguish them from optional courses.

Result: Consular managers at all five posts in India have noted an increase in the course
completion rates. In New Delhi, for example, LE staff had a 19-fold increase in the number of
completed distance learning courses in 2010 compared to the previous year.



Rising Consular Workload and Resource Issues

        Both the ACS and NIV workloads are increasing in Mission India. In ACS, the growing
trade and investment between the United States and India is leading to a significant increase in
the number of American citizens who are moving to India for business and work. More
American tourists are discovering India. Most important, there is a growing surge of U.S.
citizens of Indian origin who are returning to live and work in India. As bilateral cooperation on
law enforcement and counterterrorism grows, the number of extradition cases is also increasing.

       NIV applications are already up 19 percent countrywide over the same period in FY
2010; nevertheless, consular managers in New Delhi had to reassign officer resources from NIV
to ACS, which is the higher priority. In the consular package in December 2010, the embassy
asked for three additional ELO positions in New Delhi. These positions are urgently needed
because of the increase in both ACS and NIV work. To cope with the rising NIV demand, two
                                           32
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

mid-level visa managers had to adjudicate over 20,000 NIV applications in FY 2010. While the
OIG team encourages managers to help ELOs with interviewing on a periodic basis, this level of
interviewing deprives managers of the vital time they need to perform their managerial duties.

Recommendation 28: The Bureau of Consular Affairs, in coordination with Embassy New
Delhi and the Bureau of Human Resources, should approve Embassy New Delhi’s request for
three entry-level officer positions for the consular section in New Delhi. (Action: CA, in
coordination with Embassy New Delhi and DGHR)

        Almost all posts in India, except Consulate General Kolkata, are using their LE staff too
much in the waiting rooms and outer screening areas to direct customers and provide general
assistance to visa customers. In most missions, contract personnel perform these functions;
however, Mission India has had some malfeasance problems with contract workers, so consular
managers decided to use LE staff almost exclusively for this work, tying up significant LE
resources. Consular managers need to revisit this issue and use a mix of contract personnel and
LE staff for these services, with the majority being contract workers and the LE staff monitoring
their work.

Recommendation 29: Embassy New Delhi should coordinate with consular managers in
Consulates General Mumbai, Chennai, and Hyderabad to reorganize services to visa customers
in the public areas, using primarily contract personnel and using some locally employed staff to
monitor their work. (Action: Embassy New Delhi)

        New facilities need to be part of the strategic planning for India 2020, but even before
that decision point is reached, the mission needs to take every possible step to improve
procedural efficiencies. Maximizing use of existing consular windows should be a guiding
principle. CA and the mission could initiate shift work in which two teams of officers and LE
staff would overlap during the working day. One team would start early in the morning and
prepare cases and interview applicants until the middle of the day. The other team would start in
the middle of the day and do the same until the end of the working day. Shift work would not be
an easy or cost-free change. It would require more American and LE staff and more work space.
Currently the only posts that could accommodate more employees in their work spaces are New
Delhi and Mumbai, once the latter moves into its new facility.

       A more immediate solution would be to move as much visa processing as possible away
from the windows. The model already exists at some posts, such as in Mexico. If applicants
appeared at an off-site processing center to submit their documents and be fingerprinted,
processing on the day of the visa interview would be faster than it is now. More important, it
would free up windows that could be used by officers for interviews. Chennai, Hyderabad, and
Kolkata are already using their windows to maximum capacity without going to shift work, but
they would have more window capacity if they had off-site data collection.

        CA has scheduled Mission India for a comprehensive contract for visa support services
under the Global Support Strategy in the second half of 2011. As part of that contract, CA will
need to decide what level of services the contractor will provide. The highest level, Service
Package 1, includes off-site data collection at centers staffed by contract personnel. Mission
India should get this level of services. CA should take advantage of the exceptionally strong

                                          33
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

consular leadership in India to implement the highest level of services now so that, as NIV
workload continues to grow, the system will run smoothly from the start.

Recommendation 30: The Bureau of Consular Affairs, in coordination with Embassy New
Delhi, should designate the highest level of services under the Global Support Strategy contract
for Mission India, to include off-site centers where visa applicants submit their documents and
are fingerprinted. (Action: CA, in coordination with Embassy New Delhi)

         Mission India has three states that generate the largest number of NIV applicants apart
from the five cities where the consulates general are located. These states are Gujarat in
Mumbai’s consular district; Punjab in New Delhi’s consular district; and Karnataka in Chennai’s
consular district. If CA requires the contractor to establish off-site processing centers in the
vicinity of the capitals of those states (Ahmedabad, Gujarat; Chandigarh, Punjab; and Bangalore,
Karnataka), visa applicants would do their initial processing close to home and then make one
visit to the consulate general where they have an appointment. The embassy could use EFMs to
make regular visits to monitor activities at the centers.

Recommendation 31: The Bureau of Consular Affairs, in coordination with Embassy New
Delhi, should establish off-site visa processing centers in the states of Gujarat, Punjab, and
Karnataka under the Global Support Services contract and support Embassy New Delhi in hiring
eligible family members to travel to these centers on a regular basis to monitor their activities.
(Action: CA, in coordination with Embassy New Delhi)

Consular Agencies

        One way to provide better service to American citizens and extend consular outreach is to
establish consular agencies where there are large populations of Americans. Consulate General
Chennai proposed a consular agency for Bangalore, which has one of the largest populations of
Americans in India outside the five cities where the consulates general are already located.
Embassy leadership opted instead to increase the amount of time to 1 week a month that an
officer and an LE staff member from Chennai’s ACS unit spend in Bangalore to provide these
services, which include taking applications for passports and consular reports of birth. The main
issue with this solution is that the employees from Chennai have to use the facilities of the
Foreign Commercial Service in Bangalore, and it is an open question of how long this
arrangement will prove satisfactory.

Immigrant Visa Consolidation

        Three consulates general in India (New Delhi, Mumbai, and Chennai) together process
more than 41,000 IVs annually. The Department has consolidated IV processing at one post in
almost all countries where there are multiple posts. Mission India previously considered
centralizing IV processing in two locations, Mumbai and New Delhi, but pulled back from this
step when it became clear that the facilities in neither location could handle the increased
workload. In the interim, Consulate General Kolkata ceased all IV processing early in 2011, and
Consulate General Hyderabad does not take any IV applications.

       The OIG team believes the time has come to consolidate IV processing in India. There
are several advantages to consolidation, including greater efficiencies of operation, consistency
                                           34
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

of processing and decisionmaking, and enhanced antifraud benefits by having one staff member
review all the work. Embassy New Delhi and Consulate General Mumbai will both have the
space for consolidation. New Delhi’s newly renovated consular section has 30 visa windows.
The new consulate compound in Mumbai will have 39 visa windows.

       Consolidation of IVs would also benefit other posts in India. The greatest future growth
in NIVs is anticipated to be in southern India, primarily in the consular districts of Hyderabad
and Chennai. Chennai also has a growing ACS workload, in part because of the growing
American citizen presence in Bangalore. Since Chennai is operating beyond its workspace
capacity (see Recommendation 34), moving IV functions to New Delhi or Mumbai would free
up space for Chennai to accommodate future growth in the NIV and ACS workload. Chennai
would also be in a better position to take on specialized NIV adjudications, such as H and L visa
processing, which could be consolidated there in the future.

       Arguments against IV consolidation include the diversity of languages in India and
communication and travel difficulties. However, the Indian economy, including transportation
and communication, is developing rapidly, making it possible for applicants to minimize travel
and maximize preparations prior to the visa interview. In addition, a significant element of the
Indian population speaks English and/or Hindi, and local employees capable of speaking
multiple local languages, including those of other consular districts, are already employed in
Consulate General Mumbai or the embassy or can be found in the two metropolitan areas.

Recommendation 32: Embassy New Delhi, in coordination with the Bureau of Consular
Affairs, should consolidate all immigrant visa operations either in Embassy New Delhi or in the
new facility at Consulate General Mumbai. (Action: Embassy New Delhi, in coordination with
CA)

American Citizens Services

        Mission India provides a full range of ACS services, including passports, reports of birth,
deaths and arrests, and federal benefits. By far, the most time-consuming and challenging of
these responsibilities are those involving children – India is second in the world in active child
abduction cases, for example.

         India is not a signatory to the Hague Convention on International Parental Child
Abduction but is considering joining the convention. The embassy has maintained a continuing
dialogue with Indian authorities on this issue. Over the past 5 years, Mission India has seen a 500
percent increase in the number of child abduction cases. A recent visit of the Assistant Secretary
for CA provided another opportunity to press the government on this issue. In the meantime, the
mission provides what assistance it can to the left behind parents and American citizen children,
including welfare/whereabouts visits, documentation, and monitoring cases before the courts.
Fortunately, ACS has not encountered a situation in which the welfare of the child appeared to
be at risk due to his or her presence in India.

       Approximately 72,000 U.S. citizens are registered as residents in India, and 802,000
Americans visited India in 2009. At any one time, almost 234,000 Americans are in India as
residents or as visitors. Many U.S. citizens of Indian birth have returned to India to take
advantage of opportunities in the rapidly expanding Indian economy. Many Americans require
                                           35
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

assistance in navigating the complex world of Indian visa and registration regulations. Changing
requirements often make it difficult for ACS to provide reliable guidance. The Indian
bureaucracy imposes requirements and delays that make it difficult to get timely reports of death
or court decisions, settle property disputes, or resolve issues involving dowry, an outlawed but
still widely practiced custom.

       Threats of terrorism and natural disasters are a constant concern, and the consular section
in Hyderabad recently completed a highly praised mission-wide exercise in crisis management.
More than 100 employees from the mission participated in the exercise, and diplomatic officials
from several embassies observed the exercise. The mission plans additional such exercises.

         Recent developments in assistive reproduction technology have added a whole new
dimension to documenting children as American citizens. Surrogacy is a growing part of India’s
medical tourism industry. Since 2005, commercial surrogacy in India has been legal but
unregulated, so there are no set standards, and the practice raises ethical and legal concerns,
including the citizenship of the child. Over 350 clinics in India offer commercial surrogacy
services. Clients range from infertile couples to single parents and same-sex partners. In most
surrogacy cases adjudicated at posts in India, the U.S. citizen male provides sperm for in vitro
fertilization of a donor egg, usually provided by an anonymous Indian donor. The resulting
embryos are implanted into a gestational surrogate. As long as at least one genetic parent is a
U.S. citizen, a child can qualify as a U.S. citizen.

        Adjudication of citizenship in these cases is more difficult than in traditional Consular
Report of Birth Abroad cases. The potential for fraud is clear, and documentation may be
unreliable. Clinics have mishandled donated eggs and sperm. Forged legal documents such as
birth certificates and medical records are available for purchase. Consular officers therefore often
require DNA testing to verify the biological relationship of the child to at least one of the
parents. CA is aware that regulations and laws have not kept pace with technology and is
working with legal advisers and other agencies to update policies as appropriate.

Fraud Prevention

        The consular sections in India are among those dealing with the highest fraud rates in the
world. Corruption pervades all levels of government and commercial services, and it is easy to
obtain genuine official documents through fraudulent means.

        Each post has a fraud prevention manager and staff to follow up on suspected cases of
fraud. Chennai’s fraud prevention manager is the antifraud coordinator for all of India, and fraud
prevention efforts are well coordinated throughout CTI through frequent communication,
including a weekly conference call. Mission India also benefits from a close working relationship
with the Kentucky Consular Center, which has provided significant resources to assist consular
officers in establishing the bona fides of petition-based applicants, particularly for H and L visas.
For immigrant visas, false family relationships are the most problematic, and the posts use a
variety of techniques to investigate suspected fraud, including DNA testing.

        While the new single consular district policy for NIVs allows visa applicants to apply at
any post in India where appointments are available, consular officers are seeing a wider range of
fraud schemes stemming from out-of-district applicants. Fraud prevention managers must
                                           36
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

develop additional expertise in order to keep abreast of regional issues and remain in close
communication with the countrywide fraud coordinator.

         The assistant regional security officer/investigator (ARSO/I) program is a great boon to
the antifraud efforts in India. The ARSO/Is and LE staff investigators work closely with the
fraud prevention unit, conducting investigations, providing liaison with local police, and
facilitating arrests when necessary. Even though Kolkata does not have a designated ARSO/I, the
regional security officer there has provided excellent support to the consular antifraud efforts.
During the inspection, the consular section identified two visa applicants from Mumbai who
were using false passports and were associated with a human trafficking smuggling ring
operating in Central America and Mexico to move Indian nationals across the border into the
United States illegally. Working cooperatively with the consular section, the regional security
officer facilitated their arrest.

        The Business Executive Program is an effort to facilitate demanding and time-consuming
petition-based visa cases, to guard against fraud historically endemic to these visa classes, and to
benefit trade and commercial relations. The program provides expedited processing to more than
500 of the biggest and most trustworthy companies. These applications account for 25 percent of
the total NIV workload of the mission. In the recent past, however, the discovery of organized
and widespread fraud in several of the program’s most prominent companies has resulted in their
suspension and the need to spend more time than usual on what should be some of the easiest
and fastest applications to adjudicate. The fraud coordinator has worked with the major
companies to develop processes for greater control and accountability.

Consular Section in New Delhi

        The MCCA is based in New Delhi and provides outstanding leadership over consular
operations mission-wide. He is not the day-to-day manager of the embassy’s consular operations.
An experienced senior manager is the consular section chief and is also an outstanding leader. He
heads a section of 22 officers, eight EFMs, and 58 LE staff. Morale in the section is
exceptionally high under the leadership of the senior officers and five mid-level officers. The
section provides the full range of consular services. As noted earlier in the section of this report
on resources, the unit has expanded officer and LE staff in the ACS unit in the last couple of
years, taking officer resources from the NIV unit. The IV workload is stable at about 12,000–
13,000 cases a year.

        The section moved into an expanded and fully renovated space in early 2009. The space
is well designed and large enough to handle the current levels of staffing and customer demand
and still have room to grow. Consolidation of IVs could be done either in New Delhi or in the
new consulate compound in Mumbai, as both locations would have adequate work space and a
sufficient number of windows.

        As the staffing numbers above indicate, New Delhi’s consular section is large. In other
missions that do not have MCCAs, the grade level of the position of the chief of a section this
size would be at the senior level; however, the section chief position in New Delhi is graded at
the FS-01 level. The section chief often serves as a liaison with senior officials of the Indian
Government on sensitive consular issues, especially since the MCCA frequently travels to the
constituent posts.
                                                  37
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 33: Embassy New Delhi, in coordination with the Bureau of Consular Affairs
and the Bureau of Human Resources, should request a review of the grade level of the position of
the consular section chief in New Delhi to determine whether the position should be upgraded
from FS-01 to FE-OC. (Action: Embassy New Delhi, in coordination with CA and DGHR)

Consular Section in Chennai

        The consular section in Chennai is almost as large as New Delhi’s; it also has high
morale and good leadership. Despite the opening of Consulate General Hyderabad, which took a
significant portion of Chennai’s workload, Chennai’s consular section has already exceeded its
capacity in terms of workspace. Many LE staff members do not have their own work spaces and
have to work in the afternoons at the visa windows. These windows are not ergonomically
designed for interviews nor as work areas.

         One way in which Chennai can gain sufficient work space and free up some window
capacity is to have IVs consolidated in New Delhi or Mumbai (see Recommendation 32).
Another partial solution is to maximize the use of the call center in New Delhi (see
Recommendation 21), which will reduce the space needs of the consular information unit. This
unit is already located in another area of the consulate general that is separate from the consular
section. That fact is yet another indication that the consular work area is inadequate to meet the
needs of the consular section in Chennai.

       Even though Chennai is on the list to get new consulate facilities, it will be at least 10
years before that happens. In the meantime, Chennai’s NIV and ACS workload will continue to
grow, making the current work area even more inadequate than it is. While Recommendations 3
and 4 address the long-term staffing and space needs of the mission, the space issues in
Chennai’s consular section need to be resolved on a more urgent basis. Every LE staff member
should have a desk.

Recommendation 34: Embassy New Delhi, in coordination with the Bureau of Consular Affairs
and the Bureau of Overseas Buildings Operations, should design and implement a plan for
expanding the workspace in the consular section in Chennai to allow each locally employed staff
member to have a desk. (Action: Embassy New Delhi, in coordination with CA and OBO)

Consular Section in Hyderabad

        The consular section in Hyderabad had a rocky beginning. By all accounts, the first 2
years between 2008 and 2010 were an unhappy time in the section, with leadership and
management problems. The OIG team found morale among the ELOs in Hyderabad to be high
and attribute that to excellent leadership by the new consular management team. LE staff in
general had good morale, but a personal conflict among some LE staff members is causing some
tensions. The consular managers are focused on addressing that conflict.

        The consular section cannot meet the local demand for NIV appointments. Work space is
the main constraint. No room exists for expansion of the work area until OBO renovates the
second floor of the consulate building. The consular section could then expand on the ground
floor of the building and add more staff. The number of windows will remain the same, however.

                                           38
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Therefore, Hyderabad would be a good candidate for being the pilot post in India (as part of
India 2020) for moving to a system of shift work.

        The noise in the consular work area in Hyderabad is cacophonous. In the collective
memory of OIG team members, it was the worst they had ever heard. The perils of working in a
palace are that the high-ceilinged rooms are not built for acoustics. The consular managers
ordered headphones for employees, but they received handsets instead. A couple of officers had
headphones. The OIG team members witnessed an experiment in which visa applicants were
asked whether the headphones or the microphones worked best. The headphones won easily.
Wearing headphones would help the employees as well as the applicants deal with the ambient
noise. In addition, both the employees and the applicants would benefit from soundproof
windows.

Recommendation 35: Embassy New Delhi, in coordination with the Bureau of Consular
Affairs, should obtain headphones for all employees who use the consular windows in Consulate
General Hyderabad. (Action: Embassy New Delhi, in coordination with CA)

Recommendation 36: Embassy New Delhi, in coordination with the Bureau of Consular Affairs
and the Bureau of Overseas Buildings Operations, should install sound-proofing on both sides of
the consular windows in Consulate General Hyderabad. (Action: Embassy New Delhi, in
coordination with CA and OBO)


Innovative Practice: Barcoding Commonly Used Sentences for Officers’ Adjudication
Notes

Issue: Consular officers write notes from their visa interviews into the nonimmigrant visa
system. These notes can be read by authorized personnel, such as Customs and Border Patrol
officers at U.S. ports of entry. The notes should not be in short-hand, because they need to be
legible to third parties. As so many cases have similar issues, consular officers find that they
often write the same sentences repeatedly. For example, officers are required to note whether
they have handed a visa applicant who will be working in the United States the information on
what their labor rights will be and that the applicant understands his or her rights under the law.

Response: Consular managers in Hyderabad created a system in which commonly used
sentences or phrases have been barcoded. Those barcodes, with the phrase written underneath the
barcode, are on sheets of paper that the officers keep by their windows. When the officer needs
to use such a sentence, the officer wands the barcode and the sentence is instantly transferred to
the officer’s case notes in the computer system.

Result: This innovation not only saves considerable time for the officers, but it also allows them
to keep their focus on the applicants and the applicants’ responses in the interviews.


       Consular managers in Hyderabad have also come up with an innovative program in
which LE staff members present training sessions on topics about local culture. Even LE staff


                                           39
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

members benefit, as they come from diverse backgrounds. These sessions, called India 101, have
an added benefit of helping LE staff members to develop their public speaking skills.


Innovative Practice: Teaching Staff about Local Culture

Issue: Consular officers need to understand local culture. This understanding leads to better
adjudications and makes officers more effective in outreach and representational functions. It
often takes officers several months at post to gain this knowledge.

Response: Consular managers in Hyderabad ask LE staff members to volunteer to present
sessions on topics about local culture on training days. The sessions are generally taught by LE
staff, but sometimes the LE staff has guest speakers with expertise on a particular topic.

Result: Consular officers understand local culture more quickly than they would otherwise and
develop a more thorough understanding of local customs and social norms. LE staff also benefit
as they come from diverse backgrounds. These sessions, called India 101, have an added benefit
of helping LE staff members develop their public speaking and mentoring skills.


Consular Section in Mumbai

        Mumbai’s consular staff of 28 officers and 61 LE staff have operated for many years in
cramped and overcrowded space that is among the worst that OIG team members have ever seen.
This facility is inadequate for the current staff and workload, and the staff greatly anticipates the
move to the new consulate compound, which is currently scheduled for the fall of 2011. The
working area there will be considerably larger, the waiting areas will be bigger, and the section
will have 39 visa windows and 5 ACS windows. Despite the current poor working conditions,
morale is high. The OIG team attributes this primarily to the exceptionally strong leadership of
the mid-level visa managers.

        To add more windows for interviews and processing, several years ago the consulate
general constructed an extension to add 6 windows to the existing 11 visa windows by enclosing
a part of the visa waiting room along most of the length of one wall. They refer to this extension
as the “tunnel.” With as many as 40 people in the immediate area, including those in the tunnel,
and the lack of egress at the far end, the inspection team concluded that in the event of a fire or
other emergency, the staff in the tunnel would have difficulty getting out and could be trapped.
The OIG team believes that safety is the top priority and that the matter was sufficiently urgent
for the team to make a recommendation to close the tunnel even before the end of the inspection.
To their credit, embassy and consulate general managers closed the tunnel. The MCCA realigned
consular work, reapportioned visa appointments, and sent some staff from Mumbai to other posts
in India so that there was no loss of time or inconvenience to applicants. The mission and CA
deserve praise for their expeditious response to this issue.

        CA would like to make the consular section in Mumbai a model section when it moves
into the new facility. Given the huge challenges and potential for growth in Mumbai, the OIG
team supports the installation of state-of-the-art technology such as Q-flow and thin-client work
stations. Consulate General Mumbai has begun the installation of Q-flow.
                                           40
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The growth in Mumbai’s consular workload over the years has brought additional new
officers into the section, but the consular supervisory staffing structure has not kept pace. It
needs to be augmented and realigned to provide sufficient oversight to the new officers, most of
whom are on their first tour. One mid-level officer directly supervises and rates 18 ELOs. As
capable as that officer is, this staffing structure does not provide sufficient oversight or the
mentoring that the first-tour officers need from their immediate supervisor. Additional middle
managers are needed. Although the section indicated the need for additional manager positions in
their annual report to CA and in the MSRP, the embassy has not formally requested them in a
message to the Department. The section needs two additional mid-level positions to help manage
the NIV unit.

Recommendation 37: Embassy New Delhi, in coordination with the Bureau of Consular
Affairs, the Bureau of South and Central Asian Affairs, and the Bureau of Human Resources,
should establish two additional mid-level manager positions for the consular section in Mumbai.
(Action: Embassy New Delhi, in coordination with CA, SCA, and DGHR)

        The consular chief‘s position is currently graded as FS-01. Given the size of the staff,
including the proposed additional mid-level staff at Mumbai, the OIG concluded that there are
strong arguments for the consular chief position to be at the senior level. This would ensure
sufficient experience and stature for the incumbent to handle one of the largest visa operations in
the world.

Recommendation 38: Embassy New Delhi, in coordination with the Bureau of Consular Affairs
and the Bureau of Human Resources, should request a review of the grade level of the position of
the chief of the consular section in Consulate General Mumbai to determine whether the position
should be upgraded from FS-01 to FE-OC. (Action: Embassy New Delhi, in coordination with
CA and DGHR)




                                           41
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Innovative Practice: Peer Interview Observation Program

Issue: With 23 entry-level officers in the consular section (all but one of them being first-tour
officers) and an insufficient number of mid-level managers, consular managers in Consulate
General Mumbai have been challenged to train and mentor officers on nonimmigrant visa
interviewing skills.

Response: Consulate General Mumbai expanded its nonimmigrant visa training program to
include a peer interview observation program to ensure continuous interview training throughout
an officer’s tour. After spending a formal initial 2-week training period learning from a more
experienced peer, officers participate in this program. An experienced peer observes the
nonimmigrant visa adjudicator periodically and provides immediate feedback on customer
service, efficiency, case notes, decisionmaking, and working with a translator by using a matrix
of criteria to determine whether the officer meets expectations. These sessions are informal and
constructive and do not constitute formal counseling and evaluation, which remains the
responsibility of the consular managers.

Result: Entry-level officers welcome the opportunity to discuss their work in a low-pressure
setting. This helps to develop the skills of new officers and encourages them to learn constantly.
The consular managers appreciate the program as an adjunct to their own efforts to develop the
professional skills of the entry-level officers. This program is a supplement, rather than a
substitute, for the responsibilities of the supervisors to review adjudications and provide their
own counseling and mentoring.


        Although the terrorist attacks in Mumbai occurred more than 2 years ago, the
repercussions from that traumatic situation are still reverberating through the consular section.
Many employees, both Americans and LE staff, put in extraordinary performances during the
several days of that crisis. Some employees were among the first at the scenes of the attacks,
inspecting dead bodies to try to identify American citizens. Others were near the hotels for days
at a time as security forces fought terrorists who were holding Americans and others hostage.

       The mission decided that there would be no individual awards and that there would be
one group Superior Honor award for anyone who worked on the crisis – whether it was for a few
hours providing in-office support, spending days going through morgues, consoling grieving
victims, or being in the middle of traumatic events. The OIG team noted that this decision
created a sense of grievance among employees that still existed during the inspection.

Consular Section in Kolkata

        Kolkata has the smallest consular section of any of the Indian posts. Four officers, 1
EFM, and 11 LE staff provide NIV and American citizens services to the population of India’s
third largest city and the consular district. Kolkata does not provide IV services. Space in the
section is limited, with only six windows for NIVs, including a cashier and a privacy booth, and
there is no room to expand further within the confines of the existing building. Visual oversight
of visa processing is adequate, as two of the vice consuls have offices in the work area. The

                                           42
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

section currently processes about 200 visa applications a day and could probably do 300 or more
if it went to a modified shift schedule for interviewing. Beyond that, any significant increase in
the visa workload would have to be absorbed by one of the other consulates general unless
Consulate General Kolkata moves to another larger facility, an unlikely possibility in the near
term.

        The consular chief’s overall supervision is hampered by the location of his office outside
the visa area and on the other side of the compound access control. Similarly, because of space
limitations, the fraud prevention LE staff is not colocated with the visa unit, a disadvantage when
they are needed in the visa work area. The ACS unit has a separate office and waiting area, and
ACS clients enter through the main entrance. These conditions pose challenges for management
of the section and the section’s cohesiveness. It is incumbent on the consular section chief to
ensure good communication and oversight within the section. Currently, he spends about 25
percent of his time in the visa area and willingly steps in when needed to help interview
applicants. The ACS officer, who is traditionally the most senior of the ELOs having served
previously in the NIV unit, also helps to adjudicate visas and assists with fraud interviews during
absences or when asked. However, both the consular chief and the ACS officer do this on an ad
hoc basis. Since both appear to usually have the time (the consular chief does not have a
regularly assigned internal portfolio other than as consular chief), it would be preferable for them
to schedule regular daily stints to assist the unit, free the NIV officers for other duties, and
increase productivity. Their assistance would also help maintain consistent oversight of visa
operations.

       Informal Recommendation 13: Embassy New Delhi should require that the chief of the
       consular section and the American citizens services unit chief in Kolkata schedule regular
       times to interview in the nonimmigrant visa unit so that one of them is always readily
       available for advice and assistance to the nonimmigrant visa staff and to increase
       productivity.

Language Training for Consular Officers

        Thirty-seven consular officer positions (40 percent of the consular officer positions in
India) are language designated for one of the major non-English languages of the country: Hindi,
Gujarati, Punjabi, Bengali, Urdu, Telugu, and Tamil. About 15 additional entry-level positions in
Chennai have an optional language designation for Tamil. Officers typically get 6 to 9 months of
language training prior to their assignment to one of the five constituent posts even though most
of the ELO language-designated positions are designated 2/2 for speaking and reading.

        According to the visa officers and consular managers in India, English is the most used
language for visa interviews because most visa applicants have sufficient proficiency in English.
Therefore, most of the interviewing officers use English almost exclusively, and many said their
language training was not necessary. In every post in India, there are some officers with
sufficient proficiency and confidence in their language skills that they use their training on a
daily basis, but for those who do not have sufficient proficiency or when there is a complex
interview, LE staff can and do translate in multiple local languages, and the officers frequently
call on them to assist.


                                           43
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

          Hindi is widely spoken and understood throughout the country, and many applicants
speak it as a second or third language, even in non-Hindi areas. On the other hand, in Mumbai
where most of the interviewing officers are trained in Gujarati, the major language of the state of
origin of most IV applicants (Gujarat), this language is not useful in the metropolitan area of
Mumbai where the primary local language is Marathi. Gujarati is a niche language, meaning that
it is useful in one post only for one purpose. Most of the IV LE staff can and do interpret for the
officers, and additional staff could be added at minimal cost because salaries are relatively low in
India. Even if one of the first-tour officers has an assignment to Mumbai in the future, it is not
likely to be as an interviewing officer or even in the consular section, making the usefulness of
Gujarati even more limited. Under these circumstances, the fact that about half of the
interviewing officers have had Gujarati language training seems excessive.

         The criteria for designating language study for a particular position per 13 FAM 221 b.
(1) is that “only those positions where language proficiency is essential, rather than merely
helpful or convenient, should be designated. . .” Language training, though useful, is expensive
and time consuming. It should only be undertaken when it is of value to both the officer and the
Department.

        Some officers noted that the language training they get serves another purpose – to get
them to a professional level and off language probation. While this is desirable for tenuring
purposes, it limits their options because they are not likely to get further language training until
they are tenured. This means they cannot get training in a world language that would be more
useful in future assignments.

        In some cases the language training is in the more formal versions (Tamil and Gujarati)
or not specific to the region where applicants come from (Tamil), thus requiring an adjustment
and further study when they arrive at post. The ELOs also say that they do not usually get
sufficient training in the language needed specifically for consular interviewing. Reading skills
may be less important than speaking, and language-designated positions could be designated for
speaking only.

        The inspection team believes the Department is providing language training for far more
consular officers in India than is necessary. The OIG team estimates the cost of training an
officer for 30 weeks to be approximately $100,000, counting salary; so if 19 positions are not
designated, the savings would be approximately $1,900,000. These savings do not include the
incentive pay that is available for officers who obtain a 3/3 level in an incentive language.

Recommendation 39: Embassy New Delhi, in coordination with the Foreign Service Institute,
the Bureau of Human Resources, and the Bureau of Consular Affairs, should recommend to the
Department of State a reduction of at least 50 percent in the number of language-designated
positions for consular officers assigned to the embassy and consulates general. The request
should identify the specific positions that are no longer language designated. (Action: Embassy
New Delhi, in coordination with FSI, DGHR, and CA)

Visa Referrals

       In general, Mission India’s leadership and consular managers handle visa referrals
according to the worldwide policy, which requires the constant and vigilant attention of all
                                                44
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

concerned. Consular managers ensure that all officers who wish to make referrals are properly
briefed and sign a written acknowledgement that they understand and will undertake to follow
the rules. The policy requires the referring officer to know the applicant personally. In a few
cases at one post, an ELO was prevailed on to sign referrals when the applicants were in fact
contacts of the principal officer. This practice has ceased, and the MCCA is monitoring the
situation to ensure that the problem will not recur. He has reminded all concerned of the
importance of adhering to the worldwide policy on visa referrals.

Visas Viper

        A review of Visas Viper procedures indicated that all posts have regular monthly
meetings. The consular chiefs are appropriately acting as committee coordinators and submitting
the required reports to the Department. The section in New Delhi also checks names periodically
to ensure all appropriate entries are in the consular data base.




                                          45
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Resource Management
                           U.S.           U.S.        Foreign                           FY 2011
                          Direct-      Local-Hire     National                           Total
        Agency           Hire Staff      Staff         Staff         Total Staff        Funding
                         (Authorized) (Authorized)   (Authorized)    (Authorized)        (000s)
State – D&CP                      129           27            195              351       $12,914
State - ICASS -                   27           27            889                         $19,453
Traditional                                                                    943
    ICASS-OBO                                                                       0     $1,596
    ICASS-LGP                                                    4                  4      $655
State – Public                    24                         188                          $6,584
Diplomacy                                                                      212
State – CA (MRV)                  87           21            130               238        $6,394
State – Diplomatic                13                          96                          $2,399
Security                                                                       109
State – DS-H&L visa                6            1             20                          $1,512
Fraud Prevention                                                                27
State – Representation             0            0                0                  0      $129
State – OBO                        1            0                9              10       $12,962
State- Engineering
Security Services                  2            2             11                15        $1,180
Marine Security Guard             10                           3                13          $285
USAID                             25            2             85               112        $3,039
Foreign Agriculture                                                                        $475
Service                            4            0                9              13
Agriculture-APHIS                  1                             2                  3      $348
Foreign Commercial                                                                        $2,106
Service                            9                          46                55
FCS-BIS                            1                             1                  2      $305
FCS-MAC                            1                             3                  4      $156
FCS-PTO                            1                             3                  4      $710
Defense Attaché Office            12            1                7              20        $1,400
Other Department of                                                                        $715
Defense                            7            0                0                  7
DOD-ODC                            5            1                5              11         $520
DOD-PEPFAR-NHRC                                                  1                  1       $50
DOD-MCO                            4                                                4      $275
Department of
Homeland Security
(DHS) – (CBP)                      1                             1                  2      $161


                                        46
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

DHS – Citizenship and
Immigration Services
(CIS)                                3                             4                7       $466
DHS – Immigration and
Customs Enforcement
(ICE)                                3                             4                7       $181
DHS – FDNS                           2                                              2       $642
FAA                                  1             1               1                3       $290
HHS-OGHA                             1             1               3                5       $247
Health and Human
Services (HHS) –
Center for Disease
Control (CDC-WHO)                    6                                              6       $355
CDC-GAP                              4                                              4       $800
HHS-CDC-Global
Disease Detection                    2                             2                4      $650
HHS-FDA                             12                             4               16     $1,098
Drug Enforcement                                                                            $500
Admin                                6                             2                8
Legal Attaché (LEGAT)                3                             1                4       $231
VOA-IBB                              1                             2                3       $319
BBG-TMO                                                            2                2       $109
Open Source Center                   2             0              11               13     $1,256
Department of Treasury               1             1               1                3       $188
Library of Congress                  3                            69               72     $2,868
Totals                             420            85           1,814            2,319    $86,523

Management Section Overview

Embassy New Delhi

        The embassy management section is generally well funded, staffed, and organized to
provide adequate levels of service to clients at one of the Department’s largest and most complex
diplomatic missions. ICASS customer satisfaction and OIG survey results, with few exceptions,
met or exceeded bureau or worldwide averages. The roles and responsibilities of the
management minister-counselor and deputy management counselor are well defined and
distributed. The minister-counselor’s outreach, frequent visits, and support to constituent posts
have created a unity of identity and purpose among all mission management sections. She
assembles her senior staff and constituent post management officers quarterly at one of the
consulates general, thereby building teamwork and communication. She responds to specific
functional needs of the consulates general by sending embassy management staff to assist on a
timely basis. Consulate management officers commended embassy performance in management
and resource matters. Other sections of the embassy have followed her lead and adopted this
approach to mission-wide collaborative leadership.
                                          47
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

        The deputy management counselor executes his role as chief operating officer of embassy
management services effectively. His establishment of a community welfare committee is
indicative of his emphasis on communication and collaboration with customers.

         The OIG team found the quality of management operations at the constituent posts,
however, to be mixed in terms of customer satisfaction, process management, and adherence to
Department rules and regulations. The reasons for the negative variances included personnel
shortages, gaps, and inexperience, and the disparity between customer expectations and the
realities of service at 20–25 percent hardship differential posts – particularly among large
numbers of ELOs. Consulate LE staff have proved their value to the constituent posts by
assuming more responsibility and helping to train management ELOs on the job.

       Within this management environment, one issue stands out as the most persistent,
complex, and seemingly intractable: real property. It presents a serious challenge to the entire
mission of providing safe, secure, and adequate working and living space to employees. It also
presents a challenge in determining the best long-term use and value of U.S. Government-owned
properties, particularly in light of constraints that Indian local and federal authorities have
imposed.

Consulate General Mumbai

        The management section of Consulate General Mumbai provides adequate customer
services with some notable exceptions. Its most recent overall ICASS services score met the
worldwide average of 4.03 on a 5-point scale and fell just short of the bureau average of 4.1.
However, housing-related scores – leasing, furniture/furnishings, and residential building
operations – indicated serious dissatisfaction, as did the OIG survey and interview results. (b)
                                                                                             (5)
                                    This report makes a recommendation, in the rightsizing
section, to address the shortcomings of the housing program. (b) (5)
                                                 delays continue to plague the new consulate
compound, which has faced continuous delays since its originally planned completion date of
March 2008.

        Insufficient staffing has played a significant role in limiting the capabilities of the
management section. It is authorized two general services officers, but only one position has
been filled with a first-tour officer. The same general services officer also serves as the facilities
manager, as the previous facilities manager curtailed in September 2010. The scheduled
September 2011 arrival of a new, experienced facilities manager promises some relief, but the
management section still faces some challenges as the management officer, the general services
officer, and the new consulate compound move coordinator will depart in spring 2011. With the
move to the new consulate compound now scheduled for September 2011, the consulate general
will need to rely on temporary duty support from New Delhi to provide continuity of leadership.

Consulate General Chennai

        The management section of Consulate General Chennai achieved very high scores on the
recently released 2011 ICASS customer satisfaction survey, exceeding bureau and worldwide
averages in 25 of 29 categories and scoring very close to the averages in the remaining four
categories. The management officer, the two general services officers, and the professional
                                            48
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

associate human resources assistant arrived in quick succession during fall 2010 but have melded
into an effective team, along with the professional associate general services assistant of longer
tenure. One general services officer serves as the facilities manager because the Government of
India has not approved that new position. Despite the ongoing personnel shortage, the
management team clearly meets customer needs and expectations. It must continue to focus not
only on the transactional level of its operations, but also on higher level management and internal
controls.

Consulate General Kolkata

        The management section of Consulate General Kolkata deserves great credit for
maintaining operations during a period of personnel shortages in the key positions of information
management (IM) and general services. The OIG team noted the progress made by the section
since the newly established general services officer position was filled and the 1-year gap in IM
ended. Having focused more on customer satisfaction and achieved success in that area – as the
high scores in both ICASS and OIG surveys reflect – the section is turning its attention to staff
development, process management, and internal controls. The management section now has
sufficient personnel on hand to do so.

Consulate General Hyderabad

        Consulate General Hyderabad is a relatively new post, and the management section has
experienced significant growing pains since its 2008 opening in response to an assurance by
President Bush’s March 2006 pledge. It continues to mature, albeit with some difficulties. Under
considerable pressure to establish a management support infrastructure, the Department assigned
a management officer who began setting up an administrative platform, and Embassy New Delhi
provided considerable support, guidance, and resources. The initial emphasis was on providing
basic services to consulate staff, with less focus on establishing standard operating procedures
and management controls. However, lack of staffing hindered the effectiveness of the section.
Many key LE staff positions remained vacant during the first year, and most new hires had no
experience working in a diplomatic mission or with Americans. As a result, the quality of
management support did not meet the needs or expectations of the consulate community.

         The management section has increased in both staffing and capabilities during the past 2
years and now provides the full range of support services. The majority of the consulate staff is
still relatively inexperienced, and few have received any formal training. In view of the
importance of training to both internal controls and the quality of management support, formal
training for first-line LE staff in the management section should be a top priority for the
consulate general and the embassy.

Recommendation 40: Embassy New Delhi should establish a list of appropriate and prioritized
training courses for first-line locally employed supervisors in the Consulate General Hyderabad
management section and set up a training schedule. (Action: Embassy New Delhi)

        The management officer recognizes the need to regularize administrative operations by
establishing standard operating procedures and enhancing internal controls. However, OIG
survey results indicate that there is still considerable need for improvement in the quality of
support services. The levels of satisfaction for both overall management operations and customer
                                           49
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

service orientation were slightly below the average scores of previously inspected posts. The
only management subunit with above-average scores was the IM section, while general services,
facilities management, financial management, and human resources management were all rated
below average.
       (b) (5)




Financial Management

        The financial management center provides high-quality services to the embassy
community, constituent posts, and other U.S. Government agencies, as reflected by the scores on
the 2011 ICASS customer satisfaction questionnaires. The financial management center has
begun to coordinate more closely with program managers on administration of grants and federal
assistance awards. SCA has directed its posts, including India, to transfer travel voucher
processing to the consolidated Bureau of Resource Management post support unit, which could
reduce the need for voucher examiner positions at the embassy.

        Two areas need improvement. As outlined in 4 FAH-3 H-433.5, the financial
management center and the mission’s budget and fiscal sections need to stamp the name of the
certifying officer on the Undisbursed Voucher Detail Report. Also, as there is no management
certification of the biweekly payroll, management needs to periodically conduct spot checks of
individual section’s time and attendance reporting to confirm their accuracy.

       Informal Recommendation 14: Embassy New Delhi should direct certifying officers in
       Mission India to stamp the name of the certifying officer on the Undisbursed Voucher
       Detail Report in accordance with Department of State guidance.

       Informal Recommendation 15: Embassy New Delhi should direct management officers
       in Mission India to periodically conduct spot checks of the section’s time and attendance
       reporting to confirm that time attendance was reported accurately.




                                          50
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Innovative Practice: Procedures for Tracking Overtime

Issue: The number of agencies, projects, and high-level visitors in India results in a large amount
of overtime for locally employed staff. The financial management office must track, verify, and
charge overtime costs to proper financial accounts, using a system with sufficient internal
controls.

Response:

•      The financial management center (FMC) receives approved overtime sheets from
       timekeepers each pay period with the purpose of annotating overtime.

•      FMC segregates the overtime chargeable to respective projects and agencies, calculates
       dollar amounts, and verifies actual overtime reported.

•      FMC maintains a Microsoft Excel spreadsheet that interfaces with the Global Financial
       Services Bangkok Foreign Service national payroll system, using the “VLOOKUP”
       formula and imports the overtime data each pay period.

•      FMC manually enters overtime hours and the amounts chargeable to specific projects,
       agencies, and congressional delegations in a separate column.

•      FMC forwards the spreadsheet to accounting, which processes a journal voucher to
       charge the corresponding recipient’s funds.

•      FMC sends a scanned copy of the journal vouchers to the respective agencies for
       approval of funding.

Result: Overtime hours and costs are correctly accounted for, charged, and verified.


        The supervisors of the financial management sections at Consulates General Mumbai,
Chennai, and Kolkata are experienced senior LE staff members who have attended the financial
management officer course and have been designated as alternate certifying officers. The
consulates general are making a concerted effort to make more vendor payments via electronic
funds transfers. The OIG team took note of a number of procedural areas that the consulates
general should improve. First, management officers at the consulates general in Chennai and
Kolkata were not conducting quarterly reviews of payment vouchers certified by the alternate
certifying officer, as required by 4 FAH-3 H-065. 2-2.

       Informal Recommendation 16: Embassy New Delhi should direct Consulates General
       Chennai and Kolkata to conduct a quarterly review of vouchers certified by the alternate
       certifying officer and document the reviews in accordance with Department of State
       guidance.

   Second, Consulate General Mumbai is sometimes slow to process vouchers for payment
because of late receiving reports.

                                           51
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 17: Embassy New Delhi should direct Consulate General
       Mumbai to coordinate more closely with the general services office on receipt of goods
       and services to ensure timely payment of vendor invoices.

    Third, the management officer at Consulate General Chennai did not reconcile, as required
by the Consular Management Handbook, chapter 700, monthly statements of the accountable
consular officer with collections for the months of July through November 2010.

       Informal Recommendation 18: Embassy New Delhi should direct Consulate General
       Chennai to complete the monthly verifications of the daily accounting of consular fee
       collections for the months of July through November 2010.

   Fourth, the alternate cashier at Consulate General Kolkata does not have a permanent cash
advance in accordance with 4 FAH-3 H-398.1-1.

       Informal Recommendation 19: Embassy New Delhi should direct Consulate General
       Kolkata to issue a cash advance to the alternate cashier in accordance with Department of
       State guidance.

   Finally, the OIG team found that the regional security officer in Kolkata had not cleared a
management notice on the procedures for movement of cash by the consular cashier from the
consulate general to the American Center.

       Informal Recommendation 20: Embassy New Delhi should direct Consulate General
       Kolkata to review security procedures for the movement of cash by the consular cashier
       from the consulate general to the American Center and seek clearance from the regional
       security officer.

Official Residence Expenses

        Consulate General Chennai pays official residence staff salaries in cash, and Consulate
General Kolkata pays official residence staff savings contributions in cash. These practices are
contrary to The Debt Collection Act of 1986, which mandates that U.S. dollar payments be made
electronically directly to individual employee bank accounts. It also contravenes 4 FAH-3 H-
391.1, which dictates that all Department payments should be made by check or electronic funds
transfer or other noncash mechanism. Sound cash management principles mandate limitations on
cash advances to embassy cashiers.

Recommendation 41: Embassy New Delhi should establish and implement a policy requiring
that all official residence salaries at Consulate General Chennai and savings contributions at
Consulate General Kolkata be made by electronic funds transfers to employees’ bank accounts.
(Action: Embassy New Delhi)

Post Surveys

       Embassy New Delhi and Consulates General Kolkata and Mumbai are delinquent in
submitting their post differential surveys, although they received extensions beyond the January
2010 deadline. The current published post differential rates require updating to conform to the
                                           52
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

prevailing hardship conditions and to justify the corresponding rate. The Department of State
Standardized Regulations 920 established the schedule for submission of the post differential
survey in January of even years.

Recommendation 42: Embassy New Delhi should submit completed post differential surveys
for all posts in Mission India. (Action: Embassy New Delhi)

        All four consulates general are late in submitting hotel and restaurant surveys, which are
used to update lodging and meals and incidental expenses for their respective per diem rates.
Consulate General Mumbai last submitted a survey in 2007, Consulates General Chennai and
Hyderabad in 2006, and Consulate General Kolkata in 2008. In accordance with Department of
State Standardized Regulations 074.32 and 920, posts must complete the hotel and restaurant
survey in November of even years or whenever there are substantial changes in hotel costs. The
current published rates of per diem do not accurately reflect the prevailing cost of lodging and
meals in each location.

Recommendation 43: Embassy New Delhi should direct the consulates general to complete the
required hotel and restaurant surveys. (Action: Embassy New Delhi)

International Cooperative Administrative Support Services

        The ICASS system is functioning adequately at New Delhi. The council chairman has
prior experience in the position, and representation on the council is normally at the agency-head
level. A budget committee allows wider and deeper participation in developing and addressing
issues for presentation and decision by the council. The chairman is working to improve
communication between budget committee members and their principals to facilitate council
deliberations and actions. He also had a performance assessment for the ICASS service provider
prepared that covered the latest rating period and focused on improving communication and
feedback. It identified areas for improvement, including performance metrics, the housing
process, and meeting standards. The council has been supportive of the service provider’s efforts
to build the ICASS staff to match the growth of programs and program personnel, particularly
during the mission’s rapid expansion of personnel in the past 2 years.

        Consulate General Hyderabad functions as a program post with no ICASS staff. No other
agencies operate from the consulate general at the present time, although LE staff representing
the Foreign Commercial Service and CDC work from a hotel or their homes in Hyderabad.
ICASS support for those employees comes from either Consulate General Chennai or Embassy
New Delhi, although, in reality, they derive some support from Consulate General Hyderabad.
As the consulate management staff is only supporting Department operations, program rather
than ICASS allotments fund the costs for all management personnel and operations. The OIG
team considers this a workaround that should be brought into conformity with the principles of
ICASS. Moreover, the system now in place precludes other agencies from assigning U.S. direct-
hire personnel to Hyderabad, as technically there is no ICASS administrative support system
there to allow it.

Recommendation 44: Embassy New Delhi should normalize the administrative support of other
agency personnel in Hyderabad under International Cooperative Administrative Support
Services. (Action: Embassy New Delhi)
                                           53
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Human Resources

        Overall, the human resources (HR) section at Embassy New Delhi is providing adequate
services to one of the world’s largest and most complex missions. This assessment is consistent
with the results of the OIG questionnaire and the 2011 ICASS customer survey results.
Nevertheless, the mission management team recognizes the need for improvements that would
increase the section’s efficiency and enhance customer service. A new human resources officer
(HRO) and deputy HRO are providing the guidance and oversight to the section’s LE staff that
was lacking in the past and that prevented the section from achieving excellence in performing
its functions.

         Upon arrival, the HRO noted deficiencies in processes and procedures. Basic data such as
arrivals and departures, pending personnel actions, and staffing statistics were not tracked nor
readily accessible. Additionally, the mission was behind schedule in implementing the
Department’s ePerformance system. These deficiencies decreased productivity and the staff’s
ability to provide good customer service and to meet management’s needs for timely and
accurate data, reports, and analyses. In one effort to correct these deficiencies, the HRO and LE
staff worked collaboratively to rationalize the HR employees’ portfolios, which is already
benefiting both the HR staff and customers. The section is implementing new databases and
tracking systems, and there is a renewed emphasis on customer service. In spite of occasional
frustration with timeliness, the HR staff at the consulates general is pleased with the support it
receives from New Delhi.

        HR operations at the consulates general are uneven and, with the exception of Consulate
General Chennai, OIG and ICASS survey scores reflect this assessment. Management officers
and LE staff carry out HR duties at the consulates general, but there is no assurance that the
management officers have HR experience, and the proficiency of the LE staff in the HR units
varies. The current management officer at Consulate General Mumbai found an HR function that
had been neglected for 2 years. To improve operations, the Department assigned professional
associates to Consulates General Mumbai and Chennai to assist the management officers in
performing HR functions. These professional associates have no supervisory roles; the LE staff
reports directly to the management officer. The results of this approach are mixed, in large part
because the Professional Associates program does not ensure that participants receive adequate
training in their designated areas of specialization. Further, there is no assurance that the
Department will continue to assign these positions to the consulates general following the
incumbents’ departure.

        The mission has repeatedly asked the Department to create direct-hire HR/financial
management positions for Consulates General Mumbai and Chennai. However, the bureau,
following its policy of centralization and consolidation of management support functions, denied
the requests. The HRO and deputy HRO plan to make additional visits to the consulates general
to assess HR operations and determine the training needs of the LE staff. The HR unit at
Consulate General Hyderabad is most in need of assistance due to the newness of the post and
the inexperience of the LE staff in the HR unit. The Hyderabad HR staff expressed appreciation
for the assistance provided by their colleagues in Chennai. In January 2011, the embassy initiated
mission-wide DVCs for HR staff that the consulates general find helpful. Additionally, the


                                          54
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

consulates general benefit from bimonthly management DVCs and quarterly visits by the
management counselor and staff.

        Regarding personnel management for U.S. direct-hire employees, HR staff mission-wide
noted that employees do not always submit work requirements statements and evaluation reports
within mandated time frames. HR staff at the embassy and consulates general track submissions
and send reminders to delinquent supervisors, sometimes repeatedly. In Chennai, the consul
general reviews the list of delinquencies and sometimes contacts employees directly. HR staff
attributed this deficiency in part to the large number of ELOs and first-time supervisors
throughout the mission. These employees often do not understand the importance and
requirements of performance management and the responsibilities of each supervisor and
employee. Last year, the embassy provided training on performance management, and during the
inspection the DCM scheduled a brown bag lunch on how to write employee evaluation reports.

        HR sections mission-wide were not consistently following Department and Office of
Personnel Management policy regarding the payment of overtime and accrual of compensatory
time. Some supervisors are uncertain of the guidance outlined in 3 FAM 3133 “Overtime.” The
HR staff has provided copies of these regulations to offices upon request; however, the embassy
could take a more proactive approach by disseminating the information mission-wide rather than
on demand.

       Informal Recommendation 21: Embassy New Delhi should disseminate mission-wide
       guidance on the payment of overtime and accrual of compensatory time.

        The OIG team interviewed one officer who had served in a high-stress/high-threat post
but had received neither the mandatory outbrief in Washington nor an outbrief given at post by
the regional psychiatrist. The supervisor of this officer was unaware of the FSI online course on
working with returnees from high-stress posts. The DCM and principal officers should take the
lead in this effort to encourage supervisors to attend training.

Recommendation 45: Embassy New Delhi should identify all mission employees who have
recently served at high-threat/high-stress posts and have not had the required outbrief and direct
them to take it at post; for those for whom it is optional, they should be encouraged to do so.
(Action: Embassy New Delhi)

       Informal Recommendation 22: Embassy New Delhi should encourage supervisors of
       those employees in Mission India who have recently served in high-threat/high-stress
       posts to take the Foreign Service Institute’s online seminar on working with returnees
       from high-stress posts.

Professional Associates

        As noted above and in the EEST and political affairs section of this report, the mission
employs several professional associates to supplement its U.S. direct-hire staff. The Department
established the Professional Associates program in 2008 and expanded it in 2010 with the
purpose of employing EFMs to provide them with professional opportunities and to meet bureau
and post staffing priorities. The bureaus hire applicants and match them with available positions
based on their qualifications and experience. Participants are expected to develop expertise in a
                                           55
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

functional area. While professional associates are a valuable mission asset, many are not used to
the maximum extent to meet the mission’s needs or to further their professional development. In
some cases, professional associates function as officers; in others, it is difficult to distinguish
their roles and responsibilities from those of EFMs hired outside the Professional Associates
program.

           Some professional associates have little or no prior Department experience, and the
quality of their supervision and mentoring varies. The extent of their responsibilities also varies.
Some do not have the opportunity to supervise LE staff, while others manage their own units and
staff. In some offices, professional associates perform as administrative assistants or are
underemployed.

          A major impediment to optimizing the contributions of professional associates is the
lack of training requirements, and suggested or desired training sometimes comes at personal
expense. Distance learning courses are not sufficient in all cases. While there is no cost for FSI
courses, the Department does not pay per diem, and the employee must take training during
home leave, rest and recuperation, or personal travel. The Department acknowledges that these
options may not be feasible for many individuals. Professional associates who have not yet
traveled to post to begin employment do not receive salary for time spent in training. Although it
is understandable that the Department wants to allocate shrinking training funds to permanent
employees, this policy comes at the expense of equipping professional associates to perform as
effectively as possible. The Department may want to explore alternatives to the current policy.

Locally Employed Staff

       The LE staff wage freeze that the Department imposed in January 2011 is, as expected,
the overarching concern of the approximately 1,800 LE staff throughout the mission. The freeze,
which applies to 2011 and 2012 salaries, resulted from a Presidential initiative announced in
November 2010. The freeze affected an LE staff wage increase that would have taken effect in
January 2011. The raise would have ranged from 7 to 9 percent, depending on grade level. While
discouraged, LE staff members remain committed to serving the U.S. Government, and they are
heartened by the mission’s efforts on their behalf. The Ambassador sent a cable to the
Department on January 31, 2011, requesting an exemption from the freeze. As of mid-March, the
embassy had not received a response from the Department. Additionally, the Ambassador sent a
message to the LE staff and held a DVC with LE staff associations. In the meantime, the
embassy is reviewing the employee benefits package to determine if it can be expanded. For
instance, the embassy is seeking Department approval to renegotiate the LE staff health
insurance plan. The mission would like to add some supplemental benefits that the LE staff can
purchase at affordable rates and at no cost to the U.S. Government. LE staff representatives will
serve on the technical evaluation panel for the resolicitation.

         Although the wage freeze is affecting morale, its effect on retention and recruitment
remains to be seen. While LE staff members find their salaries lagging behind those of the
private sector, they acknowledge that employment with the U.S. Government offers intangible
benefits not found elsewhere, such as a regular work week and a generous holiday schedule. In
2010, the mission’s attrition rate was approximately 5 percent overall and less than 3 percent for
those resigning for other employment opportunities. These figures are consistent with worldwide
statistics. Most attrition occurs at grades 4 through 6 and 10 through 12. However, the consulates
                                                   56
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

general – especially Mumbai and Hyderabad – report that recruitment for workers in skilled
trades and technical specialists is an increasing challenge, in large part due to competition from
multinational firms and big businesses that are expanding in India’s booming economy. For
example, Hyderabad is the center of India’s burgeoning high-tech industry and mission managers
stated that it is difficult to recruit highly qualified IM specialists.

         In communicating issues and concerns to mission management, the LE staff might
benefit from speaking with a collective voice. Currently, there are seven LE staff associations
throughout the mission. Each consulate general has an association. In New Delhi, the
Department and USAID each have an association and, as a vestige of the former U.S.
Information Service, the embassy’s PAS has its own association. These associations function as
a loose confederation, with the New Delhi associations dominating. Association officers at the
consulates general question whether the concerns of their constituencies are transmitted to
embassy officials by the New Delhi representatives. To speak with one voice and raise regional
concerns that may be overlooked, the OIG team suggested that the associations initiate mission-
wide DVCs among themselves. Management officers at the posts agreed to facilitate these
efforts.

     LE staff associations exist at each of the constituent posts in India but, while they have
common interests and issues, they do not communicate with one another.

       Informal Recommendation 23: Embassy New Delhi should direct the locally employed
       staff associations to conduct digital video conferences to improve communications and
       facilitate synthesis of common issues to discuss with management.

Mission-Wide Training Strategy and Program

        Several recommendations throughout this report indicate the need for formal and
informal training for the mission’s U.S. direct-hire and LE staff. In some cases, ELOs need to
strengthen technical abilities, and in other cases, such as that in Hyderabad, the inexperienced LE
staff needs to improve basic skills and familiarity with Department-wide practices. There is a
perennial need for training in leadership and supervisory skills.

       Training is available through various means, including formal courses in Washington, at
the embassy, or at regional centers such as Bangkok or Frankfurt. Employees who have taken
advantage of these opportunities stated that they are valuable. Additionally, the expanding
catalogue of FSI’s distance learning courses is available to all employees, and instructors from
FSI can travel more frequently to posts. On-the-job instruction and mentoring are also important
elements of a comprehensive program. LE staff members at the consulates general reported that
they especially value assistance received from their LE colleagues from other posts.

        While individual development plans for each employee are required, the reality is that
funds and other resources for training are limited and that development plans are often no more
than wish lists. Some sections, such as consular affairs, have different sources of funding, as
does the PAS, and thus have more scope to fund training. A strategy and plan is necessary to
identify priorities mission-wide and to determine the sources of instruction and costs to achieve
training objectives via the most cost-effective option. The consular section’s training tracking

                                           57
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

system, described earlier in this report, is a good tool that can be adopted mission-wide to
facilitate this effort.

Recommendation 46: Embassy New Delhi should implement a mission-wide training program
based on priorities and a determination of the most cost-effective options available. (Action:
Embassy New Delhi)

General Services Office Operations

        GSO operations in India provide a broad range of essential services in the context of a
weak infrastructure and a difficult operating environment. The recent rapid increase in mission
staff and families further complicates this task, as this growth has outpaced increases in ICASS
support staff and their ability to provide the required levels of service. Thus, after years of
lagging, the overall GSO operation is adequately staffed, with a mix of U.S. direct-hire and EFM
employees to provide the full range of support services for the large embassy community. A
cadre of competent LE staff in first-line supervisory positions supports the American staff and
provides both continuity and experience. Further mission growth, however, could diminish the
unit’s ability to meet customer service standards.

        Despite the difficult operating environment in New Delhi, the GSO earned relatively
positive marks in recent ICASS Service Center and OIG customer satisfaction evaluations.
OIG’s survey rated overall management of GSO operations and most individual subunits
somewhat above the average ratings for other posts. Exceptions included travel services, which
ranked slightly below average, and the housing program, which rated considerably lower than
the aggregate scores for the other recently inspected embassies. The 2011 ICASS customer
satisfaction survey scores reflected a similar pattern, with most of the GSO operations ranking at
or slightly above the bureau and worldwide averages.

        Consulate General Mumbai’s GSO section is quite different in its composition and
customer survey outcomes. The difficult operating environment in Mumbai and the pending
relocation to the new consulate compound require a solid general services operation, but
understaffing in terms of number and experience of American officers has been and will be a
hindrance. Two U.S. direct-hire general services officer positions are authorized for Mumbai: an
FS-03 general services officer and an FS-04 assistant general services officer. At the time of this
inspection, however, only the FS-04 position was occupied by a first-tour officer, who also was
serving as the facilities manager during a 2-year gap in that position. The FS-03 position was not
only vacant but was not included on the current open assignments list.

        Although the FS-04 officer is enthusiastic and willing to tackle difficult tasks, expecting
him to manage the workload of three officers is unfair to both the officer and the consulate
general. While the 2011 ICASS customer satisfaction survey results for many GSO functions
were at or above average, the OIG survey score for overall management of GSO operations
indicates that the mission community is not satisfied with the quality of support. The FS-03
officer is needed to assist in the delivery of GSO services, as well as to ensure that the ELO
receives appropriate mentoring and professional guidance from an experienced officer.

Recommendation 47: The Bureau of South and Central Asian Affairs, in coordination with the
Bureau of Human Resources and Embassy New Delhi, should assign an experienced general
                                           58
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

services officer to the vacant FS-03 general services officer position at Consulate General
Mumbai. (Action: SCA, in coordination with DGHR and Embassy New Delhi)

        The official population of Consulate General Chennai is much smaller than that of
Mumbai, but GSO staffing is more robust. It consists of three American personnel, including two
competent entry-level general services officers and a professional associate. Furthermore, the
management officer has some experience in general services operations and is thus capable of
offering appropriate oversight to the relatively inexperienced staff. The GSO serves the consulate
community well, as reflected in above-average OIG survey scores. The 2011 ICASS customer
satisfaction survey results further demonstrate a high degree of satisfaction with GSO services in
Chennai.

        The GSO at Consulate General Hyderabad faces the same difficult operational conditions
as other Indian posts, but additional challenges are unique to this consulate general. The pressure
to open the consulate general precluded establishment of a fully functional administrative
platform. Many key LE positions in general services were not filled until early FY 2011,
including positions in housing, property management, and travel, and those new hires are still
learning how to perform their duties. With such limited numbers and experience, the GSO has
fallen short in both the imposition of management controls and in meeting the needs and
expectations of customers. The 2011 ICASS customer satisfaction survey ranks Hyderabad
general services operations somewhat below the averages for other posts in India. However, the
OIG survey scores and comments reflect a greater dissatisfaction with overall general services
support, as well as for most of the GSO subfunctions.

        General services operations at Consulate General Kolkata are generally satisfactory, but a
number of deficiencies require remediation. With a newly established general services officer
position now filled and a relatively strong LE staff team in place, the consulate general can focus
more intently on automation, process management, and management controls. Consulate General
Kolkata has been a late adopter of WebPASS applications, and only within the past year has
begun using the vehicle registration and management, receiving, and nonexpendable supplies
modules. It also has not begun to use the Department’s eServices system for standardized and
mandated application for submitting administrative requests. These programs not only automate
and enforce discipline on processes, but they also enhance internal controls. The OIG team made
a broader recommendation under management controls that requires implementation of
eServices.

Housing

        Housing in India is both the mission’s greatest challenge and its primary source of
discontent. Some unhappiness relates to disparities in the convenience, quality, and amenities
between U.S. Government-owned residences and short-term leased units. As embassy staff has
grown, demand for the much preferred government-owned housing far exceeds the supply.
Leasing residences entails a process that is often complicated by rapidly rising lease costs, poor-
quality construction, uncooperative landlords, and intense competition for the limited pool of
housing within reasonable distance of workplaces.

        While many staff members are perfectly happy with their assigned housing, others do not
regard their housing as adequate. OIG survey results for suitability of housing in New Delhi,
                                                59
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

where approximately one-third of the over 300 residences are government owned, were well
below the average of recent OIG inspections, as were the scores for equity and administration of
the housing program. Narrative comments criticized the quality of leased housing, which they
described as dirty, noisy, and plagued by water leaks and resulting mold. Some respondents
believed that discrimination occurs in housing assignments based on personal rank and agency
affiliation.

         Government-owned units are clustered in compounds in relative close proximity to the
embassy and school. They generally provide better security, infrastructure, and amenities,
including recreation and off-street parking. The facilities management staff performs all
maintenance, and OBO funds improvements and upgrades to the units. Although some staff
members prefer to live in leased units, many experience problems with parking, noise, unsanitary
surroundings, and municipal services. Leased units can lack safety features such as secondary
egress and fire detection systems. Some landlords are willing to make necessary upgrades and
fulfill their contractual obligations for major maintenance and repairs, but many are reluctant to
do so.

        Embassy management recognizes the need to upgrade the housing pool, but finding
affordable, quality housing is becoming increasingly difficult. Lease costs have been rising
rapidly in recent years, with total country outlays for FY 2010 amounting to $8.36 million, up
from the $7.55 million for FY 2009. All leases in New Delhi now exceed the annual cost
threshold of $25,000 that requires OBO approval, with most in the $40,000-$90,000 range. A
few exceed $100,000. Embassy New Delhi participates in the Rental Benchmark Initiative
program, under which the longtime threshold was replaced with a new set of price ceilings for
the various categories of housing. An upcoming review will likely increase its ceilings to reflect
recent inflationary market trends.

        The OIG team noted a discrepancy in the management of 13 U.S. Government-owned
residential properties in New Delhi. The property numbers of the residences are: R13041, R6030,
R7031 (A&B), R5029 (A&B), R10036 (A&B), R12040, R9033, R9034, R11037, and R11038.
According to its housing handbook, the embassy assigns “unofficially dedicated housing to the
heads of the political, economic, public affairs, management, regional security, and consular
sections as well, although these homes are not guaranteed by FAM regulation.” In practice,
assignment to the oversized residences circumvented the interagency housing board and, while
assignment to the homes was not guaranteed, the OIG team found no one who could remember
an exception to their treatment as dedicated housing. According to embassy files, the last agenda
that notes an assignment to one of the residences dates back to June 2007. The embassy is
treating the 13 properties as dedicated housing contrary to 15 FAM 235.3. Furthermore, the
embassy does not appear to consider the 15 FAM 264.1 guidelines for determining residential
space authorization in placing employees in these properties.

Recommendation 48: Embassy New Delhi should cease treating properties R13041, R6030,
R7031 (A&B), R5029 (A&B), R10036 (A&B), R12040, R9033, R9034, R11037, and R11038 as
dedicated housing and bring their management into compliance with Department of State
regulations. (Action: Embassy New Delhi)

      The housing markets at the constituent posts are also challenging, but with some
fundamental differences. In Mumbai, the economic expansion has fueled an ongoing and
                                              60
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

dramatic escalation in the cost of residential leases. Prices for modest, standard units approach
$100,000 per year, and prices for larger units are closer to $150,000. Management has gradually
shifted the location of most housing from the older suburbs in south Mumbai to the areas near
the new consulate compound and American school. This move reduces the commute to work and
school for consulate personnel, and presents an opportunity to upgrade the quality of the housing
pool as many new apartment buildings are being constructed in the northern suburbs. At the
present time, however, the consulate staff are not satisfied with neither the quality of housing nor
the equity of the assignment process, as indicated by the lower than average scores on the 2011
ICASS customer satisfaction and the OIG surveys.

        The OIG team also noted another potential housing issue in Mumbai. The new consulate
compound contains a residence for the consul general, but the representational space appears too
small to accommodate social gatherings of any appreciable size. Although the current project is
too near completion to modify the structure, the OIG team will address in a memorandum report
the need for future OBO residential construction projects to include adequate representational
space for principal officers to entertain.

        Housing for the consulate community in Hyderabad is also a contentious issue, as OIG
survey respondents gave very low scores for the overall quality of the housing program and the
equity of the assignment process. Consulate management is responding to staff concerns by
dropping less desirable units in favor of newer ones, but an unfortunate result of this transition
process was the need to place some new employees in temporary housing for several months
before their permanent units were available for occupancy.

         Consulates General Chennai and Kolkata enjoy a greater level of customer satisfaction
with their housing programs. The composite OIG survey scores are on par with or higher than
the average of other posts for both overall quality and equity in assignment. A likely explanation
is that the U.S. Government owns about half of the inventory, so a larger proportion of consulate
staff is housed in these units. While leased apartments provide adequate housing, the
government-owned units are typically larger and include amenities. The greater proportion of
government-owned housing is also cost beneficial to the U.S. Government. Although lease costs
in Chennai are not as high as elsewhere in India, they are still high enough to warrant including
Chennai in OBO’s Rental Benchmark Initiative program.

        There is a strong case for constructing or leasing on a long-term basis more quality
housing in New Delhi, Mumbai, and Hyderabad, given increasingly high lease costs, the
fundamental advantages of U.S. Government-owned and long-term leased housing, and the
importance of quality housing for mission morale. The upfront expenses would be significant,
but the investment likely would be recouped within a reasonable period through lease cost
savings. Careful management of existing real estate assets in India also could generate revenues
to offset costs. Furthermore, it would have a positive impact on mission morale, as well as
recruiting and retention. Mission management reacted favorably to this concept.

Recommendation 49: The Bureau of Overseas Buildings Operations, in coordination with
Embassy New Delhi, should construct on U.S. Government-owned property or lease on a long-
term basis additional housing units in New Delhi, Mumbai, and Hyderabad. (Action: OBO, in
coordination with Embassy New Delhi)

                                           61
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       As mentioned above, responses to OIG surveys indicated strong perceptions of inequity
and favoritism in housing board deliberations and decisions. Examination of procedures and
documentation indicates general compliance with Department regulations. One exception is the
embassy’s treatment of what it considers “unofficially dedicated” residences, which have not
appeared on housing board agendas since June 2007. During the OIG inspection, the DCM
conducted a DVC that addressed the housing assignment appeal process. Additional outreach
and transparency could further improve customer satisfaction with housing and its processes.

       Informal Recommendation 24: Embassy New Delhi should improve transparency of its
       housing assignments by outreach and dissemination of information on policies,
       procedures, and, as appropriate, housing board meeting agendas, deliberations, and
       decisions.

Motor Pool Operations

        Mission motor pools support a large staff and a substantial number of temporary duty and
VIP visitors, and provide reliable and safe transportation in the heavy and hazardous traffic
typical of the large cities in India. Mission employees who responded to the OIG survey rated as
very high motor pool responsiveness and vehicle maintenance. The 2011 ICASS customer
satisfaction survey reflected similar results, with scores for the embassy and consulates general
well above the bureau and worldwide averages.

         The embassy and consulates general have established effective management controls over
operation and use of official vehicles. These controls include compliance with Department
regulations for seat belt usage, trip logs, and driver scheduling, as well as oversight of fuel
supplies and consumption. The embassy recently updated its mission-wide policy on official
vehicle use, which is now more restrictive regarding home-to-office transportation. Under this
new policy, senior mission personnel such as the DCM and agency heads are no longer eligible
for this service.

        At Consulate General Kolkata, a spot check of six vehicle identification numbers against
the post’s Integrated Logistics Management System (ILMS) inventory showed one discrepancy.
A 100 percent verification of all data in the ILMS inventory would address this specific area of
concern.

       Informal Recommendation 25: Embassy New Delhi should direct Consulate General
       Kolkata to conduct a 100 percent verification of data submitted to its Integrated Logistics
       Management System vehicle inventory.

Travel Services

        The embassy and consulates general provide hotel and airline travel reservation services
for mission personnel and temporary duty visitors. Although some staff members throughout the
mission expressed concerns about costs, quality, and timeliness, travel services for all posts
except Hyderabad rated at or above the average OIG survey scores for posts previously
inspected. The FY 2011 ICASS customer satisfaction survey results were also respectable, with
scores for all locations throughout the mission at or above the worldwide and bureau averages.
American and LE travel assistants oversee the performance of on-site travel agency contractors,
                                          62
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

maintain control over premium air travel, and assist travelers with the E2 Solutions travel
system. HMG Sita is the travel contractor for the embassy and all consulates general except
Chennai, which has a separate contract with a local company. USAID in New Delhi has a
separate agreement with HMG Sita, which maintains a travel office in the USAID building.

Procurement

        Of all the subfunctions within the GSO operation, contracting and procurement is the
most complex, requiring a thorough understanding of applicable laws and regulations.
Procurement operations are vulnerable to error and malfeasance, and there have been recent
examples of both within the mission. There have also been some incidents of unauthorized
commitments at New Delhi and Hyderabad. In fact, the extent of the problem in Hyderabad
required special mention as a material weakness in the 2010 Chief of Mission Annual
Management Control Statement of Assurance. Management has focused on improving the
performance and internal controls in procurement operations, and the recent ICASS and OIG
survey results indicate a relatively positive degree of customer satisfaction with procurement
service at all locations except Kolkata and Hyderabad. However, the need remains for constant
GSO oversight, as well as for upgrading the capabilities of LE procurement staff.

        The OIG team also discovered errors in several procurement files at Consulate General
Kolkata. A purchase order for services charged at over $13,000 had not been competed based on
verbal guidance from the ordering office that the vendor’s prior performance did not warrant
competition. Contract files did not contain documentation that showed how the contracting
officer determined award. The contracting officer did not properly designate contracting officer
representatives. Contract files were disorganized. The procurement unit also was using, at the
behest of the budget and fiscal unit, a form of purchase order for goods and services that clearly
would best be acquired using a blanket purchase agreement.

Recommendation 50: Embassy New Delhi should direct Consulate General Kolkata to
implement a plan to review procurements for proper competition, bid evaluation, and contract
administration. (Action: Embassy New Delhi)

        The OIG team also noted that Consulate General Kolkata had only one purchase card
holder, which placed the burden of all of the acquisitions using that method on the procurement
unit. The consulate general should expand the purchase card program to other sections, such as
the public diplomacy section. This expansion would reduce the workload of the procurement
section, empower other sections to make their own purchases, and speed up the procurement
process.

       Informal Recommendation 26: Embassy New Delhi should direct Consulate General
       Kolkata to expand its purchase card program to other sections.

Property Management

        Mission customers were generally pleased with overall quality of supply and property
management. On the OIG survey, the embassy and all consulates general were at or above
average for both the adequacy of expendable supplies; only Hyderabad ranked below average for
suitability of household furnishings. The FY 2011 ICASS customer satisfaction survey scores for
                                           63
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

administrative supply and nonexpendable property management were on par with bureau and
worldwide averages for the embassy and all consulates general except Mumbai and Hyderabad
were low ranked for the quality of furniture, furnishings, and appliances.

         A capable EFM employee, supported by 45 LE staff, directs the property management
operation at Embassy New Delhi. The embassy’s FY 2011 Property Management Report shows
a total inventory value for nonexpendable property of $23.79 million and a total inventory value
of $2.18 million in expendable property. Shortages and overages in both property categories fell
well below the threshold requiring further explanation.

        The existing warehouse facilities on the embassy compound meet the safety, security, and
operational standards set forth in 14 FAM 413.7, but a new office building with warehouse space
is to be completed by 2012. Warehouse facilities in the consulates general were generally
adequate, although Hyderabad stored its nonexpendable property in an office building that
lacked shelving and other standard features of a warehouse. The Mumbai new consulate
compound includes a large and well-equipped warehouse. Consulate General Kolkata has made
great progress in weeding out its inventory, disposing of unserviceable and unneeded property,
and making best use of limited warehousing space on the consulate compound. A spot check of
expendable supplies yielded very positive results, as did a check of residential property
inventories, all of which the occupants had signed. The new general services officer expressed
her commitment to exercising more management controls measures in the area of property
management.

Customs and Shipping

        With the continued expansion of mission staff and the scope of operations, the customs
and shipping units in the embassy and consulates general are processing more incoming and
outgoing shipments than ever before. Despite the increasing demands, customer evaluations of
the service reflect a high degree of satisfaction. The FY 2011 ICASS customer satisfaction
survey scores for the embassy and all four consulates general were equal to or greater than the
bureau and worldwide averages. OIG survey scores were also above average for the embassy and
all consulates general except Hyderabad.

        Customs and shipping in Embassy New Delhi is under the direction of an assistant
general services officer who supervises an LE staff of 15. Three LE staff in Mumbai, five in
Chennai, and two in Kolkata handle all of the official and personal shipments transiting those
ports, including those destined for New Delhi and Hyderabad. There are no significant problems
with either the port facilities or the local bureaucracies, and thus there is minimal delay in
shipping and customs clearance for official and personal cargo. However, the Government of
India is becoming less flexible in enforcement of import regulations and procedures.
Furthermore, the Indian Government has recently enacted standards that essentially prevent U.S.
diplomats from importing American-made automobiles that are left-hand drive and do not meet
European emission standards.

Facilities Management

       Construction of new consulate compounds is under way or planned in India. The new
consulate compound in Mumbai was scheduled originally to open in March 2008. As of the OIG
                                          64
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

inspection, it still was not open and the projected completion date had slipped yet again to
September 2011. Given the numerous and lengthy delays of this project, the OIG team viewed
with great concern the future of the new consulate compound in Monterrey, Mexico, which the
same contractor will construct.

       Consulate General Mumbai has also been working to resolve issues related to taxes
assessed against various U.S. Government-owned residential and nonresidential properties. The
consulate general requested information from the Department in July 2010 for use in resolving
some of the remaining issues, but it received only a preliminary response in August 2010.
Consulate General Mumbai believes that the information could help break the logjam that
prevents resolution of the tax issues.

Recommendation 51: The Office of Foreign Missions should assist in the resolution of
Consulate General Mumbai’s tax issues by responding to the telegraphic request for information
contained in Mumbai 00220, dated July 27, 2010. (Action: OFM)

        Consulate General Hyderabad opened to the public in March 2009, operating from
offices located in the former Paigah Palace. Physical security deficiencies preclude the use of
two annex buildings located at the rear of the compound for anything other than property storage
or intermittent occupancy. The initial lease term is 5 years, with an option for another 4 years
and 9 months. There are indications that the state government may be reluctant to grant further
extension of the lease beyond 2017. OBO completed an $11 million renovation of the ground
floor in early 2009, and is planning further rehabilitation of the vacant second floor to
accommodate consular section expansion and provide additional office space.

        Given the limited operational space and the inherent security vulnerabilities of the Paigah
Palace compound, the Department included a new consulate compound for Hyderabad on the
Department’s list of the Top 80 construction projects, ranked according to security
considerations. The U.S. Government and the Andhra Pradesh state government identified an
appropriate site for the new consulate compound in a developing suburban area, and signed a
memorandum of understanding for rights to this property. However, the Hyderabad new
consulate compound project was not included in the most recent revision of the Top 80 project
lists. Nevertheless, OBO is still proceeding with negotiations to acquire the property. Mission
management regards this acquisition as an important step forward that could reestablish the
Hyderabad new consulate compound on the list of priority projects. In view of the security and
operational limitations of the current compound, as well as the uncertainty over extending the
lease beyond 2017, the OIG team concurs with the acquisition of this property, and recommends
that the Hyderabad new consulate compound be reinstated on the construction project priority
list.

Recommendation 52: The Bureau of Overseas Buildings Operations should effect the lease of
the property identified in the memorandum of understanding between the U.S. Government and
the Andhra Pradesh state government as the site for the new consulate compound in Hyderabad.
(Action: OBO)

        On a more basic level, the facilities management unit in New Delhi provides adequate
levels of service to its customers, as evidenced by ICASS customer service and OIG
questionnaire results that in large part meet or exceed regional and worldwide averages. Its large
                                                   65
                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

staff, consisting of three U.S. direct-hire managers and almost 390 LE staff members, including
11 engineers, allows commitment of substantial labor to almost any task. At the same time,
however, having available such a large work force can discourage adopting automation and has
led to undertaking projects without OBO approval. As a result, the embassy has not implemented
the component of the Department-standard eServices that deals with maintenance work requests.
Instead, it takes requests via telephone, email, or paper. Moreover, work order clerks do not enter
disapproved requests into the WebPASS Work Orders for Windows application, which deprives
management of useful information. Use of eServices would automatically correct this data entry
error.

Recommendation 53: Embassy New Delhi should implement eServices as the means for
submitting work requests to the facilities management unit. (Action: Embassy New Delhi)

       The OIG inspector found 6,125 Work Orders for Windows records in “Approved” status.
According to the work order clerk, many had been completed. The clerk needs to review the
records in that category and dispose of them as appropriate.

        Informal Recommendation 27: Embassy New Delhi should review and update records
        in Work Orders for Windows to reflect accurately the status of each one.

        Embassy New Delhi constructed a second story on an existing building in 2005, property
x01021, without review and approval by OBO. It is now performing additional construction on
the second story, again without the review and approval of OBO and contrary to the
requirements of 15 FAM 641 a. This construction has become a contentious issue between the
embassy and OBO, which is aware of its existence but does not recognize it as a legitimate
structure. The OIG team noted the need to review the design and plans, even if retroactively, to
ensure the building meets appropriate construction codes and is safe to use for its intended
purpose. It would also serve to legitimize the additional space, thereby making it eligible for
OBO funding and approved for use beyond its currently intended purpose of swing space
pending completion of the new office annex. A similar case exists in Kolkata, where the
consulate general undertook on its own to reconfigure a government-owned apartment,
apartment 1a in property 9999, reducing the living space and creating an area for community
recreation use. The consulate general did not request OBO review of the project. The residual
apartment space is now deemed inadequate in terms of size and the significantly reduced amount
of direct light that is allowed in. However, OBO’s perspective is that the property exists as it was
prior to renovation, so returning the apartment to its original configuration is problematic.

Recommendation 54: Embassy New Delhi should submit to the Bureau of Overseas Buildings
Operations the necessary designs and plans for the second-floor construction of property number
x01021 in New Delhi and apartment 1a of number 9999 in Kolkata for review and approval.
(Action: Embassy New Delhi)

        Both OIG and OBO performed audits in 2010 of Embassy New Delhi’s OBO funding.
The OIG audit1 was conducted as part of a worldwide examination and was limited to the 7901
regular maintenance and repair account. The OBO audit addressed the full range of OBO

1
 OIG Report No. AUD/FM-10-30, Audit of Maintenance and Improvements of Overseas Real Property - September
2010.
                                            66
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

funding and sought to determine if Embassy New Delhi maintains auditable records, charges the
funding appropriately, and deobligates unneeded funds and returns them in a timely manner.
Both audits yielded generally positive results. The OBO audit, however, noted some exceptions
to the general compliance. The embassy financial management unit responded completely and in
detail to each finding, reduced significantly the unliquidated obligations in each account, and set
up appropriate mechanisms to review obligations on a quarterly basis.

         The consulates general receive considerable advice and guidance from the embassy
facilities management staff, both remotely as well as through frequent visits. This support is vital
because the only consulate general with a U.S. direct-hire facilities manager is Mumbai, and that
position has been vacant for some time. Oversight of facilities management therefore defaults to
the general services officer in each consulate general, but none of them has the training or
experience of a professional facilities manager. Moreover, competing demands for their time
mean that they are unable to carry out some important facilities management responsibilities,
such as the Safety, Health, and Environmental Management (SHEM) program. Talented and
dedicated LE staff provides facilities maintenance services to the consulates general, but the lack
of American supervision has a direct bearing upon the degree of customer satisfaction. This was
evident in Mumbai and Hyderabad, consulates general with one general services officer whose
portfolio included facilities maintenance, and where customer satisfaction was below average on
both the ICASS and OIG surveys.

Safety, Health, and Environmental Management

        Components of the SHEM program throughout the mission continue to function, but
management emphasis and attention have languished. Facilities management units at each post
generally observe shop safety rules, most post occupational safety and health officers are
conducting residential inspections prior to leasing, and Smith System driver safety program
trainers are present and active at all but one post. Mandatory committees, however, are not
formalized and do not meet, which indicates lack of interest and/or priority by posts’
management. OBO’s Fire Protection Division conducted fire and life safety inspections of all
Indian posts in January 2011,\ and issued its reports in March 2011. OBO’s SHEM division
postponed its inspection and assistance visits, originally scheduled to begin in March 2011, due
to continuing resolution budget problems. Eventually coupled with the recent fire and life safety
inspection results, the reports should provide the impetus and sufficient guidance for posts to
resurrect its SHEM program to comply with 15 FAM 960 requirements.

Recommendation 55: Embassy New Delhi should implement a plan to comply with Safety,
Health, and Environmental Management program requirements. (Action: Embassy New Delhi)

Information Management and Information Security

       Embassy New Delhi’s IM program is adequately meeting the information technology
needs of all its customers in New Delhi and at the consulates general. The programs include the
management of classified and unclassified computer systems, telephone and switchboard
services, radio management, classified and unclassified diplomatic pouch, and mail room
operations. The OIG inspectors reviewed these operations and found adherence with the
Department’s policies and guidelines with few exceptions. The inspection revealed a well-
managed organization that scored above average on both the ICASS and OIG surveys. The
                                                 67
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

OIG’s workplace and quality-of-life and personal questionnaire results showed that the lack of a
Diplomatic Post Office is problematic and negatively affects mission morale.

        Embassy New Delhi’s information management officer (IMO) oversees all embassy IM
systems and programs and has operational oversight responsibility for all IM programs mission-
wide. He oversees an office in New Delhi that consists of 10 U.S. direct hires, an EFM, a
professional associate, and 51 LE staff. He has made communication among his staff mission-
wide a top priority, conducting twice-monthly roundtable DVC meetings with the consulates
general. In past the 6 months, he has also consolidated multiple contracts and renegotiated with
local telecommunications providers to increase bandwidths between the embassy and the
consulates general at substantially lower costs.

        The IM program operates two primary data centers. A well-qualified information systems
officer leads the unclassified information systems center in New Delhi. An information programs
officer supervises the information program center, which oversees classified systems, radio,
telephone, secure voice, and mail and diplomatic pouch programs. The IMO, augmented by his
information programs officer and information systems officer, has overall IM responsibilities for
the mission and often provides consultative support to the consulates general. Serving under the
IMO, and responsible for mission-wide systems security, is a regional information systems
security officer based in New Delhi.

        Consulate General Chennai has 2 U.S. direct-hire IM officers and 13 LE staff to manage
the IM functions. Consulate General Hyderabad has 1 American IM officer and 8 LE staff;
Consulate General Kolkata has 1 American IM officer and 7 LE staff; and Consulate General
Mumbai has 2 American IM officers and 11 LE staff. In addition to the regular duties described
above, the IM sections of Embassy New Delhi and the consulates general provide support to a
significant number of high-level visitors. The OIG team deemed staffing levels mission-wide to
be adequate.

       There are three Regional Information Management Center (RIMC) technicians based in
the embassy. Although this RIMC satellite office provides in-country technical support as
requested, it reports to RIMC Bangkok and was therefore not part of the New Delhi inspection.

        The IM staff has not organized the unclassified server room and wiring closets at the
American Center in New Delhi to ensure proper and timely maintenance. The server room
wiring is tangled, and there is cabling that appears to be no longer used. With server room
cabling in disarray, technicians can spend a significant amount of time troubleshooting a
problem.

Recommendation 56: Embassy New Delhi should untangle, identify, and label all required
cabling and remove all extraneous cables in the computer server room and wiring closets at the
American Center in New Delhi. (Action: Embassy New Delhi)

       The American Center LE computer specialists were not cross-trained with their embassy
colleagues at the embassy.




                                          68
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 28: Embassy New Delhi should provide cross-training
       among computer specialists at the American Center and the embassy, including frequent
       rotation of staff between the two facilities.

        Mission India’s high-frequency emergency radio program supports regional long distance
communication operations. The mission manages the program well, and the embassy and
consulates general perform operational tests on a regular basis. While the high-frequency
equipment at the alternate command center in New Delhi meets the embassy’s operational
requirements, the room where the high-frequency radio is located is cluttered, making physical
access to the radio difficult. The high-frequency radio at the alternate command center at
Consulate General Kolkata lacks an antenna, which is on hand but needs to be installed. The
team noted that the information programs officer at Consulate General Kolkata is not a member
of the consulate emergency action committee. In accordance with 5 FAM 121.1 b. (2) (b), the
consulate general should include the information programs officer, as the senior IM
representative, on its emergency action committee.

       Informal Recommendation 29: Embassy New Delhi should clean up the high-frequency
       radio room at its alternate command center.

       Informal Recommendation 30: Embassy New Delhi should install the new high-
       frequency antenna at Consulate General Kolkata’s alternate command center and test the
       radio to ensure functionality.

       Informal Recommendation 31: Embassy New Delhi should require that Consulate
       General Kolkata include the information programs officer as a member of its emergency
       action committee.

Laptop Encryption

        Nine out of the 14 laptop computers at Consulate General Kolkata are unencrypted. The
IM staff has removed the unencrypted laptops from service rather than formally disposing of
them according to Department guidance. Telegram 10 State 057406, dated March 6, 2010,
requires that all laptops be encrypted in order to protect personally identifiable information and
security under Department of State policy unless a waiver is granted.

Recommendation 57: Embassy New Delhi should encrypt, properly dispose of, or seek waivers
for all unencrypted Department of State laptops at Consulate General Kolkata. (Action: Embassy
New Delhi)

Electrical Power Controls

        The computer server room at the American Center in New Delhi has an emergency
power-off switch that is not accessible outside the main door to the computer room, as required
by 12 FAM 529.4-3 b. Since the facility’s construction probably predates the FAM guidance,
there was likely no requirement for the switch to be outside the computer room. Relocation of
the switch to outside the server room enhances the safety of life and property in the event of a
fire.

                                           69
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

    Recommendation 58: Embassy New Delhi should relocate the emergency power-off control
    switch at the American Center in New Delhi to the wall outside the server room. (Action:
    Embassy New Delhi)
(b) (5)




    Recommendation 59:(
                         b
                         )
                         (
                         5
                         )
          (b) (5)




    Recommendation 60: (b) (5)




    Telephone Switchboard Operations

            The American Center and embassy in New Delhi have independently operating telephone
    switchboards. Since the American Center telephone switch is connected to the embassy switch
    via local telecommunications, maintaining separate operator switchboards is redundant. The
    staffing of the American Center switchboard is legacy from when the facility came under the
    U.S. Information Service. Combining telephone switchboard operations from the American
    Center and embassy to one location enables the elimination or reprogramming of two ICASS LE
    staff positions.

    Recommendation 61: Embassy New Delhi should close the switchboard operations at the
    American Center in New Delhi and migrate those services to the embassy’s switchboard
    operations center. (Action: Embassy New Delhi)
                                              70
                                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

         The American Center and consulate general in Kolkata operate independent telephone
switchboard centers, also a legacy from the period when the former U.S. Information Service
staffed and managed the American Center. While a telecommunications circuit exists between
the two facilities, it does not support telephone switch interoperability. Reprogramming the
telephone switchboard either through the existing circuit, or if necessary, through an additional
circuit, will enable Consulate General Kolkata to combine switchboard operations and eliminate
or reprogram the corresponding operator positions.

Recommendation 62: Embassy New Delhi should reprogram the telephone switch at the
American Center in Kolkata to permit management of all voice traffic for Consulate General
Kolkata’s telephone operations center. (Action: Embassy New Delhi)

Establishment of a Diplomatic Post Office

        The Bureau of Administration’s Logistics Management Diplomatic Pouch and Mail unit
is anxious to assist in the establishment of a Diplomatic Post Office for Embassy New Delhi and
the consulates general. Lack of such a facility is a quality-of-life and morale issue for mission
employees and families. The OIG team applauds the efforts of the IMO and DCM for their
continuing dialogue with appropriate Government of India and industry officials in the hopes
that host government approval for a Diplomatic Post Office will be forthcoming.

Consulate General Mumbai New Consular Compound

         The new consulate compound under construction for Consulate General Mumbai does
not include a central uninterruptible power supply (UPS). Despite power outages and
fluctuations prevalent in Mumbai, OBO decided not to include a central UPS for the critical
telecommunications and computer network equipment. It is more expensive initially to purchase
a centralized UPS unit and retrofit the building for new and separate wiring circuits for the
critical computer equipment. However, a centralized UPS will pay for itself in 6 years because of
the recurring costs for battery and unit replacement for the individual UPS. At the end of 10
years the OIG team estimates that Consulate General Mumbai battery and UPS replacement cost
for an individual UPS would total approximately $193,200, whereas the total combined cost for a
central, building UPS would be approximately $176,000.

Recommendation 63: The Bureau of Overseas Buildings Operations, in coordination with
Embassy New Delhi, should fund and install a high-capacity central uninterruptible power
supply that is sufficient to provide sustained power protection and failover capabilities for
computer systems at the Mumbai new consulate compound. (Action: OBO, in coordination with
Embassy New Delhi)




                                          71
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Quality of Life
Overseas Schools
       (b)(5)(b)(6)                                     has a long history as an outstanding
learning institution. A master plan for capital construction approved by the board in 2010 should
optimize space utilization on the campus. Currently, there is a relocation project for the
                                                                                           (b)(5)(b)(6)

school classrooms and plans for a new library and media room, plus an arts building. Parents’
concerns focused more on special needs students.

       (b)(5)(b)(6)
                The school’s director was optimistic about resolving the long-standing tax issues
with the Indian Government. The consul general has drafted a memorandum of agreement for the
school with the Maharashtra state government to formalize the status of the school as exempt
from corporate taxes.

       (b)(5)(b)(6)                                      is fully accredited and adequate. The
school is trying to get additional space for classrooms and athletic facilities. Parents were
generally quite satisfied with the school

        The Department does not recommend the (b)(5)(b)(6)

                                                          The consulate general’s efforts to open
and sustain an American school failed, and it closed in May 2010 due to high tuition costs and
insufficient enrollment. In the meantime and as the consulate general weighs its alternatives, the
embassy needs to update bidding information (e.g., Bidding Tool, post report, and post profile)
to inform potential bidders of this deficiency.

        Informal Recommendation 32: Embassy New Delhi should update bidding information
        to inform potential bidders of the lack of adequate schools in Kolkata.

        Responses to the OIG survey indicate serious concerns over the availability of quality
education for dependents of consulate staff in Hyderabad. This affects the morale of the four
families that now have school-aged dependents at the consulate general and could negatively
affect retention and recruitment of American staff. Several schools provide educational programs
to the growing expatriate population in Hyderabad, but the Bureau of Overseas Schools regards
(b)(5)(b)(6)                           as the best choice for consulate dependents (b)(5)(b)(6)

                                                                             There is no formal
agreement between (b)(5)(b)(6)                               and the consulate general regarding
guaranteed admissions, reserved seats on the board, or other special provisions that often
characterize the relationships between overseas schools and U.S. diplomatic missions. In fact,
                                                                                                    (b)(5)(b)(6)




                                    has been indifferent at best to the consulate general’s offers of
assistance, even for grants to enhance the physical security of the campus. Post management is
acting to improve relations with the school and help it to meet the consulate general’s needs. The
management officer made a successful bid to gain membership on the school advisory board, and


                                            72
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

the regional security officer is working with school administrators to guide them through the
soft-target funding process.

Employee Associations

New Delhi American Community Support Association

        The American Community Support Association (ACSA) in New Delhi has a dynamic
board chairperson and is well managed and financially strong, with experienced managers who
have considerable expertise in the hospitality industry. The business manager has a certified
public accountant equivalent. ACSA uses an in-house software program for ordering commissary
stock replenishment, and both the board and management monitor inventory. With annual
revenue exceeding $3 million, the association was able to fund a $980,000 renovation project at
the ACSA restaurant. The primary issue with ACSA is the need to establish better controls on
purchases of alcoholic beverages and tobacco. Although the commissary keeps ration control
cards for each member, the staff does not routinely monitor records and notify individuals who
exceed their quotas. The OIG team reviewed the liquor and tobacco purchase records and found
that more than 20 percent of ACSA customers exceeded their monthly rations.

Recommendation 64: Embassy New Delhi, in coordination with the Bureau of Administration,
should direct the American Community Support Association to monitor and enforce monthly
liquor and tobacco quotas at the embassy commissary. (Action: Embassy New Delhi, in
coordination with A)

Mumbai American Recreation Association

        The Mumbai American Recreation Association (MARA) is operating on a shoestring,
with financial assets amounting to only $400 worth of Indian rupees at the local Bank of
America, and $5,000 in a U.S. dollar account in the State Department credit union. It has a board
of directors, and volunteers from the community help support ongoing MARA operations.
Commissary property assets include 3 refrigerators and freezers, an inventory of 20 cases of
wine, plus some liquor stocks scattered around three locations. There is a fully equipped fitness
center under MARA operation. The new consulate compound has designated space for a
commissary and fitness center, and MARA plans to hire a manager for the commissary after
relocating to the new consulate compound. The OIG team believes it advisable for MARA to
develop a business plan and revised charter defining the scope of the services and commissary
operations prior to the move into the new consulate compound.

       Informal Recommendation 33: Embassy New Delhi should direct the Mumbai
       American Recreation Association to prepare a business plan prior to the move into the
       new consulate compound.

Chennai American Support Association

       The Chennai American Support Association is better organized than the Mumbai
association, with a manager and two employees. Liquor is the primary product sold in the
commissary, but there is also a concessionaire agreement with a vendor to provide locally
available food and snacks for the convenience of members. The association purchases most of its
                                          73
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

liquor from an importer based in Dubai, with a 30 percent mark-up on the goods and shipping.
The OIG team noted that the Chennai American Support Association charter was outdated, just
as the charter of the Mumbai association was outdated, and did not conform with the
requirements of 6 FAM 551.

       Informal Recommendation 34: Embassy New Delhi should direct the Chennai
       American Support Association and the Mumbai American Recreation Association to
       revise their respective charters to reflect actual services provided and to obtain the
       signatures of the principal officer or designee and two board members as required by
       Department of State regulations.

        According to 6 FAM 531.4, sound business practices should govern employee
association operations, but the OIG inspector noted several deficiencies with commissary
operations. The Chennai American Support Association commissary did not have an inventory
available for OIG review because the computer containing the Quick Books program had
crashed, and the accounting and inventory records had not been recovered from the hard drive.
The commissary had no point-of-sale register, so it recorded sales manually and issued no
receipts. Lack of an automated point-of-sale and accounting system hindered effective
management controls by making it difficult to track daily sales and inventory and maintain
records. Furthermore, the commissary staff handled cash loosely and kept it in a container that
was unsuitable for that purpose.

Recommendation 65: Embassy New Delhi should direct the Chennai American Support
Association to install a point-of-sale inventory and accounting system in the commissary.
(Action: Embassy New Delhi)

       The Chennai American Support Association board does not conduct spot checks of
inventory or review and reconcile bank statements on a monthly basis.

       Informal Recommendation 35: Embassy New Delhi should direct the Chennai
       American Support Association at Consulate General Chennai to conduct monthly spot
       checks and review the reconciliation of the monthly bank statement.

        The Chennai American Support Association full-time manager orders and receives
goods, conducts inventories, collects payments, and performs all administrative duties. The
duties of the other part-time employees were not clear except for placing stock on shelves and in
storage.

       Informal Recommendation 36: Embassy New Delhi should direct the Chennai
       American Support Association to separate the duties of its two employees in the
       commissary to ensure adequate separation of duties and proper internal controls.

       Both the MARA and Chennai American Support Association were delinquent in
providing the Office of Commissary and Recreation Affairs with semiannual financial reports
that were due August 15, 2010. Both associations have been unable to obtain necessary financial
statements because there was insufficient information on sales revenue and expenses as well as
delays by the accountant. Guidance in 6 FAM 557 requires association management to submit a
balance sheet and income statement to the Office of Commissary and Recreation Affairs by
                                          74
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

August 15 for the period January 1 through June 30. Without a balance sheet and income
statement, the association has no way of knowing if they are a financially sound organization.
Also, management controls are weakened whenever there is a lapse in submission of essential
financial reports.

Recommendation 66: Embassy New Delhi should direct the Mumbai American Recreation
Association and Chennai American Support Association to submit a balance sheet and income
statement for the period January 1 through June 30, 2010. (Action: Embassy New Delhi)

Consulate General Hyderabad

        Consulate General Hyderabad has no formal or Department-sanctioned American
employee recreational association, and there has been no community liaison office to arrange
leisure activities for consulate staff and families. In the absence of structured programs, an
informal group of consular officers formed to arrange social activities for themselves and the
consulate community. They have raised funds for some of these activities, however, which
suggests that the initial informal group has evolved to a more formal organization. In the interest
of accountability and adherence to Department policies, the informal group should be converted
into an employee association that is recognized and regulated by the Office of Commissary and
Recreation Affairs.

Recommendation 67: Embassy New Delhi, in coordination with the the Bureau of
Administration, should establish a formal American employees association at Consulate General
Hyderabad that could offer recreational and social activities in compliance with Department of
State policies and regulations. (Action: Embassy New Delhi, in coordination with A)

Community Liaison Office

         The community liaison officer (CLO) coordinators and their assistants strive to serve the
diverse demographic groups that comprise the mission. For instance, the large number of ELOs
means that CLO coordinators must be sensitive to the needs of first-tour employees of all ages,
including some who have never before worked overseas and others who joined the Department
for second careers. The CLO coordinators at each post work to ensure there are activities that
appeal to all groups. The DCM and consuls general at each post support and participate in CLO
activities. Consulates General Kolkata and Hyderabad gained approval for new CLO coordinator
positions this year; until recently, they were the only consulates general without U.S. family-
member CLO coordinators.

        CLO activities and outreach at Consulates General Mumbai and Chennai received high
scores on the OIG questionnaire and ICASS surveys. In Mumbai, a “Take Your Child to Work
Day” program for the children of American and LE staff employees was very successful. For
New Delhi, most employees were satisfied with CLO activities; however, the social sponsor and
orientation programs received low scores. The CLO assistant reported difficulty in recruiting
social sponsors. At a post of more than 400 U.S. direct-hire employees, fewer than 10 responded
to a recent call for volunteers. In some cases, sponsors did not show up at the airport to meet
newcomers. The communities at the consulates general, which are much smaller and less
impersonal, are more cohesive and do not have this problem.

                                           75
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Medical Services

        The health environment for employees in India is challenging, punctuated by frequent
respiratory and gastrointestinal illnesses and, in recent years, a few cases of dengue fever. The
quality of health care varies, as does the availability of qualified, Western-trained health care
providers and state-of-the-art facilities. The size, staffing, and accessibility of the mission’s
health care units differ. Employees reported they are satisfied with the health care services
provided in New Delhi and Mumbai. The assignment this year of a Foreign Service health
practitioner to Chennai, the hiring of a new local nurse in Kolkata, and the opening in April 2011
of a small health unit in Hyderabad are welcome and morale-boosting efforts.

        The health unit in New Delhi is fully equipped and well staffed. The staff of 15 includes
physicians, nurses, lab and medical assistants, a pharmacist, and administrative personnel. A
regional medical officer and regional psychiatrist are based here. The regional medical officer
devotes approximately 50 percent of his time to regional visits. The unit has its own lab and lab
technician. The pharmacist is highly regarded throughout the mission and by the Office of
Medical Services. The purchase and distribution of pharmaceuticals to the consulates general are
centralized at the pharmacy, which posts regard as an efficient and cost-effective process. The
technical and administrative staff is well connected to the local medical community, and the unit
sponsors numerous health programs and events for the community

       Mumbai was assigned its first Foreign Service health practitioner in 2008. The unit is
located in a facility that can best be described as a dungeon, but it will inhabit vastly superior
space following the move to the new consulate compound. At Chennai, the small facility could
be used more efficiently if the space was reconfigured to allow more privacy for a compact
examination room. The Foreign Service health practitioner who arrived this year discussed this
with the facilities maintenance staff.

        Mission India places a high priority on the creation of a Foreign Service health
practitioner position to be shared by Kolkata and Hyderabad. In the past, ICASS customer
satisfaction scores for health services at these posts were abysmally low. However, over the past
year significant improvements occurred. Kolkata vastly improved its unit by hiring a new local
nurse and part-time physician and refurbishing and re-equipping its facility. Confidence and trust
appear high, as reflected in a jump in ICASS scores. In Hyderabad, a small health unit staffed by
a local nurse opened during the inspection, and the post hopes to contract with a local physician
to offer limited office hours. These are the first-ever medical services available to post
employees. Unfortunately, due to security restrictions the unit may operate only 20 hours per
week. The ultimate degree of customer satisfaction will not be known for months. However,
based on the improved availability of services and the initial positive customer feedback at both
posts, a new and costly U.S. direct-hire position may not be warranted at this time.




                                           76
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Controls
        The chargé d’affaires ad interim had submitted Mission India’s annual statement of
assurance on management controls for the period that ended on July 31, 2010. He concluded that
results of pertinent internal and external reviews provided reasonable assurance that management
control objectives were achieved. He cited compliance with various requirements in the areas of,
among others, financial reporting, property management, vehicle inventory, housing and
construction program management, and safety and health. The chargé indicated one deficiency
related to unauthorized commitments made by Consulate General Hyderabad, and certified
actions taken will correct the weakness and improve management controls.

Management Section

        The OIG team noted deficiencies in management controls within the management
sections of Mission India and addresses them in portions of this report that deal with specific
functional areas (i.e., general services and financial management), though some warrant
additional comment. The mission has not adopted or employed some automated procedures that
would improve internal controls and give managers better process visibility. The most notable is
eServices, which is a Department-wide standard for submitting requests for administrative
services. Use of eServices is spotty. Embassy New Delhi uses it for all services except facilities
management, and Consulate General Kolkata has yet to deploy it at all. Consulate Kolkata began
using the WebPASS vehicle, property receiving, and expendable supplies applications only
within the past year.

Recommendation 68: Embassy New Delhi should implement the full use of eServices in
accordance with telegraphic guidance contained in 08 State 133010. (Action: Embassy New
Delhi)

        As this report discusses elsewhere, Embassy New Delhi is assigning some of its U.S.
Government-owned residential properties in a manner contrary to 15 FAM 261. In addition, spot
checks of ILMS vehicle inventory indicate that some vehicle data are not accurate, and the
SHEM program lacks required management attention. The OIG team made specific
recommendations to address these shortcomings, but the status of these areas was at odds with
the chief of mission’s annual statement of assurance and suggests more attention is needed in
management controls.

Consular Section

        Consular managers at all posts in India are following correct procedures for control of
sensitive items such as visa foils and blank passports. The accountable officers at each post are
aware of their responsibilities for oversight of cashiering and visa and ACS operations, and they
carry them out conscientiously. In one or two cases where the inspection team noted anomalies
in the assignment of control responsibilities to inappropriate or departed officers, these were
corrected. Senior managers review visa adjudications regularly as required. The team advised the
mission to ensure that applicant passports are also secured overnight and on weekends, and the
MCCA responded by instructing consular managers at those posts not following these procedures
to begin to do so immediately.

                                          77
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


List of Recommendations

Recommendation 1: Embassy New Delhi should consolidate all travel, locally employed staff
recruiting, and nonprogrammatic procurement services that the U.S. Agency for International
Development currently provides separately. (Action: Embassy New Delhi)

Recommendation 2: Embassy New Delhi should reduce duplication and inefficiency in
nonexpendable supply and property management by establishing a pool for furniture,
furnishings, and appliances under International Cooperative Administrative Support Services.
(Action: Embassy New Delhi)

Recommendation 3: The Bureau of Consular Affairs, in coordination with Embassy New
Delhi, the Bureau of South and Central Asian Affairs, and the Bureau of Overseas Buildings
Operations, should prepare a long-range plan for Mission India to include projections of
estimated workloads, resources needed, potential locations within India, and facilities needed for
the year 2020. (Action: CA, in coordination with Embassy New Delhi, SCA, and OBO)

Recommendation 4: The Bureau of Overseas Buildings Operations, in coordination with
Embassy New Delhi, the Bureau of South and Central Asian Affairs, the Bureau of Diplomatic
Security, and the Bureau of Consular Affairs, should develop and implement a long-term
strategic plan that addresses the management and disposition of residential and nonresidential
real estate and facilities, as concluded in its April 1, 2010, memorandum, Real Estate Issues and
USG Properties in India. (Action: OBO, in coordination with Embassy New Delhi, SCA, DS,
and CA)

Recommendation 5: Embassy New Delhi, in coordination with the Bureau of Human
Resources and the Bureau of South and Central Asian Affairs, should review the grade level of
the trade unit chief position in the economic section, which is currently graded at the FS-03 level,
to determine whether it should be upgraded to FS-02. (Action: Embassy New Delhi, in
coordination with DGHR and SCA)

Recommendation 6: Embassy New Delhi should set and adhere to deadlines for disbursing the
funds for each of the activities that the Assistant Secretary of the Bureau of Oceans and
International Environmental and Scientific Affairs approved in 2009. (Action: Embassy New
Delhi)

Recommendation 7: Embassy New Delhi should weigh the costs and benefits and make a
decision whether to continue hosting the information support team. (Action: Embassy New
Delhi)

Recommendation 8: Embassy New Delhi should devise and implement a business plan to
convert Span magazine to an interactive electronic version, taking into account the concomitant
personnel and budget ramifications of the change. (Action: Embassy New Delhi)

Recommendation 9: Embassy New Delhi should analyze the cultural and educational
organizations, institutions, and agents of influence in India, using the results of the analysis to
shape strategy and dedicate program resources. (Action: Embassy New Delhi)
                                                  78
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 10: Embassy New Delhi, in coordination with the Bureau of International
Information Programs, should assign complete supervisory responsibility for the public affairs
sections’ libraries to the information resource officer based in New Delhi. (Action: Embassy
New Delhi, in coordination with IIP)

Recommendation 11: The Bureau of International Information Programs, in coordination with
Embassy New Delhi, should limit the responsibilities of the New Delhi-based information
resource officer to India only. (Action: IIP, in coordination with Embassy New Delhi)

Recommendation 12: The Bureau of Educational and Cultural Affairs should take steps to
ensure that a regional educational advising coordinator is assigned to India. (Action: ECA)

Recommendation 13:        (b)(5)(b)(6)



Recommendation 14: Embassy New Delhi should reassign supervisory duties in the public
affairs section, ensuring that the deputy public affairs officer oversees all programs and activities
at the American Center. (Action: Embassy New Delhi)

Recommendation 15: Embassy New Delhi should rewrite the work requirements of the public
affairs section’s office manager to include duties that will provide broader support to the section.
(Action: Embassy New Delhi)

Recommendation 16: Embassy New Delhi should clearly delineate supervisory and oversight
responsibilities of the deputy public affairs officer, cultural affairs officer, and program officers
in the conduct of grants management. All services requested from the grantee organization
should be itemized in advance with descriptions and costs. (Action: Embassy New Delhi)

Recommendation 17:        (b)(5)(b)(6)


Recommendation 18: The Bureau of Consular Affairs, in coordination with Embassy New
Delhi, should provide guidance to consular managers through the bureau’s intranet site on the
principles of integrating large multipost consular operations, building on the lessons of Consular
Team India. (Action: CA, in coordination with Embassy New Delhi)

Recommendation 19: Embassy New Delhi, in coordination with the Bureau of Consular
Affairs and the Bureau of Human Resources, should designate the officer in the FS-03 American
citizens services chief position in Embassy New Delhi as the countrywide coordinator for
American citizens services and should reevaluate the appropriate grade level for that position.
(Action: Embassy New Delhi, in coordination with CA and DGHR)

Recommendation 20: Embassy New Delhi should centralize the consular information unit
functions to the extent possible, including managing a unified nonimmigrant visa appointment


                                           79
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

system, an emergency appointment system, and consistent Web sites, at either Consulate General
Mumbai or Embassy New Delhi. (Action: Embassy New Delhi)

Recommendation 21: Embassy New Delhi should coordinate with Consulate General Chennai
so that the call center in New Delhi will respond to all routine phone calls and emails for
Chennai as it does for the other posts in India. (Action: Embassy New Delhi)

Recommendation 22: Embassy New Delhi should centralize writing requests for revocation of
H and L visa petitions for all posts in India at the embassy, using eligible family members for
this work. The consular officers who adjudicate the individual cases should provide their case
notes and files to the eligible family members and clear the completed revocation requests.
(Action: Embassy New Delhi)

Recommendation 23: Embassy New Delhi should designate a mid-level consular manager in
Consulate General Chennai as the countrywide coordinator for the mission to establish, monitor,
and train officers in adjudication standards for H and L visas. (Action: Embassy New Delhi)

Recommendation 24: Embassy New Delhi should request that the Bureau of Consular Affairs
designate Consulate General Chennai as the only post in India authorized to adjudicate blanket L
visa applications. (Action: Embassy New Delhi, in coordination with CA)

Recommendation 25: Embassy New Delhi should create a special unit at Consulate General
Chennai for adjudicating blanket L visa applications and create a program in which entry-level
officers are assigned to that unit on a rotational basis. (Action: Embassy New Delhi)

Recommendation 26: Embassy New Delhi should designate a countrywide coordinator for
standard operating procedures for all consular processes. (Action: Embassy New Delhi)

Recommendation 27: Embassy New Delhi, in coordination with the Bureau of Consular
Affairs, should establish and fill a locally employed staff position that would serve as a
management analyst and special assistant in support of management issues for Consular Team
India. The position would be attached to the office of the minister-counselor for consular affairs
in Embassy New Delhi. (Action: Embassy New Delhi, in coordination with CA)

Recommendation 28: The Bureau of Consular Affairs, in coordination with Embassy New
Delhi and the Bureau of Human Resources, should approve Embassy New Delhi’s request for
three entry-level officer positions for the consular section in New Delhi. (Action: CA, in
coordination with Embassy New Delhi and DGHR)

Recommendation 29: Embassy New Delhi should coordinate with consular managers in
Consulates General Mumbai, Chennai, and Hyderabad to reorganize services to visa customers
in the public areas, using primarily contract personnel and using some locally employed staff to
monitor their work. (Action: Embassy New Delhi)

Recommendation 30: The Bureau of Consular Affairs, in coordination with Embassy New
Delhi, should designate the highest level of services under the Global Support Strategy contract
for Mission India, to include off-site centers where visa applicants submit their documents and
are fingerprinted. (Action: CA, in coordination with Embassy New Delhi)

                                           80
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 31: The Bureau of Consular Affairs, in coordination with Embassy New
Delhi, should establish off-site visa processing centers in the states of Gujarat, Punjab, and
Karnataka under the Global Support Services contract and support Embassy New Delhi in hiring
eligible family members to travel to these centers on a regular basis to monitor their activities.
(Action: CA, in coordination with Embassy New Delhi)

Recommendation 32: Embassy New Delhi, in coordination with the Bureau of Consular
Affairs, should consolidate all immigrant visa operations either in Embassy New Delhi or in the
new facility at Consulate General Mumbai. (Action: Embassy New Delhi, in coordination with
CA)

Recommendation 33: Embassy New Delhi, in coordination with the Bureau of Consular
Affairs and the Bureau of Human Resources, should request a review of the grade level of the
position of the consular section chief in New Delhi to determine whether the position should be
upgraded from FS-01 to FE-OC. (Action: Embassy New Delhi, in coordination with CA and
DGHR)

Recommendation 34: Embassy New Delhi, in coordination with the Bureau of Consular
Affairs and the Bureau of Overseas Buildings Operations, should design and implement a plan
for expanding the workspace in the consular section in Chennai to allow each locally employed
staff member to have a desk. (Action: Embassy New Delhi, in coordination with CA and OBO)

Recommendation 35: Embassy New Delhi, in coordination with the Bureau of Consular
Affairs, should obtain headphones for all employees who use the consular windows in Consulate
General Hyderabad. (Action: Embassy New Delhi, in coordination with CA)

Recommendation 36: Embassy New Delhi, in coordination with the Bureau of Consular
Affairs and the Bureau of Overseas Buildings Operations, should install sound-proofing on both
sides of the consular windows in Consulate General Hyderabad. (Action: Embassy New Delhi, in
coordination with CA and OBO)

Recommendation 37: Embassy New Delhi, in coordination with the Bureau of Consular
Affairs, the Bureau of South and Central Asian Affairs, and the Bureau of Human Resources,
should establish two additional mid-level manager positions for the consular section in Mumbai.
(Action: Embassy New Delhi, in coordination with CA, SCA, and DGHR)

Recommendation 38: Embassy New Delhi, in coordination with the Bureau of Consular
Affairs and the Bureau of Human Resources, should request a review of the grade level of the
position of the chief of the consular section in Consulate General Mumbai to determine whether
the position should be upgraded from FS-01 to FE-OC. (Action: Embassy New Delhi, in
coordination with CA and DGHR)

Recommendation 39: Embassy New Delhi, in coordination with the Foreign Service Institute,
the Bureau of Human Resources, and the Bureau of Consular Affairs, should recommend to the
Department of State a reduction of at least 50 percent in the number of language-designated
positions for consular officers assigned to the embassy and consulates general. The request
should identify the specific positions that are no longer language designated. (Action: Embassy
New Delhi, in coordination with FSI, DGHR, and CA)
                                          81
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 40: Embassy New Delhi should establish a list of appropriate and
prioritized training courses for first-line locally employed supervisors in the Consulate General
Hyderabad management section and set up a training schedule. (Action: Embassy New Delhi)

Recommendation 41: Embassy New Delhi should establish and implement a policy requiring
that all official residence salaries at Consulate General Chennai and savings contributions at
Consulate General Kolkata be made by electronic funds transfers to employees’ bank accounts.
(Action: Embassy New Delhi)

Recommendation 42: Embassy New Delhi should submit completed post differential surveys
for all posts in Mission India. (Action: Embassy New Delhi)

Recommendation 43: Embassy New Delhi should direct the consulates general to complete
the required hotel and restaurant surveys. (Action: Embassy New Delhi)

Recommendation 44: Embassy New Delhi should normalize the administrative support of
other agency personnel in Hyderabad under International Cooperative Administrative Support
Services. (Action: Embassy New Delhi)

Recommendation 45: Embassy New Delhi should identify all mission employees who have
recently served at high-threat/high-stress posts and have not had the required outbrief and direct
them to take it at post; for those for whom it is optional, they should be encouraged to do so.
(Action: Embassy New Delhi)

Recommendation 46: Embassy New Delhi should implement a mission-wide training program
based on priorities and a determination of the most cost-effective options available. (Action:
Embassy New Delhi)

Recommendation 47: The Bureau of South and Central Asian Affairs, in coordination with the
Bureau of Human Resources and Embassy New Delhi, should assign an experienced general
services officer to the vacant FS-03 general services officer position at Consulate General
Mumbai. (Action: SCA, in coordination with DGHR and Embassy New Delhi)

Recommendation 48: Embassy New Delhi should cease treating properties R13041, R6030,
R7031 (A&B), R5029 (A&B), R10036 (A&B), R12040, R9033, R9034, R11037, and R11038 as
dedicated housing and bring their management into compliance with Department of State
regulations. (Action: Embassy New Delhi)

Recommendation 49: The Bureau of Overseas Buildings Operations, in coordination with
Embassy New Delhi, should construct on U.S. Government-owned property or lease on a long-
term basis additional housing units in New Delhi, Mumbai, and Hyderabad. (Action: OBO, in
coordination with Embassy New Delhi)

Recommendation 50: Embassy New Delhi should direct Consulate General Kolkata to
implement a plan to review procurements for proper competition, bid evaluation, and contract
administration. (Action: Embassy New Delhi)



                                           82
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 51: The Office of Foreign Missions should assist in the resolution of
Consulate General Mumbai’s tax issues by responding to the telegraphic request for information
contained in Mumbai 00220, dated July 27, 2010. (Action: OFM)

Recommendation 52: The Bureau of Overseas Buildings Operations should effect the lease of
the property identified in the memorandum of understanding between the U.S. Government and
the Andhra Pradesh state government as the site for the new consulate compound in Hyderabad.
(Action: OBO)

Recommendation 53: Embassy New Delhi should implement eServices as the means for
submitting work requests to the facilities management unit. (Action: Embassy New Delhi)

Recommendation 54: Embassy New Delhi should submit to the Bureau of Overseas Buildings
Operations the necessary designs and plans for the second-floor construction of property number
x01021 in New Delhi and apartment 1a of number 9999 in Kolkata for review and approval.
(Action: Embassy New Delhi)

Recommendation 55: Embassy New Delhi should implement a plan to comply with Safety,
Health, and Environmental Management program requirements. (Action: Embassy New Delhi)

Recommendation 56: Embassy New Delhi should untangle, identify, and label all required
cabling and remove all extraneous cables in the computer server room and wiring closets at the
American Center in New Delhi. (Action: Embassy New Delhi)

Recommendation 57: Embassy New Delhi should encrypt, properly dispose of, or seek
waivers for all unencrypted Department of State laptops at Consulate General Kolkata. (Action:
Embassy New Delhi)

Recommendation 58: Embassy New Delhi should relocate the emergency power-off control
switch at the American Center in New Delhi to the wall outside the server room. (Action:
Embassy New Delhi)

Recommendation 59: (b) (5)




Recommendation 60: (b) (5)




Recommendation 61: Embassy New Delhi should close the switchboard operations at the
American Center in New Delhi and migrate those services to the embassy’s switchboard
operations center. (Action: Embassy New Delhi)




                                          83
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 62: Embassy New Delhi should reprogram the telephone switch at the
American Center in Kolkata to permit management of all voice traffic for Consulate General
Kolkata’s telephone operations center. (Action: Embassy New Delhi)

Recommendation 63: The Bureau of Overseas Buildings Operations, in coordination with
Embassy New Delhi, should fund and install a high-capacity central uninterruptible power
supply that is sufficient to provide sustained power protection and failover capabilities for
computer systems at the Mumbai new consulate compound. (Action: OBO, in coordination with
Embassy New Delhi)

Recommendation 64: Embassy New Delhi, in coordination with the Bureau of
Administration, should direct the American Community Support Association to monitor and
enforce monthly liquor and tobacco quotas at the embassy commissary. (Action: Embassy New
Delhi, in coordination with A)

Recommendation 65: Embassy New Delhi should direct the Chennai American Support
Association to install a point-of-sale inventory and accounting system in the commissary.
(Action: Embassy New Delhi)

Recommendation 66: Embassy New Delhi should direct the Mumbai American Recreation
Association and Chennai American Support Association to submit a balance sheet and income
statement for the period January 1 through June 30, 2010. (Action: Embassy New Delhi)

Recommendation 67: Embassy New Delhi, in coordination with the the Bureau of
Administration, should establish a formal American employees association at Consulate General
Hyderabad that could offer recreational and social activities in compliance with Department of
State policies and regulations. (Action: Embassy New Delhi, in coordination with A)

Recommendation 68: Embassy New Delhi should implement the full use of eServices in
accordance with telegraphic guidance contained in 08 State 133010. (Action: Embassy New
Delhi)




                                         84
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy New Delhi should develop a comprehensive strategy
for allocating responsibilities among senior staff, particularly the Ambassador and the deputy
chief of mission, for engaging with senior Indian counterparts in furtherance of mission
objectives, including Washington agencies where appropriate.

Informal Recommendation 2: Embassy New Delhi should assess what tasks and programs can
be modified or dropped when the front office, with senior staff, propose to undertake a
significant new task or program and should minimize last-minute taskings to the degree possible.

Informal Recommendation 3: Embassy New Delhi should send the counterterrorism
coordinator to take the appropriate Foreign Service Institute courses on managing foreign
assistance.

Informal Recommendation 4: Embassy New Delhi should expend legacy Bureau of
International Narcotics and Law Enforcement Affairs funds before the end of fiscal year 2011.

Informal Recommendation 5: Embassy New Delhi should require that the economic section
take further measures to expedite the drafting and clearing process, including setting deadlines
for clearance and approval of cables and record emails and monitoring compliance.

Informal Recommendation 6: Embassy New Delhi should review its November 2010 decision
to reallocate reporting responsibilities among the consulates general.

Informal Recommendation 7: Embassy New Delhi should consolidate the political section’s
global issues and internal units and move one officer position to the counterterrorism unit.

Informal Recommendation 8: Embassy New Delhi should require that mid-level political and
economic, environment, science, and technology managers devote more time to mentoring and
guidance of their personnel.

Informal Recommendation 9: Embassy New Delhi should arrange for the political officer who
will be responsible for monitoring Department of State-funded assistance to take Foreign Service
Institute courses PY 220 and PY 222 (Introduction to Grants and Cooperative Agreements, and
Monitoring Grants and Cooperative Agreements, respectively).

Informal Recommendation 10: Embassy New Delhi should determine where augmenting its
vernacular language capability, including electronic communication, would result in increased
effectiveness in reaching priority audiences.


                                          85
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 11: Embassy New Delhi should, consonant with Mission Strategic
and Resource Plan priorities and with the information resource officer’s concurrence, grant
library directors in public affairs sections increased authority to purchase books and materials
appropriate to their membership.

Informal Recommendation 12: Embassy New Delhi should conduct a review of the Bangalore
virtual presence post operation to determine whether it should be continued.

Informal Recommendation 13: Embassy New Delhi should require that the chief of the
consular section and the American citizens services unit chief in Kolkata schedule regular times
to interview in the nonimmigrant visa unit so that one of them is always readily available for
advice and assistance to the nonimmigrant visa staff and to increase productivity.

Informal Recommendation 14: Embassy New Delhi should direct certifying officers in
Mission India to stamp the name of the certifying officer on the Undisbursed Voucher Detail
Report in accordance with Department of State guidance

Informal Recommendation 15: Embassy New Delhi should direct management officers in
Mission India to periodically conduct spot checks of the section’s time and attendance reporting
to confirm that time attendance was reported accurately.

Informal Recommendation 16: Embassy New Delhi should direct Consulates General Chennai
and Kolkata to conduct a quarterly review of vouchers certified by the alternate certifying officer
and document the reviews in accordance with Department of State guidance.

Informal Recommendation 17: Embassy New Delhi should direct Consulate General Mumbai
to coordinate more closely with the general services office on receipt of goods and services to
ensure timely payment of vendor invoices.

Informal Recommendation 18: Embassy New Delhi should direct Consulate General Chennai
to complete the monthly verifications of the daily accounting of consular fee collections for the
months of July through November 2010.

Informal Recommendation 19: Embassy New Delhi should direct Consulate General Kolkata
to issue a cash advance to the alternate cashier in accordance with Department of State guidance.

Informal Recommendation 20: Embassy New Delhi should direct Consulate General Kolkata
to review security procedures for the movement of cash by the consular cashier from the
consulate general to the American Center and seek clearance from the regional security officer.

Informal Recommendation 21: Embassy New Delhi should disseminate mission-wide
guidance on the payment of overtime and accrual of compensatory time.

Informal Recommendation 22: Embassy New Delhi should encourage supervisors of those
employees in Mission India who have recently served in high-threat/high-stress posts to take the
Foreign Service Institute’s online seminar on working with returnees from high-stress posts.



                                           86
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 23: Embassy New Delhi should direct the locally employed staff
associations to conduct digital video conferences to improve communications and facilitate
synthesis of common issues to discuss with management.

Informal Recommendation 24: Embassy New Delhi should improve transparency of its
housing assignments by outreach and dissemination of information on policies, procedures, and,
as appropriate, housing board meeting agendas, deliberations, and decisions.

Informal Recommendation 25: Embassy New Delhi should direct Consulate General Kolkata
to conduct a 100 percent verification of data submitted to its Integrated Logistics Management
System vehicle inventory.

Informal Recommendation 26: Embassy New Delhi should direct Consulate General Kolkata
to expand its purchase card program to other sections.

Informal Recommendation 27: Embassy New Delhi should review and update records in
Work Orders for Windows to reflect accurately the status of each one.

Informal Recommendation 28: Embassy New Delhi should provide cross-training among
computer specialists at the American Center and the embassy, including frequent rotation of staff
between the two facilities.

Informal Recommendation 29: Embassy New Delhi should clean up the high-frequency radio
room at its alternate command center.

Informal Recommendation 30: Embassy New Delhi should install the new high-frequency
antenna at Consulate General Kolkata’s alternate command center and test the radio to ensure
functionality.

Informal Recommendation 31: Embassy New Delhi should require that Consulate General
Kolkata include the information programs officer as a member of its emergency action
committee.

Informal Recommendation 32: Embassy New Delhi should update bidding information to
inform potential bidders of the lack of adequate schools in Kolkata.

Informal Recommendation 33: Embassy New Delhi should direct the Mumbai American
Recreation Association to prepare a business plan prior to the move into the new consulate
compound.

Informal Recommendation 34: Embassy New Delhi should direct the Chennai American
Support Association and the Mumbai American Recreation Association to revise their respective
charters to reflect actual services provided and to obtain the signatures of the principal officer or
designee and two board members as required by Department of State regulations.

Informal Recommendation 35: Embassy New Delhi should direct the Chennai American
Support Association at Consulate General Chennai to conduct monthly spot checks and review
the reconciliation of the monthly bank statement.

                                           87
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 36: Embassy New Delhi should direct the Chennai American
Support Association to separate the duties of its two employees in the commissary to ensure
adequate separation of duties and proper internal controls.




                                          88
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Principal Officials                          Name                      Arrival Date

Ambassador                                   Timothy J. Roemer         07/16/10
Deputy Chief of Mission                      Donald Lu                 08/01/10

Chiefs of Sections:

Management                                   Geraldine O’Brien         08/25/07
Consular                                     James Herman              07/31/09
Political                                    Uzra Zeya                 07/29/09
Economic                                     Blair Hall                07/29/09
Public Affairs                               Michael Pelletier         12/06/09
Regional Security                            Earl Miller               07/25/08
Consulates
     Consul General Chennai                  Andrew Simkin             08/20/08
     Consul General Hyderabad                Katherine Dhanani         08/29/10
     Consul General Kolkata                  Beth Payne                07/31/08
     Consul General Mumbai                   Paul Folmsbee             07/21/08


Other Agencies:

Foreign Agricultural Service                 Holly Higgins             07/30/06
Defense Attaché                              Col. Richard White        05/11/09
Department of Defense
     Army Attaché                            Maj. Harp Bains           05/06/10
     Air Attaché                             Vacant
     Naval Attaché                           Cdr. Kelly Federal        03/27/09

Office of Defense Cooperation                Capt. Carlton Soderholm   06/30/08
Foreign Commercial Service                   Judy Reinke               07/30/10
U.S. Agency for International Development    Erin Soto                 07/23/09
Department of Health and Human Services      Nandita Chopra (Acting)   11/08/10
Centers for Disease Control and Prevention   Pauline Harvey            08/25/10
Food and Drug Administration                 Bruce Ross                07/22/09
U.S. Department of Homeland Security:
Citizen and Immigration Services             Corinna Luna-Benavides    06/22/08
Customs and Border Protection                Steven King               03/15/10
Immigration and Customs Enforcement          Elliot L. Harbin          08/23/06
Drug Enforcement Agency                      Michael W. Brown          03/27/10
Federal Bureau of Investigation              Daniel Clegg              03/10/10
Library of Congress                          Laila Mulgaokar           01/21/03
Department of Treasury                       Russell Green             12/12/07




                                            89
                               SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
ACAO            Assistant cultural affairs officer
ACS             American citizens services
ACSA            American Community Support Association
ARSO/I          Assistant regional security officer/investigator
CA              Bureau of Consular Affairs
CAO             Cultural affairs officer
CASA            Chennai American Support Association
CDC             Centers for Disease Control
CLO             Community liaison officer
CTI             Consular Team India
DCM             Deputy chief of mission
DOD             Department of Defense
DS              Bureau of Diplomatic Security
DVC             Digital video conferences
ECA             Bureau of Educational and Cultural Affairs
EEST            Economic, environment, science, and technology
EFM             Eligible family member
ELO             Entry-level officer
FSI             Foreign Service Institute
GSO             General services office
HR              Human resources
HRO             Human resources officer
ICASS           International Cooperative Administrative Support Services
ILMS            Integrated Logistics Management System
IM              Information management
IMO             Information management officer
IV              Immigrant visa
LE              Locally employed
MARA            Mumbai American Recreation Association
MCCA            Minister-counselor for consular affairs
MSRP            Mission Strategic and Resource Plan
NIV             Nonimmigrant visa
OBO             Bureau of Overseas Buildings Operations
OIG             Office of Inspector General
PAO             Public affairs officer
PAS             Public affairs section
RIMC            Regional Information Management Center
SCA             Bureau of South and Central Asian Affairs
SHEM            Safety, Health, and Environmental Management
UPS             Uninterruptible power supply
USAID           U.S. Agency for International Development
USIEF           U.S.-India Educational Foundation



                             90
                SENSITIVE BUT UNCLASSIFIED
              SENSITIVE
   SENSITIVE BUT        BUT UNCLASSIFIED
                 UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
         Arlington, VA 22219



   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




                           1
   SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED
